<html>
<title> - LUNAR SCIENCE AND RESOURCES: FUTURE OPTIONS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      LUNAR SCIENCE AND RESOURCES:
                             FUTURE OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2004

                               __________

                           Serial No. 108-53

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
92-757                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 DANA ROHRABACHER, California, Chairman
RALPH M. HALL, Texas                 NICK LAMPSON, Texas
LAMAR S. SMITH, Texas                JOHN B. LARSON, Connecticut
CURT WELDON, Pennsylvania            MARK UDALL, Colorado
KEN CALVERT, California              DAVID WU, Oregon
ROSCOE G. BARTLETT, Maryland         EDDIE BERNICE JOHNSON, Texas
GEORGE R. NETHERCUTT, JR.,           SHEILA JACKSON LEE, Texas
    Washington                       BRAD SHERMAN, California
FRANK D. LUCAS, Oklahoma             DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
ROB BISHOP, Utah                     VACANCY
MICHAEL BURGESS, Texas               VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida                  BART GORDON, Tennessee
VACANCY
SHERWOOD L. BOEHLERT, New York
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
              RUBEN VAN MITCHELL Professional Staff Member
                  KEN MONROE Professional Staff Member
                 CHRIS SHANK Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             April 1, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Nick Lampson, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, U.S. House of Representatives.........................     9

Statement by Representative Roscoe G. Bartlett, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    10

                               Witnesses:

Dr. Paul D. Spudis, Senior Staff Scientist, Johns Hopkins 
  University Applied Physics Laboratory; Visiting Scientist, 
  Lunar and Planetary Institute, Houston, Texas
    Oral Statement...............................................    11
    Written Statement............................................    14
    Biography....................................................    19

Dr. Daniel F. Lester, Research Scientist, McDonald Observatory, 
  University of Texas, Austin
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    24

Dr. Donald B. Campbell, Professor of Astronomy, Associate 
  Director, National Astronomy and Ionosphere Center (NAIC), 
  Cornell University
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    30

Dr. John S. Lewis, Professor of Planetary Sciences, Co-Director, 
  Space Engineering Research Center, University of Arizona
    Oral Statement...............................................    31
    Written Statement............................................    34
    Biography....................................................    36

Dr. Timothy D. Swindle, Professor of Geosciences and Planetary 
  Sciences, University of Arizona
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    41

Discussion
  Helium-3.......................................................    42
  Solar Energy on the Moon.......................................    42
  In Situ Resources..............................................    43
  Possible Return Dates to the Moon..............................    44
  Timeframe for In Situ Resource Development.....................    45
  Prioritization of Lunar Science................................    45
  Timeframe for a Human Return to the Moon.......................    46
  Other Potential Lunar Fuels....................................    47
  Mobile Solar Stores............................................    48
  Gravity Gradient Stabilization.................................    49
  Mobile Solar Stores II.........................................    49
  Moon as a Way Station..........................................    50
  The Value of Telescopes on the Lunar Surface...................    51
  Amount of Water on the Lunar Surface...........................    52
  Additional Data Needed Before a Human Return Mission...........    53
  Canceled Apollo Missions as Future Expeditions.................    54
  International Cooperation......................................    54
  Our Knowledge of the Lunar Surface Regarding Vehicles on Mars..    57
  Percent of the Moon That Has Constant Light....................    57
  Role of Private Sector.........................................    58
  Space Exploration and National Security........................    59

              Appendix: Answers to Post-Hearing Questions

Dr. Paul D. Spudis, Senior Staff Scientist, Johns Hopkins 
  University Applied Physics Laboratory; Visiting Scientist, 
  Lunar and Planetary Institute, Houston, Texas..................    64

Dr. Daniel F. Lester, Research Scientist, McDonald Observatory, 
  University of Texas, Austin....................................    67

Dr. Donald B. Campbell, Professor of Astronomy, Associate 
  Director, National Astronomy and Ionosphere Center (NAIC), 
  Cornell University.............................................    70

Dr. John S. Lewis, Professor of Planetary Sciences, Co-Director, 
  Space Engineering Research Center, University of Arizona.......    73

Dr. Timothy D. Swindle, Professor of Geosciences and Planetary 
  Sciences, University of Arizona................................    77

 
              LUNAR SCIENCE AND RESOURCES: FUTURE OPTIONS

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Dana 
Rohrabacher [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Lunar Science and Resources:

                             Future Options

                        thursday, april 1, 2004
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, April 1, 2004 at 1:00 p.m., the Subcommittee on Space 
and Aeronautics will hold a hearing to examine current thinking about 
the suitability of the Moon for scientific and commercial activities.
    The hearing is not meant to focus on whether to go to the Moon, but 
rather is intended to examine the suitability of using the Moon for an 
extended--perhaps permanent--presence to conduct space science and 
resource-extraction activities.

2. Witnesses

        <bullet>  Dr. Paul Spudis is a Senior Staff Scientist at the 
        Johns Hopkins University Applied Physics Laboratory and 
        Visiting Scientist at the Lunar and Planetary Institute in 
        Houston, Texas.

        <bullet>  Dr. Daniel F. Lester is a Research Scientist at the 
        McDonald Observatory, University of Texas at Austin.

        <bullet>  Dr. Donald Campbell is a Professor of Astronomy and 
        associate director of the National Astronomy and Ionosphere 
        Center (NAIC) at Cornell University.

        <bullet>  Dr. John S. Lewis is a Professor of Planetary 
        Sciences and Co-Director of the Space Engineering Research 
        Center at the University of Arizona.

        <bullet>  Dr. Timothy Swindle is Professor of Geosciences and 
        Planetary Sciences at the University of Arizona.

3. Overarching Questions

1.  Is the Moon a uniquely useful site to base deep-space radio, 
infrared and optical telescopes or other science instruments?

        a.  Can space science be conducted using instruments on the 
        Moon more reliably and cheaply than it could be done from Earth 
        or using satellite-based instruments? What other fields of 
        science (i.e., astrobiology, cosmology) would benefit from 
        using a Moon-based laboratory?

2.  Does the Moon contain minerals, isotopes, or other materials that 
one day may be commercially exploitable? How much certainty is there 
about the presence and quantity of these resources? How readily 
extractable are they?

        a.  What additional technologies, if any, must we first develop 
        before these resources can be made useful?

4. Background

    On January 14, 2004, President Bush announced his Space Exploration 
Initiative, putting in motion a major new NASA program to send 
astronauts to the ``Moon, Mars and beyond.'' Among other goals, the 
plan states: ``The extended human presence on the Moon will enable 
astronauts to develop new technologies and harness the Moon's abundant 
resources to allow manned exploration of the challenging environments.. 
. . Experience and knowledge gained on the Moon will serve as a 
foundation for human missions beyond the Moon, beginning with Mars.'' 
\1\
---------------------------------------------------------------------------
    \1\ ``President Bush Announces New Vision for Space Exploration 
Program.'' www.whitehouse.gov/news/releases/2004/01/20040114-1.html
---------------------------------------------------------------------------
    The Space Exploration Initiative calls for the first launch of a 
robotic probe to the Moon in 2008 to begin mapping and reconnaissance 
studies. At least one probe will be launched each year thereafter, 
either an orbiter or lander, with the goal that the first manned Moon 
mission would occur between 2015 and 2020. While the Space Exploration 
Initiative establishes a goal of going back to the Moon, it does not 
specify what we would do once we get there (i.e., lunar geology, space 
telescopes, mining).
    The initiative is silent on whether the U.S. would attempt to 
establish a permanent human presence on the Moon. But proponents of 
such a presence believe the time is ripe to advocate lunar bases--
robotic or human tended--as a logical next step of any U.S. effort to 
return to the Moon.
    Some members of the lunar science and astronomy communities have 
long viewed the Moon as a base from which to operate telescopes and 
other science instruments.
    The Moon offers several clear advantages--and disadvantages--as a 
base for astronomical observatories. Advantages include the lack of an 
atmosphere, its ability to shield instruments from radio and thermal 
pollution of Earth, lack of a magnetic field, a solid surface, and, in 
lunar craters at the poles, the capability of keeping infrared 
telescopes operating at optimally cold temperatures.
    Disadvantages include dust, the need to install power sources to 
run instruments, and the risk of landing payloads safely on the Moon. 
Human-tended operations pose challenges that are far greater, such as 
assuring a reliable supply of food, water and oxygen; developing a 
suitable shelter; high background radiation; the risks of launching and 
landing; working in a cold vacuum; and the prolonged effects of 
operating in a low-gravity (one-sixth of Earth's) environment.
    Some scientists believe the Moon contains large deposits of 
minerals and isotopes that one day may be commercially exploitable. Of 
most interest is the possible presence of water, and the presence of 
helium-3, which theoretically could be used on Earth to generate energy 
using fusion reactors.
    The attached article from the March 12, 2004 edition of Science 
Magazine outlines the debate on possible activities that could be 
conducted on the Moon.

5. Issues

        <bullet>  How much water is on the Moon and how difficult would 
        it be to extract? In 1994, the U.S. lunar orbiter Clementine 
        found indications of frozen water at the Moon's poles. 
        Scientists disagree on whether water is actually present, and, 
        if it is, whether it exists in significant quantities. 
        Obviously, water would be a boon to any human activities on the 
        Moon because it could be used to sustain human life and to 
        produce hydrogen fuel and oxygen. If no readily accessible 
        source of water is found, lunar astronauts would need to 
        transport their own water, significantly adding to the 
        logistics burden and possibly limiting the amount of other 
        materials they could bring along, as well as limiting the time 
        they could remain on the Moon.

             Water can be transformed into fuel (hydrogen) and oxygen, 
        but exploiting this opportunity requires launching heavy 
        processing equipment from Earth, safely landing and assembling 
        it on the lunar surface, and providing power for its operation. 
        Would benefits of this approach outweigh the costs of simply 
        launching fuel and oxygen from Earth? Would the lack of easily 
        extractable lunar ice prove to be an insurmountable obstacle to 
        long-term human habitation?

        <bullet>  Do the advantages outweigh the disadvantages of using 
        the Moon as a base for astronomical observatories? How does the 
        Moon compare with other alternatives? Scientists disagree about 
        the benefits of using the Moon as a site for operating science 
        instruments that are designed to look into deep space. 
        Astronomical observatories located on the Moon's far side, or 
        at its poles, hold many advantages over Earth-based 
        observatories. Having no atmosphere eliminates a major source 
        of aberrations common to Earth-based telescopes and it permits 
        viewing objects at all wavelengths (Earth's atmosphere filters 
        out ultraviolet, x-ray, and gamma ray wavelengths). The Moon 
        would also act as a shield against radio and thermal pollution 
        from Earth sources. Its uniformly low temperatures at the lunar 
        poles provide an excellent location to site infrared 
        telescopes.

             Disadvantages include the threat of lunar dust settling 
        on, and obstructing telescope optics. Dust may be kicked up 
        during landing, assembly, or repair. The risk of safely landing 
        the telescope is substantial. Providing power to run the 
        instruments will require construction of solar arrays or the 
        use of a small nuclear-electric generator at a location far 
        enough away to avoid interference. Relying on lunar astronauts 
        to assemble the observatory raises significant risk factors, 
        especially if they are expected to work at the bottom of a 
        deep, cold crater.

             Some scientists advocate free-flying telescopes (such as 
        Hubble, the Chandra Observatory, and the newly commissioned 
        Spitzer Infrared Observatory) as a more cost-effective, less 
        risky alternative than lunar-based telescopes. With the 
        exception of Hubble, none of the observatories are designed to 
        be serviced or repaired, eliminating any need for human 
        tending. Free flyers can be launched to high Earth orbits or 
        libration points, removing a large source of thermal and radio 
        interference. Guidance, pointing and tracking technologies are 
        extremely accurate, negating any advantage of using a stable 
        lunar surface.

        <bullet>  Is it commercially practical to mine lunar-based 
        minerals and isotopes? Scientists disagree about the amounts 
        and types of valuable ores that may be found on the Moon. A 
        related issue is whether commercial enterprises can overcome 
        the huge costs associated with launching, landing and 
        assembling foundries and fabrication facilities to mine and 
        process any ores, and transport finished products to Earth or 
        use them to support missions to other parts of the Solar 
        System. Once again, the availability of lunar ice (water) would 
        affect the success of such activities.

             Harvesting resources on the Moon would also raise several 
        important legal questions (about which the Committee intends to 
        hold a future hearing). The United States is a signatory to 
        four multinational treaties concerning the use of outer space, 
        two of which expressly mention the Moon. The Treaty on 
        Principles Governing the Activities of States in the 
        Exploration of the Use of Outer Space, including the Moon and 
        Other Celestial Bodies was codified in 1967 and ratified by the 
        United States, Russia and 96 other nations. Among other things, 
        the treaty provides that the Moon is ``not subject to national 
        appropriation.'' The United States is not a signatory to the 
        Agreement Governing the Activities of States on the Moon and 
        Other Celestial Bodies (``the Moon Treaty''). Codified in 1979 
        and ratified by only seven nations, the Moon Treaty states in 
        relevant part that the Moon is ``the common heritage of all 
        mankind,'' and that the Moon's natural resources may not become 
        the property of any person. The treaty further provides for an 
        international regime to govern the ``exploitation of the 
        natural resources of the Moon.''

        <bullet>  How practical is it to consider extracting helium-3 
        for power generation facilities on Earth? Helium-3 is a scarce 
        isotope on Earth but lunar samples returned by Apollo missions 
        suggests that it is more abundant on the Moon's surface. While 
        it may more plentiful, extracting large amounts of helium-3 
        from lunar soil is likely to prove difficult. Physicists 
        believe helium-3 will one day be used as a fuel for specially 
        designed fusion reactors on Earth, but development of such 
        reactors is decades away.

6. Questions to Witnesses

    In his letter of invitation to appear as a witness, Dr. Spudis was 
asked to address the following questions in his testimony:

        <bullet>  What science can be conducted on the surface of the 
        Moon that cannot be duplicated by Earth-based research or free-
        flying satellites?

        <bullet>  What minerals, elements and isotopes exist on the 
        Moon in sufficient quantities that they could contribute to 
        expanding the reach of human exploration of the solar system? 
        What is the basis of your estimate and how widely shared is it? 
        How soon after a human return to the Moon would it be possible 
        to begin exploiting resources?

        <bullet>  How much water do you believe is trapped on the lunar 
        surface, and what is the basis of your estimates? How confident 
        are you of these estimates? Based on current observations, is 
        the water concentrated in various pockets on the lunar surface, 
        or is it widely distributed?

        <bullet>  Do you believe that long-term human habitation on the 
        Moon is necessary to conduct science and lunar resource 
        extraction activities? What role would robotics play?

    In his letter of invitation to appear as a witness, Dr. Lewis was 
asked to address the following questions in his testimony:

        <bullet>  What minerals, elements and isotopes exist on the 
        Moon in sufficient quantities that they could contribute to 
        expanding the reach of human exploration of the solar system? 
        What is the basis of your estimate and how widely shared is it? 
        How soon after a human return to the Moon would it be possible 
        to begin exploiting resources?

        <bullet>  What are the advantages to human exploration of the 
        solar system by siting fabrication and processing facilities on 
        the Moon? Can lunar-based fabrication be done more effectively 
        than using Earth-bound facilities?

        <bullet>  How would you characterize the possibility that 
        extraction of Moon materials may one day be commercially 
        viable?

    In his letter of invitation to appear as a witness, Dr. Campbell 
was asked to address the following questions in his testimony:

        <bullet>  How much water do you believe is trapped on the lunar 
        surface, and what is the basis of your estimates? How confident 
        are you of these estimates? Based on current observations, is 
        the water concentrated in various pockets on the lunar surface, 
        or is it widely distributed?

        <bullet>  How important is finding water to exploiting the Moon 
        for scientific or economic purposes?

        <bullet>  What kinds of instruments need to be flown on 
        upcoming lunar probes to try to resolve questions about water 
        on the Moon?

        <bullet>  What other minerals, ores, or elements do you believe 
        may be present in the lunar soil that may hold interest for 
        future exploitation?

    In his letter of invitation to appear as a witness, Dr. Lester was 
asked to address the following questions in his testimony:

        <bullet>  What space science can be conducted on the surface of 
        the Moon that cannot be duplicated by Earth-based research or 
        free-flying satellites?

        <bullet>  Is the Moon an appropriate site for astronomical 
        observatories? What advantages and disadvantages does the Moon 
        pose as a base for telescopes?

        <bullet>  As NASA begins to launch lunar robotic probes to 
        survey the Moon's resources, what instruments should be flown 
        on the probes that can be used to serve the Space Exploration 
        Initiative as well as inform lunar scientists about the 
        suitability of using the Moon as a base for long-term science 
        activities?

        <bullet>  What are your views about the practicality of 
        establishing long-term human bases on the Moon to conduct 
        science? Will robotics be able to carry out the same science 
        missions without the presence of humans on the Moon?

    In his letter of invitation to appear as a witness, Dr. Swindle was 
asked to address the following questions in his testimony:

        <bullet>  What are the most pressing questions in lunar 
        science? To what extent do they require human lunar missions to 
        be pursued? To what extent can they be pursued from Earth?

        <bullet>  What minerals, elements and isotopes exist on the 
        Moon in sufficient quantities that they could contribute to 
        expanding the reach of human exploration of the solar system? 
        What is the basis of your estimate and how widely shared is it? 
        How soon after a human return to the Moon would it be possible 
        to begin exploiting resources?

        <bullet>  Specifically, how much helium-3 do you believe is on 
        the Moon, and what is the basis of your estimate? Based on 
        current observations, is the helium-3 concentrated in various 
        pockets on the lunar surface, or is it widely distributed? How 
        much ore would have to processed to refine useful amounts of 
        helium-3, and how technologically difficult would it be to 
        accomplish? How long after a human return to the Moon would 
        production of helium-3 likely be viable? How close are we to 
        developing technologies that could make use of helium-3?

7. Attachment

    ``Moon's `Abundant Resources' Largely an Unknown Quantity,'' 
Science Magazine, March 12, 2004
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Rohrabacher. I hereby call this meeting of the 
Space and Aeronautics Subcommittee to order. Without objection, 
the Chair will be granted the authority to recess this 
committee at any time. Hearing no objections, so ordered.
    Thirty years ago, the end of the Apollo era signaled the 
beginning of a much more narrow, scaled-back agenda for human 
space flight. Unfortunately, President Bush--or should I say 
fortunately, not unfortunately. Fortunately, President Bush has 
made the decision to recommit this nation to its heritage of 
human exploration, and then pushing it beyond, human 
exploration of the universe. The question now is not whether we 
will return to the Moon, but what things might be done there in 
the name of science and economic development. Today's hearing 
will focus on the Moon. What are the key lunar minerals and 
ores there on the Moon and what is the Moon's potential as a 
scientific-industrial laboratory.
    And I share the belief that the Moon affords us the 
opportunity to pursue exploration, perhaps in the tradition of 
Lewis and Clark. The Moon is a way station, that is right. That 
is true. But, further than that, it could well be a destination 
in and of itself. Some question whether resources on the Moon 
are adequate enough to be commercially exploitable, and some 
argue whether or not the Moon is a proper destination in and of 
itself. Some question the validity of going to the Moon even 
for a visit. Measurements made by Defense Department's 
Clementine and NASA's Lunar Prospector probes have suggested 
the presence of water on the Moon. Now, there is some debate 
within the scientific community whether or not the water is 
sufficient for sustaining some type of a lunar operation. 
Resolving this issue is, of course, one of questions that needs 
to be answered.
    And NASA's plan to map lunar resources, however, holds the 
promise of informing us how people can live and work on the 
Moon. In this regard, we must ensure that the technology, 
equipment, and instruments that NASA plans to use for mapping 
the lunar resources are the right ones for the task. Is NASA's 
planned series of lunar robotic missions adequate? What input 
from the private sector has NASA received in making the 
determinations as to what its goals will be? And, that said, we 
have assembled a panel of expert witnesses that will provide us 
their insight and analysis on these issues.
    I believe that Americans must continue to be the leading 
force in exploring space. But we must know why we are going to 
be sending human beings on particular missions, and especially 
that dealing with the Moon. We must be identifying critical 
lunar exploration activities and what they could be and what 
they couldn't be. What are our limitations? All this will 
determine what role we will play as a country as a leader, as I 
say, in the exploration of space.
    Mr. Lampson, you may proceed with your opening statement.
    [The prepared statement of Mr. Rohrabacher follows:]

            Prepared Statement of Chairman Dana Rohrabacher

    Thirty years ago, the end of the Apollo era signaled the beginning 
of a much more narrow, scaled-back agenda for our human space flight 
program. Fortunately, President Bush made the decision to recommit this 
nation to its heritage of human exploration beyond Earth's orbit. The 
question now is not whether we will return to the Moon, but what things 
might be done there in the name of science and economic development. 
Today's hearing will focus on the Moon's suitability in these areas for 
enabling a permanent human presence on the lunar surface. Utilizing key 
lunar minerals and ores is critical if the Moon's potential as a 
scientific and industrial laboratory in Earth's neighborhood is to be 
realized.
    I share the belief that the Moon affords us the opportunity to 
pursue exploration in the tradition of the Lewis and Clark expedition. 
Exploration of a new frontier then aided our nation in laying the 
groundwork for settling the American Northwest. Similarly, the Moon 
offers us the potential to establish lunar human settlements in the 
future. Some question whether resources on the Moon are adequate or 
commercially exploitable. For example, measurements made by the Defense 
Department's Clementine and NASA's Lunar Prospector probes have 
suggested the presence of water on the Moon. There is some debate 
within the science community whether water is sufficiently abundant for 
sustaining lunar-based operations. Resolving this fundamental issue is 
key for successfully returning people to the Moon.
    NASA's plan to map lunar resources, however, holds the promise of 
informing us how people can live and work on the Moon. In this regard 
we must ensure that the instruments NASA plans to use for mapping lunar 
resources are the right ones for the task. Is NASA's planned series of 
lunar robotic missions adequate? What input from the private sector has 
NASA received in making these determinations? That said, we have 
assembled a panel of expert witnesses that will provide us with their 
insight and analysis of these issues.
    I believe Americans must continue to explore space, but we must 
know why we are sending humans there. Identifying critical lunar 
exploration activities will have major implications for our future role 
as a leader in space.

    Mr. Lampson. Thank you, Mr. Chairman. And the only thing 
that was wilder than your announcement about the civilization 
on the Moon is when I got a phone call this morning from a 
local television station telling me that I had been selected by 
John Kerry to be his running mate. And the only thing that I 
could think of that the only thing that would have been wilder 
than that was if it had been George Bush.
    Chairman Rohrabacher. Well, there you go.
    Mr. Lampson. It is a--thank you very much, both for the 
time, and for calling this hearing. I am certainly pleased to 
welcome our witnesses today, and look forward to all of the 
testimony that you have to bring us. We do have a distinguished 
panel of scientists appearing before the Subcommittee, and I am 
anxious to hear all of your views.
    A return to the Moon by U.S. astronauts is a central 
feature of the Space Initiative proposed by the President in 
January of this year, and that makes sense to me. I have long 
believed, as I know Dana has--Chairman Rohrabacher has, that 
the exploration of our Solar system should involve a number of 
interesting destinations, including the Moon. However, an 
important question is what we will do on the Moon. Will we have 
a limited presence there for just as long as it takes to test 
the systems and techniques needed for human missions to Mars, 
or will we establish a long-term presence on the Moon, using it 
for scientific, operational, or even commercial purposes?
    So our witnesses will present a range of viewpoints 
regarding potential scientific opportunities on the Moon. And 
they will also discuss the arguments for and against the 
likelihood of significant extraction and utilization of lunar 
resources. This hearing will help the Subcommittee understand 
just what the Moon has to offer to us as we move out into the 
Solar system. And so I hope that we will have more such 
hearings, and I hope that we will have a chance to hear from 
some of the folks at the Johnson Space Center who have been 
working on some of these issues, also, for a very long period 
of time. There is a great deal for us to learn, and when we 
have the opportunity to hear it from the people who are living 
it, it makes a big difference for me, so I come to this hearing 
eager to learn from our witnesses.
    Again, I want to welcome you, and I look forward to 
listening to the testimony.
    Chairman Rohrabacher. All right. Thank you very much. Mr. 
Bartlett--or Dr. Bartlett, I should say. Excuse me.
    Mr. Bartlett. Thank you very much. I look forward to this 
hearing. I have never shied away from the President's 
commitment to return humans to the Moon and on to Mars. In 
addition to the benefits that our society will get from pushing 
the envelope to do that, our country desperately needs 
something that captures the imagination of our people, and 
inspires our young people to go into careers of math, science, 
and engineering. Maybe this will do that. When we made that 
commitment to put a man on the Moon, that really did that.
    We now have our best and brightest students in this country 
going into careers other than science, math and engineering. As 
a matter of fact, far too many of them are going into 
destructive pursuits. They are becoming lawyers and political 
scientists. Though we need a few of each of those, and we have 
got more than a few of each of those.
    For the short-term, our economic superiority is at risk if 
we don't turn out more scientists, mathematicians, and 
engineers, and for the longer-term, our national security is at 
risk. We will not continue to have the world's best military 
unless we turn out scientists, mathematicians and engineers, 
well-trained, and in adequate numbers. And hopefully returning 
then to the Moon and on to Mars will provide the stimulus that 
encourages our young people to move into these careers that 
keep us the premiere economic nation in the world and the 
premier military nation in the world.
    So I think that this is an investment that will pay very 
well for our society. That is why I look forward to this 
hearing, and thank you all very much.
    Chairman Rohrabacher. Mr. Feeney, do you have a one-minute 
statement? All right. Without objection, the opening statements 
of other members will be put in the written record so we can 
get right to the testimony. Hearing no objection, so ordered.
    I also ask unanimous consent to insert in the appropriate 
place in the record the background memorandum prepared by the 
Majority Staff for this hearing. Hearing no objection, so 
ordered.
    We have a distinguished panel with us today to provide 
their unique perspectives to these issues. We have asked them 
to summarize their testimony to five minutes so that we can get 
right to a dialogue, and I have encouraged them to be as 
aggressive in promoting their ideas or attacking ideas that 
they disagree with, as they see fit.
    Our first witness is Dr. Paul Spudis, who is a senior staff 
scientist at Johns Hopkins University's Applied Physics 
Laboratory. Dr. Spudis is also a member of the Aldridge 
Commission, but he is appearing before this committee today as 
a recognized expert on lunar science, and his testimony will 
represent his personal views and opinions. I understand that he 
is not appearing on behalf of the Aldridge Commission, and it 
is nice to see you again, and you may proceed.

STATEMENT OF DR. PAUL D. SPUDIS, SENIOR STAFF SCIENTIST, JOHNS 
    HOPKINS UNIVERSITY APPLIED PHYSICS LABORATORY, VISITING 
    SCIENTIST, LUNAR AND PLANETARY INSTITUTE, HOUSTON, TEXAS

    Dr. Spudis. Mr. Chairman and Members of the Committee, 
thank you for inviting me here today to testify on the subject 
of lunar science, resources, and the U.S. Space Program.
    Recently, President Bush articulated a new strategic 
direction for America in space, one that includes a return to 
the Moon, and the development and use of off-planet resources. 
The value of the Moon as a space destination has not escaped 
the notice of other countries. At least four new robotic 
missions are currently being flown, or prepared for flight, by 
Europe, India, Japan, and China. And advance planning for human 
missions in many of these countries is already under way. I 
believe that our nation needs to return to the Moon, and that 
this return should take place now rather than later.
    While you have my full written testimony, in the time 
available, I would like to make the following points, and 
answers to the questions posed to me by the Committee.
    Point 1: the Moon is a unique scientific resource on which 
important research, ranging from planetary science to astronomy 
and high-energy physics, can be conducted. The Moon is a small 
planet of surprising complexity. The period of its most active 
geological evolution, between three and four billion years ago, 
corresponds to a missing chapter of Earth's history. The 
processes that work on the Moon--impact, volcanism, the 
deformation of its crust--are the same ones that affect all the 
rocky bodies of the inner solar system, including the Earth. 
Because the Moon has no atmosphere or running water, its 
ancient surface is preserved in nearly pristine form, and its 
geological story can be read with clarity and understanding. As 
Earth's companion in space, the Moon retains the unique record 
of this history of this corner of the solar system, 
particularly the history of impacts, vital knowledge 
unavailable on any other planetary object.
    Telescopes on the Moon possess many advantages over both 
Earth-based and space-based instruments. The Moon's stable base 
permits the construction of optical interferometers with 
multiple-kilometer baselines. Such an instrument could image 
the disks of terrestrial planets orbiting nearby stars. The 
Moon's environment is well characterized. Dust accumulation can 
be controlled, and presents no intractable difficulties to the 
establishment and maintenance of service telescopes.
    The Moon offers astronomers many environmental advantages 
with its far side blocking the Earth's radio noise, dark polar 
craters to cool infrared detectors, and a solid mounting base 
that requires no pointing gyros as do free-space telescopes.
    Point 2: we already know that the Moon possesses the 
resources needed to create a space-faring transportation 
infrastructure in cislunar space. Cislunar space is the volume 
of space between Earth and Moon.
    As usable commodities, lunar materials offer many 
possibilities. Because of its high abundance, oxygen production 
is likely to be an important early product. The production of 
oxygen from the Moon involves breaking the very tight chemical 
bonds in lunar minerals between oxygen and various metals, 
including iron, aluminum, and titanium. Many different 
techniques to accomplish this task have been developed. All are 
based on common industrial processes easily adapted for use on 
the Moon.
    The most important use of oxygen in its liquefied form is 
to make rocket fuel oxidizer. Coupled with extraction of 
hydrogen from the soil, this processing can make rocket fuel 
the most important and profitable commodity of a new lunar 
economy. Once processing is established, lifting fuel off the 
Moon for use in space will be like driving a tanker truck away 
from an oil refinery.
    Point 3: hydrogen, probably in the form of water ice, 
exists at the poles of the Moon in quantity, and can be 
extracted and processed into rocket propellant and life support 
consumables.
    Our current estimate of the amount of water on the Moon 
comes from two orbital measurements. The Clementine bistatic 
experiment indicates that an area of about 135 square 
kilometers of pure ice exists within an observed area of about 
45,000 square kilometers, corresponding to a concentration 
level of 0.3 percent. This estimate is consistent with 
observations from Earth-based radio observatories, including 
Arecibo and Goldstone, which show small, scattered areas of 
high radar backscatter within the sun-dark regions of the 
poles. The Lunar Prospector neutron spectrometer found a 
concentration level of about 1.5 weight-percent water over an 
area of approximately 12,000 kilometers in extent. Because of 
the observing geometry between Earth and Moon, Clementine and 
Earth-based radar could only examine about 1/4 to 1/3 the total 
dark area of the south pole, while Lunar Prospector in orbit 
around the Moon collected data from 100 percent of the dark 
area. It is estimated that over 10 billion metric tons of water 
exist at the lunar poles, an amount equal in volume to Utah's 
Great Salt Lake. We do not know how widely disseminated this 
ice is. We must survey the poles from orbit to understand this 
distribution in detail.
    We have identified several areas near both north and south 
poles of the Moon that offer near-constant Sun illumination. An 
outpost or establishment in these areas will have the advantage 
of being in sunlight for the generation of electric power via 
solar cells, and a benign thermal environment, because the Sun 
is always at grazing incidence angles. The poles of the Moon 
are inviting oases in near-Earth space, easily accessible from 
the L-1 Point or polar orbit, both possible staging areas for 
lunar missions.
    Point 4: by allowing us to travel at will with people 
throughout the Earth-Moon system, a return to the Moon to use 
lunar resources gives the Nation a challenging mission, and 
creates capability for the future. Returning to the Moon to use 
its resources will establish a robust transportation 
infrastructure, one capable of delivering people and machines 
throughout cislunar space.
    Make no mistake, learning to use the resources of the Moon, 
or any other planetary object, will be a challenging technical 
task. We must learn to use machines in remote, hostile 
environments, working with ore bodies of small concentration 
under difficult conditions. The unique polar environment of the 
Moon, with its zones of near-permanent illumination and 
permanent darkness, provides its own challenges, but also 
offers extraordinary advantages. For humanity to have a future 
beyond low-Earth orbit, we must learn to use the materials and 
conditions available off-planet. Otherwise, we will always be 
mass- and power-limited to only those payloads that we can lift 
out of Earth's deep gravity well. Investment in a few robotic 
precursor missions would be greatly beneficial and help ensure 
the success of our efforts.
    We should map the polar deposits of the Moon from orbit 
using imaging radar and an advanced neutron spectrometer to 
determine the extent, purity, and thickness of the ice in these 
dark regions. We can use this information to select sites to 
land small robotic probes, conduct chemical analyses of the 
polar deposits, and radio the results to Earth. Although we 
expect water ice to dominate, these deposits made from cometary 
cores may also contain methane, ammonia, and organic molecules, 
all potentially useful resources. We need to inventory these 
species, determine their chemical and isotopic properties as 
well as their physical nature and setting.
    Finally, we should land a series of demonstration 
experiments designed to test various techniques and methods of 
lunar resource extraction. Ultimately, both people and machines 
are needed on the Moon to fully realize its potential as an 
off-planet logistics and industrial base.
    Point 5: this mission will create routine access to 
cislunar space, which directly relates to important national 
economic and strategic goals. Learning space survival skills 
close to home, we create new opportunities for exploration, 
utilization, and wealth creation. Space will no longer be a 
hostile place that we tentatively visit for short periods, 
instead it becomes a prominent part of our world.
    Achieving freedom of cislunar space makes America more 
secure by enabling and maintaining cheaper assets in orbit, and 
more prosperous by opening an economically limitless frontier. 
Creating this infrastructure, we will have a system that can 
take us to the planets.
    Point 6: timing is everything. It is important for America 
to undertake this mission now rather than later. Many nations 
have recently indicated an interest in the Moon. The possible 
collection and use of lunar resources raises some interesting 
political and economic issues. Our initial return to the Moon 
would be an engineering and scientific research and development 
project. We undertake our studies of the extraction of lunar 
resources to ascertain the best methods to harvest and use 
these materials. Our presence on the Moon does not give us 
title to it. However, a strong and continuing American presence 
on the Moon can help establish de facto the broad legal 
framework and economic paradigm of democratic free-market 
capitalism off the Earth. It is not clear that other nations 
will be similarly inclined.
    America must have a challenging and vigorous space program. 
A mission that inspires, educates and enriches. It must relate 
to important national needs, yet push the boundaries of the 
possible and serve larger national concerns beyond scientific 
endeavors. The President's program fulfills these goals. A 
return to the Moon is a giant step into the solar system.
    Thank you for your attention, and I will be happy to answer 
any questions that you may have.
    [The prepared statement of Dr. Spudis follows:]

                  Prepared Statement of Paul D. Spudis

    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today to testify on the subject of lunar science, resources, 
and the U.S. space program.
    Recently, President Bush articulated a new strategic direction for 
America in space, one that includes a return to the Moon and the 
development and use of off-planet resources. Although we conducted our 
initial visits to that body over 30 years ago, we have recently made 
several important discoveries that indicate a return to the Moon offers 
many advantages and benefits to the Nation. In addition to being a 
scientifically rich object for study, the Moon offers abundant material 
and energy resources, the feedstock of an industrial space 
infrastructure. Once established, such an infrastructure will 
revolutionize space travel, assuring us of continuous, routine access 
to cislunar space (i.e., the space between and around Earth and Moon) 
and beyond. The value of the Moon as a space destination has not 
escaped the notice of other countries--at least four new robotic 
missions are currently being flown or prepared for flight by Europe, 
India, Japan, and China and advanced planning for human missions in 
many of these countries is already underway. Additionally, at least two 
of these future planned missions (India and China) have advanced their 
launch dates considerably within the last month, indicating that these 
nations recognize both the importance and value of the Moon and the 
urgency of establishing a presence there.
    The points below elaborate on WHY the Nation needs to return to the 
Moon and why that return should take place NOW rather than later.

(1)  The Moon is close, accessible with existing systems, and has 
resources that we can use to create a true, economical space-faring 
infrastructure.

    The inclusion of the Moon as the first destination in the 
President's new vision was no accident. The Moon is both a scientific 
bonanza and an economic treasure trove, easily reachable with existing 
systems and infrastructure that can revolutionize our national 
strategic and economic posture in space and at home. The dark areas 
near the poles of the Moon contain significant amounts (at least 10 
billion tons) of hydrogen, most probably in the form of water ice. This 
ice can be mined to support human life on the Moon and in space and to 
make rocket propellant (liquid hydrogen and oxygen). Moreover, we can 
return to the Moon using existing infrastructure of evolved-expendable 
and Shuttle-derived launch systems for only a modest increase in the 
space budget within the next five years.
    The Moon is also a testing ground, a small nearby planet where we 
can learn the techniques of the strategies and operations we need to 
explore the solar system. The ``mission'' of this program is to go to 
the Moon to learn how to use off-planet resources to make space flight 
easier and cheaper in the future. Rocket propellant made on the Moon 
will permit routine access to cislunar space by people and machines, 
vital to the servicing and protection of national strategic assets and 
for the repair and refurbishing of commercial satellites. The 
availability of refueling capability in low-Earth orbit would 
completely change the way engineers design spacecraft and the way 
companies and the government think of investing in space assets. This 
capability will serve to dramatically reduce the cost of space 
infrastructure to both the government and to the private sector, thus 
spurring economic investment (and profit).

(2)  The Moon is a unique scientific resource on which important 
research, ranging from planetary science to astronomy and high-energy 
physics, can be conducted.

    Generally considered a simple, primitive body, the Moon is actually 
a small planet of surprising complexity. The period of its most active 
geological evolution, between four and three billion years ago, 
corresponds to a ``missing chapter'' of Earth history. The processes 
that work on the Moon--impact, volcanism, and tectonism (deformation of 
the crust)--are the same ones that affect all of the rocky bodies of 
the inner solar system, including the Earth. Because the Moon has no 
atmosphere or running water, its ancient surface is preserved in nearly 
pristine form and its geological story can be read with clarity and 
understanding. Because the Moon is Earth's companion in space, it 
retains a record of the history of this corner of the Solar System--
vital knowledge unavailable on any other planetary object.
    Of all the scientific benefits of Apollo, appreciation of the 
importance of impact (the collision of solid bodies) in planetary 
evolution must rank highest. Before we went to the Moon, we had to 
understand the physical and chemical effects of these collisions, 
events completely beyond the scale of human experience. Of limited 
application at first, this new knowledge turned out to have profound 
consequences. We now believe that large-body collisions periodically 
wipe out species and families on Earth, most notably, the extinction of 
dinosaurs 65 million years ago. The telltale residue of such large body 
impacts in Earth's past is recognized because of knowledge we acquired 
about impact from the Moon. Additional knowledge still resides there; 
while the Earth's surface record has been largely erased by the dynamic 
processes of erosion and crustal recycling, the ancient lunar surface 
retains this impact history. Although other planets display craters, 
only the Moon resides in our vicinity of the solar system, records the 
same impact flux that has struck Earth over the geologic past and 
retains a unique record that cannot be read on any other body. When we 
return to the Moon, we will examine this record in detail and learn 
about its evolution as well as our own.
    Because the Moon has no atmosphere and is a quiet, stable body, it 
is a premier place to observe the universe. Telescopes erected on the 
lunar surface will possess many advantages over both Earth-based and 
space-based instruments. The Moon's level of seismic activity is orders 
of magnitude lower than that of Earth, permitting the construction of 
interferometers with multiple-kilometer baselines. Such an instrument 
can image the disks of terrestrial-sized planets orbiting nearby stars. 
The lack of an atmosphere permits clear viewing, with no spectrally 
opaque windows to contend with; the entire electromagnetic spectrum is 
visible from the Moon's surface. Its slow rotation (one lunar day is 
708 hours long, about 28 terrestrial days) means that there are long 
times of darkness for observation. Even during the lunar day, brighter 
sky objects are visible through the reflected surface glare. The far 
side of the Moon is permanently shielded from the din of 
electromagnetic noise produced by our industrial civilization. Unique 
electromagnetic windows on the sky, such as low-frequency shortwave 
radio (10-100 m), can be mapped only from the lunar far side. There 
are areas of perpetual darkness and sunlight near the poles of the 
Moon. The dark regions are very cold, only a few tens of degrees above 
absolute zero and these natural ``cold traps'' can be used to passively 
cool infrared detectors. Thus, telescopes installed near the lunar 
poles can see both entire celestial hemispheres at once with infrared 
detectors, cooled courtesy of the cold traps.
    Recent suggestions that lunar dust poses unsolvable problems and 
difficulties for telescopes on the Moon are incorrect; lunar dust does 
not ``coat'' surfaces if left undisturbed. The Apollo astronauts became 
covered in dust because in some cases, they fell, knelt, or had to 
literally wallow in dust to pick up the samples they wanted to return. 
The best evidence that lunar dust creates no long-term problems comes 
from the performance of the Laser Ranging Retroreflectors (LRRR), which 
were deployed by Apollo astronauts at four different sites. These 
passive arrays of glass cubes are used as mirrors to reflect laser 
pulses sent from Earth in order to precisely measure the Earth-Moon 
distance. After over 30 years of continuous use and exposure to the 
lunar dust environment, they show no degradation of photon return 
whatsoever.

(3)  We already know the Moon possesses the resources needed to create 
a space-faring transportation infrastructure in cislunar (Earth-Moon) 
space.

    The return of the Apollo lunar samples taught us the fundamental 
chemical make-up of the Moon. The Moon is a very dry, chemically 
reduced object, rich in refractory elements but poor in volatile 
elements. The composition of the Moon is rather ordinary, made up of 
common Earth minerals such as plagioclase (an aluminum, calcium 
silicate), pyroxene (a magnesium, iron silicate), and ilmenite (an 
iron-titanium oxide). The Moon is approximately 40 percent oxygen by 
weight. Light elements, including hydrogen and carbon, are present, but 
in small amounts--in a typical lunar mare soil, hydrogen makes up 
between 50 and 90 parts per million by weight. Soils richer in titanium 
appear to be also richer in hydrogen, thus allowing us to infer the 
extent of hydrogen abundance from the global titanium concentration 
maps returned by both the Clementine and Lunar Prospector missions.
    As usable commodities, lunar materials offer many possibilities. 
Because radiation is a serious problem for human space flight beyond 
low-Earth orbit, the simple expedient of covering surface habitats with 
soil can protect future lunar inhabitants from both galactic cosmic 
rays and even solar flares. Lunar soil can be sintered by microwave 
into very strong building materials, including bricks and anhydrous 
glasses that have strengths many times that of steel. When we return to 
the Moon, we will have no shortage of useful building materials.
    Because of its high abundance in lunar materials, oxygen production 
is likely to be an important early lunar product. The production of 
oxygen from lunar materials is not magical, but simply involves 
breaking the very tight chemical bonds between oxygen and various 
metals in lunar minerals. Many different techniques to accomplish this 
task have been developed; all are based on common industrial processes 
easily adapted to use on the Moon. Besides human life support, the most 
important use of oxygen in its liquefied form is to make rocket fuel 
oxidizer. Coupled with the extraction of solar wind hydrogen from the 
soil, this processing can make rocket fuel the most important commodity 
of a new lunar economy.
    The Moon has no atmosphere or global magnetic field, so the solar 
wind, the tenuous stream of gases emitted by the Sun (mostly hydrogen), 
are directly implanted onto the dust grains of the Moon. Although this 
solar wind hydrogen is present over most of the Moon in very small 
quantities, it too can be extracted from soil. Soil heated to about 
700<SUP>+</SUP>C releases more than 90 percent of its adsorbed solar 
wind gases. Such heat can be obtained from collecting and concentrating 
solar energy using focusing mirrors on the lunar surface, a readily 
available form of energy on the Moon. Collected by robotic processing 
rovers, solar wind hydrogen can be harvested from virtually any 
location. Additionally, recent discoveries by space probes of the 
1990's suggest that special areas exist where this material is present 
in much greater abundance, making its collection and use much easier.

(4)  Hydrogen, probably in the form of water ice, exists at the poles 
of the Moon in quantity and can be extracted and processed into rocket 
propellant and life-support consumables.

    The joint DOD-NASA Clementine mission was flown in 1994. Designed 
to test sensors developed for the Strategic Defense Initiative (SDI), 
Clementine was an amazing success story. This small spacecraft was 
designed, built, and flown within the short time span of 24 months for 
a total cost of about $150 M (FY 2003 dollars), including the launch 
vehicle. Clementine made global maps of the mineral and elemental 
content of the Moon, mapped the shape and topography of its surface 
with laser altimetry, and gave us our first good look at the intriguing 
and unique polar regions of the Moon. Clementine did not carry 
instruments specifically designed to look for lunar water, but 
encouraged by an interesting result from Arecibo radar data that 
suggested interesting deposits near the Moon's south pole, an ingenious 
improvisation used the spacecraft communications antenna to beam radio 
waves into the polar regions; radio echoes were observed using the Deep 
Space Network dishes. Results indicated that material with reflection 
characteristics similar to ice are found in the permanently dark areas 
near the south pole. This major discovery was subsequently confirmed in 
1998 by a different experiment flown on NASA's Lunar Prospector 
spacecraft.
    The Moon contains no internal water; all water is added to it over 
geological time by the impact of comets and water-bearing asteroids. 
Dark areas near the poles are very cold, only a few tens of degrees 
above absolute zero. Thus, any water that gets into these polar ``cold 
traps'' cannot get out so over time, significant quantities accumulate. 
Our current best estimate of the amount of water on the Moon comes from 
two orbital measurements. The Clementine bistatic experiment indicates 
that an area of about 135 km<SUP>2</SUP> of pure ice exists within an 
observed area of about 45,000 km<SUP>2</SUP>, corresponding to a 
concentration level of about 0.3 percent. This radar estimate is 
consistent with observations from Earth-based radio observatories, 
including Arecibo and Goldstone, which show small, scattered areas of 
high radar backscatter within the sun-dark regions of the lunar poles. 
The Lunar Prospector neutron spectrometer found a concentration level 
of about 1.5 percent water over an area approximately 12,000 km<SUP>2</SUP> 
in extent. It should be noted that because of the observing geometry 
between Earth and Moon, Clementine and Earth-based radar can only 
examine about a quarter to a third of the total dark area of the lunar 
south pole, whereas Lunar Prospector collected data from 100 percent of 
the dark region. This difference in part may explain the discrepancy. 
In all, we estimate that over 10 billion metric tons of water exist at 
the lunar poles, an amount equal to the volume of Utah's Great Salt 
Lake--without the salt! Lunar polar water has the advantage of already 
being in a concentrated useful form, simplifying scenarios for lunar 
return and habitation. Water from the lunar cold traps advances our 
space-faring infrastructure by creating the first space ``filling 
station'' on the solar system highway.
    The poles of the Moon are useful from yet another resource 
perspective--the areas of permanent darkness are in proximity to areas 
of near-permanent sunlight. Because the Moon's axis of rotation is 
nearly perpendicular to the plane of the ecliptic, the sun always 
appears on or near the horizon at the poles. If you're in a hole, you 
never see the Sun; if you're on a peak, you always see it. We have 
identified several areas near both the north and south poles of the 
Moon that offer near-constant sun illumination. Thus, an outpost or 
establishment in these areas will have the advantage of being in 
sunlight for the generation of electrical power (via solar cells) and 
in a benign thermal environment (the sun is always at grazing 
incidence); such a location never experiences the temperature extremes 
(from 100<SUP>+</SUP> to ^150<SUP>+</SUP>C) found on the lunar equator. 
These properties make the poles of the Moon an inviting oasis in near-
Earth space.

(5)  By allowing us to travel at will, with people, throughout the 
Earth-Moon system, a return to the Moon to use lunar resources gives 
the Nation a challenging mission and creates capability for the future.

    Implementation of this objective for our national space program 
would have the result of establishing a robust transportation 
infrastructure, one capable of delivering people and machines 
throughout cislunar space. Make no mistake--learning to use the 
resources of the Moon or any other planetary object is a challenging 
technical task. We must learn to use machines in remote, hostile 
environments, working with ore bodies of small concentration under 
difficult conditions. The unique polar environment of the Moon, with 
its zones of near-permanent illumination and permanent darkness, 
provides its own challenges. But for humanity to have a foothold beyond 
low-Earth orbit, we must learn to use the materials available off-
planet. We are fortunate that the Moon offers a nearby, ``safe'' 
laboratory for our first steps in using space resources. Initial 
blunders in mining tactics or feedstock processing are better practiced 
three days from Earth than from Mars, located many months of space 
travel away.
    A mission learning to use these lunar resources is scalable in both 
level of effort and the types of commodities to be produced. We begin 
by using the resources that are the easiest to extract. Thus, a logical 
first product is water derived from the lunar polar deposits. Water is 
producible there regardless of the nature of the polar volatiles--ice 
of cometary origin is easily collected and purified while molecular 
hydrogen on lunar dust from the solar wind can be combined with oxygen 
extracted from rocks and soil (through a variety of processes) to make 
water. Water is easily stored for use as a life-sustaining substance 
for people or broken down into its constituent hydrogen and oxygen for 
use as rocket propellant.
    Although we currently possess the minimal information to plan a 
lunar return, investment in a few robotic precursor missions would be 
greatly beneficial. We should map the polar deposits of the Moon from 
orbit using imaging radar to determine the extent, purity, and 
thickness of the ice in these dark regions. A camera and associated 
instrument to make a high resolution global topographic map (e.g., 
radar or laser altimetry) is also needed on this orbital mission to 
make high quality maps for future explorers and miners. The next step 
will be to land small robotic probes to conduct chemical analyses of 
the polar deposits and radio results to Earth. Although we expect water 
ice to dominate the deposit, impact deposits from cometary cores are 
made up of many different substances, including methane, ammonia, and 
organic molecules, all potentially useful resources. We need to 
inventory these species, determine their chemical and isotopic 
properties, and their physical nature and environment. Just as the way 
for Apollo was paved by such missions as Ranger and Surveyor, a set of 
robotic precursor missions, conducted in parallel with the planning of 
manned expeditions, can make subsequent human missions safer and more 
productive.
    After these robotic missions have documented the nature of the 
deposits, focused engineering research efforts should be undertaken to 
develop the techniques and machinery needed to be transported to the 
lunar base as part of future human expeditions. There, the processes 
and principles of resource extraction will be established and 
validated, thus paving the way to automation and commercialization of 
the mining, extraction and production of lunar hydrogen and oxygen.

(6)  This new mission will create routine access to cislunar space for 
people and machines, which directly relates to important national 
economic and strategic goals.

    By learning space survival skills close to home, we create new 
opportunities for exploration, utilization, and wealth creation. Space 
will no longer be a hostile place that we tentatively visit for short 
periods; it becomes instead a permanent part of our world. Achieving 
routine freedom of cislunar space makes America more secure (by 
enabling larger, cheaper, and routinely maintainable assets in orbit) 
and more prosperous (by opening an economically limitless new 
frontier).
    As a nation, we rely on a variety of government assets in cislunar 
space, from weather satellites to GPS systems to a wide variety of 
reconnaissance satellites. In addition, commercial spacecraft continue 
to make up a multi-billion dollar market, providing telephone, 
Internet, radio and video services. America has invested billions of 
dollars in this infrastructure. Yet at the moment, we have no way to 
service, repair, refurbish or protect any of these spacecraft. They are 
vulnerable with no bulwark against severe damage or permanent loss. It 
is an extraordinary investment in design and fabrication to make these 
assets as reliable as possible. When we lose a satellite, it must be 
replaced and this process takes years.
    We cannot now access these spacecraft because it is not feasible to 
maintain a human-tended servicing capability in Earth orbit--the costs 
of launching orbital transfer vehicles and propellant would be 
excessive (it costs around $10,000 to launch one pound to low-Earth 
orbit). By creating the ability to refuel in orbit, using propellant 
derived from the Moon, we would revolutionize our national space 
infrastructure. Satellites would be repaired, rather than written off. 
Assets would be protected rather than abandoned. Very large satellite 
complexes could be built and serviced over long periods, creating new 
capabilities and expanding bandwidth (the new commodity of the 
information society) for a wide variety of purposes. And along the way, 
we will create new opportunities and make ever greater discoveries.
    Thus, a return to the Moon with the purpose of learning to mine and 
use its resources creates a new paradigm for space operations. Space 
becomes a part of America's industrial world, not an exotic environment 
for arcane studies. Such a mission ties our space program to its 
original roots in making us more secure and more prosperous. But it 
also enables a broader series of scientific and exploratory 
opportunities. If we can create a space-faring infrastructure that can 
routinely access cislunar space, we have a system that can take us to 
the planets.

(7)  Timing is everything: It is important for America to undertake 
this mission NOW, rather than later.

    Many nations have recently indicated an interest in the Moon. The 
possible collection and use of lunar resources raises some interesting 
political and economic issues. Currently, the 1967 United Nations 
Treaty on the Peaceful Uses of Outer Space prohibits claims of national 
sovereignty on the Moon or any other object. However, it is not clear 
that private claims are likewise prohibited under this treaty. The 1984 
United Nations Moon treaty specifically prohibits private ownership of 
lunar assets, but the United States, Russia, and China are not 
signatories to that treaty, ratification of which was specifically 
rejected by the United States Senate.
    Our initial return to the Moon would be an engineering and 
scientific research and development project. We undertake our studies 
of the extraction of lunar resources to ascertain the best methods to 
harvest and use these materials. Our presence on the Moon does not give 
us title to it. However, a strong and continuing American presence on 
the Moon can help establish de facto the broad legal framework and 
economic paradigm of democratic, free-market capitalism off the Earth. 
It is not clear that other nations would be similarly inclined. In 
short, regardless of impressions, we are indeed in a race to the Moon--
not a race comparable to the 1960's Cold War race to the Moon between 
America and the Soviet Union, but a race no less important in 
establishing future socio-economic stability. History has shown that 
our economic-political system produces the most wealth and freedom and 
highest quality of life for the most people in the shortest time. 
America needs to continue to lead in space, ensuring an open economic 
and self-determining, democratic framework is established off-Earth.

(8)  The infrastructure created by a return to the Moon will allow us 
to travel to the planets in the future more safely and cost 
effectively.

    This benefit comes in two forms. First, developing and using lunar 
resources can enable movement throughout the Solar System by permitting 
the fueling of interplanetary craft with materiel already in orbit, 
thereby saving the enormous costs of launch from Earth's surface. 
Second, the processes and procedures that we learn on the Moon will be 
applied to all future space operations. To successfully mine the Moon, 
we must learn how to use machines and people in tandem, each taking 
advantage of the other's strengths. The issue isn't ``people or 
robots?'' in space, it's ``how can we best use the combination of 
people and robots in space?'' People bring the unique abilities of 
cognition and experience to exploration and discovery; robots possess 
extraordinary stamina, strength, and sensory abilities. We can learn on 
the Moon how to best combine these two complementary skill mixes to 
maximize our exploratory and exploitation abilities.
    A return to the Moon will give us operational experience on another 
world. Activities on the Moon will make future planetary missions less 
risky as we gain valuable experience in an environment close to Earth, 
yet on a distinct and unique alien world. Systems and procedures can be 
tested, vetted, revised and re-checked. By learning to live and work on 
the Moon, we gain both experience and confidence in planetary 
exploration and surface operations.
    The Moon provides a nearby laboratory and industrial test-bed where 
we can hone our exploratory skills and lay the foundations for a future 
space-based economy. Human expansion to the Moon will provide new 
opportunities and horizons for the American entrepreneur, our 
businesses, and our workforce. Developing new technologies has always 
led to new markets and increased our general prosperity. Expansion of 
the economy is vital to our national health and security. Who will 
capitalize on this opportunity and become the next Rockefeller, 
Carnegie, Ford, Getty, or Gates?
    America needs a challenging, vigorous space program. It must 
present a mission that inspires, educates, and enriches. It must relate 
to important national needs yet push the boundaries of the possible. It 
must serve larger national concerns beyond scientific endeavors. The 
President's program fulfills these goals. It is a technical challenge 
to the Nation. It creates security for America by assuring access and 
control of our assets in cislunar space. It creates wealth and new 
markets by producing commodities of great commercial value. It 
stimulates and inspires the next generation by example. A return to the 
Moon is a giant step into the Solar System.
    Thank you for your attention.

                      Biography for Paul D. Spudis

    PAUL D. SPUDIS is a Senior Staff Scientist at the Johns Hopkins 
University Applied Physics Laboratory in Laurel, Maryland and Visiting 
Scientist at the Lunar and Planetary Institute in Houston, Texas. He 
was formerly with the Branch of Astrogeology, U.S. Geological Survey in 
Flagstaff, Arizona and the Lunar and Planetary Institute. He is a 
geologist who received his education at Arizona State University (B.S., 
1976; Ph.D., 1982) and at Brown University (Sc.M., 1977). Since 1982, 
he has been a Principal Investigator in the Planetary Geology and 
Geophysics Program of the NASA Office of Space Science, Solar System 
Exploration Division, specializing in research on the processes of 
impact and volcanism on the planets. He has served on NASA's Lunar and 
Planetary Sample Team (LAPST), which advises allocations of lunar 
samples for scientific research, the Lunar Exploration Science Working 
Group (LEXSWG), that devised scientific strategies of lunar 
exploration, and the Planetary Geology Working Group, which monitors 
overall directions in the planetary research community. He has also 
been a member of the Committee for Planetary and Lunar Exploration 
(COMPLEX), an advisory committee of the National Academy of Sciences, 
and the Synthesis Group, a White House panel that in 1990-1991, 
analyzed a return to the Moon to establish a base and the first human 
mission to Mars. He was Deputy Leader of the Science Team for the 
Department of Defense Clementine mission to the Moon in 1994. He is a 
member of the President's Commission on the Implementation of U.S. 
Space Exploration Policy, whose report is due in June of 2004. He is 
the author or co-author of over 150 scientific papers and three books, 
including The Once and Future Moon, a book for the general public in 
the Smithsonian Library of the Solar System series, and The Clementine 
Atlas of the Moon, published in 2004 by Cambridge University Press.

    Chairman Rohrabacher. Thank you very much. Our next witness 
is Dr. Daniel Lester, who is a research scientist at McDonald 
Observatory, University of Texas at Austin. Dr. Lester, you may 
proceed.

STATEMENT OF DR. DANIEL F. LESTER, RESEARCH SCIENTIST, MCDONALD 
            OBSERVATORY, UNIVERSITY OF TEXAS, AUSTIN

    Dr. Lester. Thank you. Mr. Chairman, Members of the 
Committee, I want to thank you also very much for inviting me 
to testify before you today. I am an astronomer at McDonald 
Observatory, University of Texas, and I am going to use my five 
minutes to talk a little about telescopes in space and on the 
Moon in particular.
    I want to start out by saying that space--the vacuum of 
space--is a tremendously enabling place for astronomical 
telescopes. We do very well with telescopes on the Earth, but 
those telescopes on the Earth, which are much easier to build 
and cheaper to build than telescopes in space, look through the 
Earth's atmosphere, and the Earth's atmosphere blocks a lot of 
the light that we would like to be able to see from the stars 
and galaxies beyond.
    So the question becomes where do we put telescopes in 
space? Do we put them in orbit around the Earth? Do we put them 
in orbit around the Sun? Or, perhaps, do we put them down on 
the surface of a body that doesn't have any atmosphere, like 
the Moon? What we have to ask ourselves at this point is what 
the Moon offers to us.
    Now, I want to backtrack just a moment and say that 20 or 
30 years ago, my community, the astronomical community, was 
very excited about the idea of putting telescopes on the Moon. 
I, too, invested a lot of effort in going in that direction. 
Now, you have to understand that at that time, 20 or 30 years 
ago, we had virtually no high-capability free-flying telescopes 
in space, and we had people walking around on the Moon. So at 
that time, it seemed like a very credible thing to do. We are 
going to have people walking around the Moon, thanks to the new 
initiative, but we now have a tremendous amount of experience 
in making observatories in free space, much like the Hubble 
Space Telescope, work very well. A long time ago, we were 
worried about whether we could point telescopes in free space--
telescopes floating around. How would we be able to keep them 
to track on the stars we were looking at? We now understand how 
to do that extremely well using what is now off-the-shelf 
technology.
    So one can ask what does the Moon have that free space 
doesn't? And the way I and my colleagues look at it is that the 
Moon has dirt and the Moon has gravity. And so the question 
becomes are dirt and gravity enabling to astronomy, and my 
contention is that they are not for the following reasons.
    Dirt, while we will hear about the use of dirt for lunar 
resources, and I think that is a wonderful thing to think 
about, astronomers tend to look at dirt as a pollutant for our 
telescopes. Dirt that gets on our telescopes, gets on the 
optics, prevents the light from getting through them, and 
actually, for infrared telescopes which I use a lot of, adds to 
the background enormously, reducing the sensitivity. That dirt 
has strongly abrasive properties. That dirt will get in gears. 
It will get in bearings. And will make maintenance of 
telescopes quite challenging on the Moon compared to free 
space.
    Now, gravity is no friend of telescopes. Gravity--of 
course, the Earth has plenty of gravity and we have telescopes 
on the Earth and we manage to avoid having problems with 
gravity. Of course, the problems that we have are where a 
telescope looks in this part of the sky, gravity is pulling 
down on it. When the telescope then goes over and looks in this 
part of the sky, gravity is pulling down in a different way. 
Gravity bends the telescopes. It doesn't bend it very much, but 
it doesn't take very much to get the telescopes out of 
alignment.
    Now, our approach to that for ground-based observatories is 
very simple. We make them very stiff and very strong and very 
massive. We throw a lot of steel at them. That is not a good 
strategy for deciding what to do with telescopes in space. Now, 
it is true that the lunar gravity is only 1/6 of the Earth, but 
nevertheless--and so it in principle is easier to make 
telescopes that will work well on the Moon compared to making 
telescopes that will work well on the Earth. But free space has 
no gravity at all, and so the kinds of structural complexity 
that we need to hold together a telescope in alignment in free 
space is very much lower.
    Finally, gravity is a risk. When we are sending equipment 
to the Moon from the Earth, it has to survive. It has to 
survive the soft landing. The retrorockets have to work. 
Parachutes don't work. And so we look at that as a risk factor 
that we don't have for telescopes in free space.
    Now, in conclusion, I would just say that one of the big 
advantages that one can look at by having telescopes on the 
Moon is that there will be people there. I want to make it very 
clear to the Committee that myself and many of my colleagues 
look ahead to the new initiative involving humans and 
astronauts in astronomical activities is profoundly highly 
enabling. We are very excited about that. We are looking 
forward to looking into that.
    For example, the very biggest telescopes that we hope to 
make--telescopes far bigger than Hubble Space Telescope--these 
telescopes are too big to be put into a rocket already 
unfolded. If I want to build a ten-meter telescope and I only 
have a five-meter rocket shroud, I have got a big problem, 
unless that telescope is folded up. We fold the telescope up, 
we shoot it up, and then we cross our fingers, and the hinges 
and motors, then they get deployed, have to work. If they don't 
work, we are in trouble. Now, in a situation like this, having 
an astronaut there with a screwdriver in one hand and a wrench 
in the other hand and the ability to give something a pull 
where it needs to be pulled, can be fantastically enabling for 
us, so we are really looking forward to that.
    I would just like to say in summary that we would very much 
hope that the technologies that we develop to put people back 
on the Moon, and to the experience that we gain in doing that, 
can be used to optimally service and aide astronomy in free 
space. Thank you.
    [The prepared statement of Dr. Lester follows:]

                 Prepared Statement of Daniel F. Lester

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear and give testimony concerning future options for 
using the Moon to do science. As a member of the space astronomy 
community, I have been asked to express current thinking about the 
advantages and disadvantages of the Moon for doing astronomy and, in 
particular, whether the Moon is an appropriate site for astronomical 
telescopes. The importance of space telescopes both to fundamental 
science and to the excitement that the public has about our national 
efforts in space, combined with the key role that the Moon plays in the 
President's new space initiative, give special importance to this 
issue. In summary, and upon careful recent review of lunar observatory 
concepts that have been presented over the years, my colleagues and I 
find that the opportunities for lunar-based astronomy offer much less 
value, compared to observatories in free space, than had been 
anticipated several decades ago. While the lunar surface is not a 
highly enabling site for an astronomical observatory, development of 
the Moon would need many technologies that would substantially advance 
telescopes in free space.

Space Astronomy as a National Priority

    I want to begin this testimony by reviewing the reasons that we do 
astronomy--answering some of the most far-reaching and exciting 
scientific questions that challenge our nation. While studies of our 
own solar system are increasingly dominated by actual visits by robotic 
craft, and soon humans, studies of the universe beyond depend entirely 
on telescopes that detect energy coming from it. While our solar system 
provides us with clues about the formation of our Earth and the way 
that life formed upon it, the universe beyond offers insights into 
extremes of the physical world that are impossible to replicate in our 
laboratories. We seek to understand the structure and evolution of the 
cosmos on both the largest scales, reaching back to its earliest times, 
and on the smallest scales, in the vicinity of black holes. We want to 
learn how galaxies, stars, and planetary systems form and evolve, their 
cycles of matter and energy, and understand the diversity of worlds 
beyond our own. We want to search those worlds for those that might 
harbor life. Such explorations provide us with not just intellectual 
satisfaction and national pride in scientific accomplishment, but with 
new understanding that is the foundation for future technologies. By 
looking at our universe far away, we better understand the physical 
world nearby.

Space as an Enabling Site for Astronomical Telescopes

    But why do we go into space to do it? Large telescopes are 
ubiquitous on terrestrial mountaintops, and with roads, power lines, 
and air to breathe such telescopes are much easier to build and operate 
than those in space. For several different reasons, it is the vacuum of 
space that is extraordinarily enabling for astronomy. The atmosphere of 
the Earth, while essential for life here, distorts and blocks much of 
the light that comes from the cosmos. That our atmosphere effectively 
blocks gamma rays, x-rays, and ultraviolet light is critical to our 
survival, but makes direct studies of black holes and supernovae 
difficult. That our atmosphere contains water vapor that blocks most 
infrared light makes studies of star and planet formation especially 
challenging, though such water is crucial to our existence. In the 
vacuum of space there is no such impediment. The sky from space is 
profoundly clear, and this clarity has been utilized by the Compton and 
Chandra observatories to explore the universe at high energies, the 
recent Spitzer observatory in the infrared, as well as the Hubble 
telescope for visible light. For infrared telescopes in particular, in 
which cryogenic operation offers a dramatic increase in sensitivity, 
such operation is impossible in the presence of an atmosphere, which 
would freeze out on a cold telescope. So the vacuum of space offers 
important thermal advantages.

Astronomical Observatories and the Lunar Surface

    Some forty years ago, the Moon was first proposed by astronomers as 
a prime site for large telescopes. The lack of an atmosphere offered an 
unobscured view of the cosmos, and the lunar surface offered a 
``platform'' on which to anchor big structures. At this time, the 
concept for observatory operation was strongly human-intensive, modeled 
on the operations plan for ground-based telescopes of the era. Humans 
would be needed, it was thought, not just to handle the (now obsolete) 
photographic plates that were the sensor-of-choice in that era, but to 
look through an eyepiece to point and guide the telescope! With a 
facility firmly anchored to the lunar surface, astronauts could inhabit 
the observatory and go about their jobs without jiggling the telescope. 
One or two decades later, with astronauts actually walking and doing 
science on the Moon, this idea of lunar telescopes gained credibility 
in the science community. Then, and to this day, astronomical 
telescopes on the Moon were understood to offer vastly greater 
capabilities than they would on the surface of the Earth. If the 
surface of the Moon and the surface of the Earth were the only places 
able to host large astronomical telescopes, and if cost were not an 
object, the Moon would win handily in science potential.
    Within the last two decades, however, there has been a revolution 
in our capabilities to autonomously deploy, stabilize, and point 
satellites in the vacuum of free space. This understanding was gained 
from both military and commercial (Earth resources) surveillance 
investments, as well as from the communication satellite industry. 
Telescopes in free space now track with a precision that is far higher 
than can telescopes on the ground. Even for arrays of widely separated 
telescopes that are optically coupled, and offer big advantages in 
image clarity, implementation strategies have been designed for free 
space that offer low risk. Finally, information is now returned 
electronically, rather than on material media, such as photographic 
plates. While human involvement has been in at least most contemporary 
cases unnecessary for startup, the Hubble telescope proved that 
astronaut roles in mission assurance and servicing could be highly 
enabling for astronomy. Our space program, as well as that of other 
countries, has achieved huge successes in astronomy from telescopes in 
free space.

Dirt and Gravity are No Friends to Telescopes

    In comparison to zero-g sites in free space the Moon, as a 
telescope platform, offers mainly dirt and gravity. While dirt has been 
viewed by some as providing harvestable resources, it also translates 
into serious performance liabilities. Surface dust kicked up by both 
meteorites and activity near the telescope (whether blast waves from 
rockets or footsteps of astronauts) will degrade optical surfaces. This 
will result in a reduction of sensitivity and a sharp increase in 
background light that suppresses the faintest infrared light from 
distant stars and extra-solar planets. It also dramatically enhances 
scattered light that will interfere with studies of solar systems in 
the vicinity of bright stars. This dust, the deleterious properties of 
which are well understood from Apollo efforts, can be assumed to 
increase wear and reduce performance of loaded mechanical bearings, on 
which such lunar telescopes would critically depend for precision 
motions.
    Compared to the weightless environment of free space, even the 1/6g 
of the Moon will threaten the precise optical alignment of telescopes 
as they move across the sky. In order to achieve the stiffness needed 
to avoid such gravity deformations, a lunar telescope will have to be 
much more massive, and concomitantly more expensive, than a similar 
telescope in free space. Consider, for example, that the six meter 
diameter James Webb Space Telescope (JWST), now being designed for free 
space, will have a mass of about six metric tons. Similar sized 
telescopes on Earth each have about three hundred metric tons of 
material that has to move, almost an order of magnitude larger than 
JWST when scaled to the lowered lunar gravity. Finally, gravity is 
something that lunar surface telescope builders would need to fight. 
All parts and subsystems brought from the Earth must survive soft 
landing on the Moon, a requirement that involves considerable added 
expense and risk. In short, we should ask whether dirt and gravity 
offer any general value to astronomy. The answer, I believe, is no.
    Concepts for lunar telescopes have been proposed that take 
advantage of special properties of the Moon. The orbit of the Moon is 
such that telescopes within craters at the lunar pole would never have 
sunlight shining on them. These telescopes would naturally be extremely 
cold, perhaps 40-50K, and in this respect could offer excellent 
infrared performance without expendable cryogens or costly 
refrigeration. While noteworthy, this property of the Moon is no longer 
particularly enabling, as such temperatures are achievable in free 
space, using lightweight reflective shields to block the sunlight. The 
Spitzer Space Telescope is at least partly passively cooled using such 
sun shields, and the thermal performance actually realized for that 
observatory is identical to engineering predictions. JWST will use 
shields with more layers, and these models predict achievable telescope 
temperatures of 35K. We can do even better. The Single Aperture Far 
Infrared telescope (SAFIR) is a cold telescope facility even larger 
than JWST, roadmapped as a Vision Mission candidate for the next 
decade. I am the Principal Investigator on a concept study for SAFIR. 
Our team believes that with lessons learned from JWST, and optimized 
shielding, even lower temperatures can be realized passively. The lunar 
poles are indeed very cold places but with sunlight properly screened, 
free space is as well.
    The far side of the Moon is also claimed to be scientifically 
noteworthy as a radio-quiet site. On this hemisphere of the Moon there 
is never a line-of-sight to the Earth, so the strong human radio 
traffic and natural radio emission from our planet cannot interfere 
with astronomical observations there. While this is potentially 
enabling, the scientific need for such a radio quiet site has never 
been entirely persuasive. The potential of this site was discussed, but 
never included explicitly, in the Decadal Study of astronomical 
priorities by the National Academy of Science. Recent significant 
developments in strategies for radio frequency noise mitigation may 
also pertain to this.

It's Not Humans versus Robots

    A final advantage that has been ascribed to the Moon for space 
astronomy is that it is where people will be. I believe I speak for my 
community in saying that the involvement of astronauts in space 
astronomy has enormous potential. We look ahead even in the near-term 
to telescopes that do not fit, fully deployed, into launcher shrouds 
(c.f. JWST). Such telescopes need to be packed, unfolded, locked tight, 
aligned, and verified, all carrying significant risk if done 
autonomously. The advantages of in situ astronauts holding screwdrivers 
and wrenches who are there to deploy and assemble large space 
telescopes, and rescue these expensive assets in the event of a 
technical failure (c.f. HST) cannot be dismissed. But if astronauts are 
going to be based on the Moon, and if we believe they will visit Mars, 
we will certainly have the capability to put these astronauts to use in 
free space to advance astronomy, whether in low-Earth orbit as for HST, 
or farther out. For example, the semi-stable Earth-Moon and Earth-Sun 
Lagrange (or libration) points in free space are understood to offer 
huge advantages to astronomy, and current plans call for a whole 
squadron of science missions at the latter site within the next two 
decades. No credible discussion of space astronomy can be had without 
considering the impressive science potential of these Lagrange points 
in the Earth-Moon system. As a result, it would be truly unfortunate if 
astronaut involvement in the future of space science was limited to 
opportunities with dirt underfoot.
    The new space initiative is a bold vision that promises rich 
payoffs, and gives our nation a defining challenge. National leadership 
to accrue from this vision and the sustainability with which is it 
pursued will depend upon careful consideration and strategic pursuit of 
science opportunities. Such opportunities are founded in curiosity and 
the spirit of exploration, which are historically established parts of 
our national heritage and very much key national needs. The Moon offers 
many such opportunities, but for space astronomy the real value of 
lunar development will come from how well such development serves 
observatories elsewhere.

                     Biography for Daniel F. Lester

    Daniel F. Lester is a Research Scientist at the McDonald 
Observatory of the University of Texas. His research specialty is 
infrared studies of star formation in galaxies. His is the author of 
more than eighty refereed papers in professional journals. Dr. Lester 
earned his Ph.D. at the University of California at Santa Cruz with the 
Lick Observatory, followed by postdoctoral work at the NASA Ames 
Research Center, and as a staff scientist at the University of Hawaii 
Institute for Astronomy. He worked closely on the conceptual 
development of the Stratospheric Observatory for Infrared Astronomy 
(SOFIA), and has been active in community strategic planning and policy 
development for space astronomy. Dr. Lester is currently Principal 
Investigator and team leader for the Single Aperture Far Infrared 
(SAFIR) vision mission study, now being funded by NASA. He is active in 
K-12 science education and public outreach efforts.

    Chairman Rohrabacher. Thank you very much for your 
testimony. Our next witness is Dr. Donald Campbell, who is a 
professor of astronomy and Associate Director of the National 
Astronomy and Ionosphere Center at Cornell University. Dr. 
Campbell, you may proceed.

 STATEMENT OF DR. DONALD B. CAMPBELL, PROFESSOR OF ASTRONOMY, 
 ASSOCIATE DIRECTOR, NATIONAL ASTRONOMY AND IONOSPHERE CENTER 
                   (NAIC), CORNELL UNIVERSITY

    Dr. Campbell. Thank you, Mr. Chairman, Members of the 
Committee, and thank you for inviting me to testify on the 
subject of lunar science and resources. I have been 
specifically asked to address the issue of the possible 
presence of water on the surface of the Moon and how we should 
proceed in determining whether it is or is not present in 
recoverable quantities.
    There is no doubt that accessible, significant, and 
recoverable deposits of water on the Moon would greatly 
facilitate the setting up of a lunar base. The lunar surface is 
rich in a variety of minerals, such as iron, titanium oxides, 
and these minerals could provide resources such as oxygen to 
sustain an extended human presence on the Moon. However, 
recoverable amounts of one vital commodity, hydrogen, needed to 
produce water and possibly rocket fuel, are in short supply on 
the lunar soil. For this reason, the idea that the lunar polar 
regions may have water ice, which was so suggested 40 years 
ago, continues to be of great interest.
    There are two remote sensing techniques currently used to 
look for water: radar and neutron spectrometry. Radar is 
sensitive to thick deposits of relatively pure water ice. This 
was demonstrated by the discovery by Alpha Earth-based radars 
of water ice deposits in the very cold bottoms of permanently 
shaded impact craters at the poles of Mercury. Neutron 
spectrometers are sensitive to the presence of hydrogen, which 
may or may not be incorporated in water molecules. The power of 
this technique was dramatically demonstrated with the recent 
discovery of large quantities of ground ice on Mars.
    Suggestions from radar observations from the Clementine 
Orbiter in 1994, that there are thick ice deposits in one 
crater at the lunar South pole, were not confirmed by radar 
observations using the National Science Foundation's Arecibo 
telescope. As you can gather that Dr. Spudis have some 
disagreement in terms of the interpretation of those--the 
Clementine data and the Arecibo radar data. However, it is 
important to understand that both these radars had a very poor 
view of the polar region. They had almost identical views of 
the polar regions, and looking from a very low angle in the 
sky--they are only about six degrees above the horizon, so 
there were large areas of the lunar surface which they could 
not, in fact, view very adequately, the shadow effect away from 
the radar.
    The neutron spectrometer--yeah, I don't know--I should say 
that this result does not in anyway preclude, because of the 
poor visibility, the possibility there may be thick deposits of 
ice, although it makes it somewhat unlikely. The neutron 
spectrometer on the 1998 Lunar Prospector Orbiter had a clear 
view of all of the surface in the polar regions. As reported by 
Dr. William Feldman, the principle investigator for the 
instrument, and his colleagues--and I should emphasize that I 
was not involved in this particular work--there is a general 
increase of a factor of about three in the hydrogen 
concentration in the upper three feet of the lunar soil in the 
polar regions, compared with the equatorial regions. They also 
found much higher hydrogen concentrations associated with 
several large, permanently-shaded impact craters at the south 
pole. At the north pole, the shaded craters are smaller than 
the 30-mile best resolution of the neutron spectrometer. It was 
not possible to look at individual craters, but there was an 
increased hydrogen content associated with groups of small 
shaded craters. The hydrogen may be in the form of free 
hydrogen implanted into the lunar soil surface by the solar 
wind, water in the form of ice, or hydrated minerals in which 
water molecules are chemically bound to the minerals.
    If all the excess hydrogen in the polar regions is in the 
form of water, it would correspond to about two billion tons. 
That sounds like a lot, but you have got to understand that the 
concentration in the lunar surface would be extremely small, 
and it would be so low, it is probably not feasible to recover 
it. Of a lot more interest are the high hydrogen concentrations 
coincident with the large impact craters of the south poles. 
The bottom of these craters are in permanent shadows and are 
very cold, acting as traps for hydrogen or water molecules. If 
it is in the form of water ice, the enhanced hydrogen 
concentration of these craters would correspond to about 1.5 
percent water ice, getting up to be a significant concentration 
of potentially--would be recoverable amounts of water without 
too much effort. It is probably in the form of grains or 
crystals mixed into the upper few feet of the lunar soil. The 
radar experiments on the Clementine orbiter, or from Arecibo, 
would not have been sensitive to that form of water ice, small 
crystals and grains mixed into the soil.
    Given the size of these craters, this concentration of 
water ice corresponds to about 200 million tons of water, a 
significant amount if it can be recovered. However, one has to 
keep in mind that the craters are deep, very cold, and dark, 
and so devising a recovery method will not be easy.
    Because of its importance as a resource, we need to settle 
the question as to whether there is any accessible and usable 
quantities of water at the poles. To do so, a lunar polar 
orbiter should be equipped with a suitable set of instruments. 
And, as you already heard, you know, those instruments should 
include a high resolution advanced neutron spectrometer. It is 
my understanding that a 3-mile surface resolution is feasible, 
about 10 times better than the 30-mile resolution of the Lunar 
Prospector orbiter. That would allow mapping of the hydrogen 
concentration of relatively small scales, and looking into much 
smaller craters to see if there are concentrations of water 
there that may be more accessible than in the big craters.
    A mapping synthetic aperture radar system to search for 
thick ice deposits possibly buried under the lunar soil. The 
SAR would also allow detailed images to be obtained of the 
areas at the lunar poles that are in permanent shadow. These 
cannot be imaged with normal cameras.
    We also need an instrument to measure the altitudes of the 
polar terrains, including the depths and wall slopes of the 
craters that may harbor ice deposits. This could be an 
interferometric SAR as an expansion of the radar SAR system 
mentioned in item 2, or it could be a LASER altimeter system.
    We would like to know the temperatures at the bottom of 
these craters, and so there should be an infrared system for 
measuring temperatures in the interior of the craters with 
shadowed bottoms.
    There should obviously be a high-resolution camera for 
investigating suitability of possible landing sites, and for 
the part of the route illuminated by the Sun, the ease or 
difficulty of access to possible water ice deposits.
    And finally, if there is some evidence for water ice 
deposits in the shadowed craters, clearly we want in situ 
measurements, and probably the most simple way to do that is 
to, initially at least, is put penetrators into the surface to 
directly examine the composition of the surface itself.
    Thank you very much.
    [The prepared statement of Dr. Campbell follows:]

                Prepared Statement of Donald B. Campbell

    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today to testify on the subject of lunar resources.
    The lunar surface is rich in a variety of minerals such as oxides 
of iron and titanium and it is possible that these minerals can be 
utilized to provide resources such as oxygen to sustain an extended 
human presence on the Moon. Recoverable amounts of one vital commodity, 
hydrogen, needed to produce water and possibly rocket fuel, appear to 
be in short supply in the lunar soil. Consequently, the idea that the 
polar regions of the Moon may harbor ice deposits, first suggested over 
40 years ago, continues to be of great interest. In the early 1990s the 
idea was given further impetus by the discovery of apparent ice 
deposits in the cold, permanently shaded bottoms of impact crater at 
the poles of the planet Mercury. The discovery and investigation of 
these ice deposits were made using powerful radar systems on one of 
NASA's Deep Space Network (DSN) Goldstone antennas and on the NSF's 
Arecibo telescope (operated by Cornell University under a cooperative 
agreement with the NSF) in Puerto Rico. Ice at low temperatures has 
unusual radar reflection properties--it ``lights up'' under the radar 
illumination very much like a highway sign at night and the reflected 
radar signal has different polarization properties than for rock or 
soil--but only if it is in the form of thick, relatively pure deposits. 
As can be seen in radar image of the north polar region of Mercury made 
at the NSF's Arecibo Observatory in Puerto Rico, the ice deposits stand 
out very brightly on Mercury.

Figure: A radar image of the north pole of Mercury showing the bright 
radar echoes from what are thought to be thick deposits of ice on the 
shadowed floors of impact craters. The circles show the sizes and 
locations of known impact craters from images taken in 1974 from the 
Mariner 10 spacecraft. The ice stands out so brightly because it is a 
good retro-reflector. The radar echoes from the surrounding terrain are 
so weak that they cannot be seen. The image was made with the NSF's 
Arecibo telescope (courtesy of J. Harmon).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ice can also be identified by using a neutron spectrometer to map 
the properties of cosmic ray produced neutrons that scatter in the top 
few feet of a planetary surface with the nature of the scattering being 
very sensitive to the presence of the nuclei of hydrogen atoms and, 
hence, water ice if the hydrogen is incorporated in water molecules. 
The ability of neutron spectrometers to detect the presence of water 
ice was dramatically demonstrated by the recent discovery of 
considerable ground ice deposits on Mars.

How much water may be trapped on the lunar surface?

    Over the past decade there has been evidence from instruments on 
lunar orbiting spacecraft suggestive of the presence of water ice in 
the polar regions. Results from bi-static radar observations using the 
Clementine orbiter--the radar signal was transmitted from the 
spacecraft and the echo received by one of NASA's DSN antennas--were 
interpreted as indicating the presence of thick deposits of ice in a 
crater at the south pole. The interpretation of the Clementine results 
has been debated in the scientific literature and, as can be seen from 
the figure, imaging radar observations using the NSF's Arecibo 
Observatory have not found any evidence for ice deposits on the Moon 
similar to those seen at the poles of Mercury. However, since neither 
the Clementine nor the Arecibo observations were able to view some or 
all of the shaded bottoms of the impact craters at the lunar poles, 
these observations cannot be regarded as definitive. While perhaps 
unlikely, the possibility still exists that there are thick ice 
deposits in the bottoms of some shaded impact craters at the lunar 
poles.

Figure: Radar images of the poles of the Moon made with the NSF's 
Arecibo telescope. Much of the area close to the poles themselves, 
especially at the south pole, is in shadow from the Sun and cannot be 
seen in optical images. The radar on the Earth is higher above the 
horizon than the Sun so can ``see'' some of these shaded areas. There 
are no bright radar echoes similar to those for Mercury indicating no 
thick deposits of clean water ice. Only some of the shaded areas can be 
seen with the radar and it is possible that ice may be present in 
locations yet to be investigated. (Image courtesy of B. Campbell.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Measurements from the Lunar Prospector orbiter are not open to this 
level of uncertainty. Its neutron spectrometer looked directly down so 
could view all of the polar terrain. As discussed above, this 
instrument is sensitive to the presence of hydrogen atoms and it 
discovered significant concentrations of hydrogen in the lunar polar 
regions. Its best spatial resolution on the Moon's surface was about 30 
miles. As reported by William Feldman of the Los Alamos National 
Laboratory and colleagues, near the south pole there is a small general 
increase in the hydrogen concentration compared with the equatorial 
regions and there are significant concentrations associated with large 
impact craters with shaded bottoms. In the north there is a similar 
general increase in the average concentration of hydrogen. However, 
most of the impact craters with shaded bottoms are small, so that the 
hydrogen deposits cannot be uniquely associated with individual 
shadowed craters and it is not possible to say whether there are areas 
with significant concentrations. There are definitely higher 
concentrations of hydrogen at the lunar poles compared with other areas 
of the Moon but both its origin--cometary impacts or solar wind 
implanted hydrogen--and its current form--hydrogen, ice or hydrated 
minerals--is a topic of considerable discussion in the relevant 
scientific community.
    If all of the hydrogen at the lunar poles is in the form of ice, 
then an analysis of the Lunar Prospector results by Dr. Feldman and 
colleagues has shown that the total inventory of water ice in the upper 
three feet or so would be about two billion tons. Considering just the 
shaded areas at the south pole, where the only economically recoverable 
deposits discovered so far seem to reside, they concluded that the 
weight concentration of water ice in the upper three feet would be 
about 1.5 percent. Taking our best estimates of the total shaded area 
at the south pole, this translates into about two hundred million tons 
of water equivalent. This water is likely distributed as ice grains or 
crystals in the lunar soil and would not have been observable by either 
the Clementine orbiter or Earth-based radars. Because of the poor 
spatial resolution of the neutron spectrometer on the Lunar Prospector 
orbiter, it is not possible to say from current data whether there are 
small areas where there may be even higher concentrations of ice.

Is finding water important for exploiting the Moon for scientific or 
                    economic purposes?

    Accessible deposits of water on the Moon would profoundly affect 
the economics and viability of a human presence on the Moon. Water is, 
literally, the stuff of life. For a permanent or reusable base a local 
supply would be invaluable both for human needs in the form of water 
and oxygen, and for production of rocket fuel. A viable base would 
enable both further exploration of the Moon and, as Dr. Spudis and 
others have pointed out, has the potential to allow exploitation of 
lunar resources.
    However, the need is for accessible deposits. Unfortunately, the 
only recoverable deposits are likely to be in the polar regions 
probably in the bottoms of very cold, permanently dark craters. It is 
likely, but not certain, that any deposits are well mixed into the 
lunar soil at about the one percent level of concentration. Recovering 
water from these deposits will not be an easy task.
    Before we spend too much time making plans for exploiting water 
resources on the Moon, we should determine whether there are any 
recoverable deposits of water, in what form--distributed at low 
concentrations in the lunar soil or in concentrated deposits--of what 
type--ice or hydrated minerals--and how accessible. To do this we need 
to send one or more missions with these specific objectives.

Instruments needed to resolve the water issue.

    Detecting water ice in the cold, dark bottoms of impact craters in 
the lunar polar regions is extremely difficult especially if the ice is 
covered by, or imbedded in, the lunar soil. Two remote sensing 
techniques that we have available, imaging radars and neutron 
spectrometers, offer the best hope. If the ice is in the form of thick 
sheets, then it is possible that a radar system on an orbiter would 
detect the associated strong radar reflection properties even if the 
ice lies beneath a surface covering of lunar soil. Depending on its 
frequency of operation, a radar system could probe many feet into the 
lunar surface to search for buried deposits. According to Dr. Feldman, 
neutron spectrometers with about ten times the spatial resolution of 
the instrument on the Lunar Prospector orbiter appear to be feasible 
and would allow searches on about three mile or better scales for those 
areas with the highest concentration of hydrogen. In situ searches 
would be the most definitive but could only be made in a very small 
number of locations. Such sampling could be achieved by using 
instrumented penetrators or, ultimately, rovers to investigate the most 
likely sites to harbor water based on results from previous searches 
using a high resolution neutron spectrometer and imaging radar.
    A possible suite of instruments on one or more lunar polar orbiters 
would be:

        1.  A high resolution neutron spectrometer. Three mile surface 
        resolution appears to be possible, 10 times better than that of 
        the Lunar Prospector neutron spectrometer, allowing mapping of 
        the hydrogen concentration at this scale.

        2.  A mapping synthetic aperture radar system (SAR) to search 
        for thick ice deposits possibly buried under lunar soil. A SAR 
        would also allow detailed images to be obtained of the areas at 
        the lunar poles that are in permanent shadow and, hence, cannot 
        be imaged with normal cameras.

        3.  An instrument to measure the altitudes of the polar 
        terrains including the depths and wall slopes of the craters 
        that may harbor ice deposits. This could be an interferometric 
        SAR as an expansion of the SAR system of item 2, or a LASER 
        altimeter.

        4.  An infrared system for measuring the surface temperatures 
        over the polar regions and, especially, in the interiors of the 
        craters with shadowed bottoms.

        5.  A very high resolution camera for investigating the 
        suitability of possible landing sites and, for the part of the 
        route illuminated by the Sun, the ease or difficulty of access 
        to possible water ice deposits.

        6.  Suitably instrumented penetrators on a follow up mission to 
        investigate locations that the earlier measurements indicate 
        may harbor water in useful concentrations and directly 
        determine its presence and form.

What other useful minerals, ores or elements may be present in the 
                    lunar soil?

    Many useful materials are present in significant concentrations in 
the minerals present in the lunar soil and rocks. Mare basalts have 
high concentrations of oxygen, silicon, ion, magnesium, titanium and 
the lunar highlands have significant amounts of aluminum and calcium. 
The major issue is how to recover these materials or make use of the 
minerals themselves using relatively simple automated processes 
suitable for use on the lunar surface.
    Thank you for your attention.

                    Biography for Donald B. Campbell

Education:

University of Sydney--BS (Physics); MS (Physics, Radio Astronomy)

Cornell University--Ph.D. (Astronomy and Space Sciences) 1971

Positions Held:

1993-Present-- Associate Director, National Astronomy and Ionosphere 
Center, Cornell University

1992-1993-- Interim Director, National Astronomy and Ionosphere Center, 
Cornell University

1988-Present-- Professor, Department of Astronomy, Cornell University

1983-1987-- Adjunct Professor, Department of Astronomy, Cornell 
University

1981-1987-- Director of the Arecibo Observatory, National Astronomy and 
Ionosphere Center, Cornell University

1976-1987-- Senior Research Associate, Cornell University (NAIC)

1974-1976-- Research Associate, Cornell University (NAIC)

1973-1974-- Staff Scientist, Haystack Observatory, MIT

1971-1973-- Research Associate, Cornell University (NAIC)

1966-1971-- Research Assistant and Graduate Student, Cornell University

Professional Societies:

International Astronomical Union

American Geophysical Union

American Astronomical Society and its Division of Planetary Sciences

International Union for Radio Science

American Association for the Advancement of Science

Honors:

1984-- NASA Medal for Exceptional Scientific Achievement

1992-- NASA Group Achievement Award

1994-- NASA Group Achievement Award

2003-- Fellow, American Association for the Advancement of Science

Professional Activities:

1984-1988-- Member of the Radar Investigation Group for the Venus Radar 
Mapper Mission

1989-1994-- Co-Investigator, NASA's Magellan Mission Radar 
Investigation Group

1992-1995-- Vice President, American Astronomical Society

1993-1996-- Advisory Committee, NASA-sponsored Venus Geologic Mapping 
Project

1994-1996-- NASA's Planetary Geology & Geophysics Proposal Review Panel

1994-1997-- Nat'l. Academy of Sciences, U.S. Nat'l. Committee for the 
Int'l. Astronomical Union

1995-1999-- Member of the Visiting Committee for the National Radio 
Astronomy Observatory

1998-1999-- Chair, Visiting Committee for the National Radio Astronomy 
Observatory

1999-2000-- Radio and National Centers Panels of the Astronomy and 
Astrophysics Survey Committee's Decadal Review

2003-- Steering Committee for the Canadian SKA Project.

2003-- Member, Executive Management Board for NASA's Deep Space Mission 
System

Some Relevant Publications:

Arecibo Radar Mapping of the Lunar Poles: A Search for Ice Deposits, 
        N.J.S. Stacy, D.B. Campbell, and P.G. Ford, Science, 276, 1527-
        1530, [April 1997].
Surface Processes in the Venus Highlands: Results from Analysis of 
        Magellan and Arecibo Data, B.A. Campbell, D.B. Campbell, and 
        C.H. DeVries, JGR-Planets, 104(E1), 1897, 1999.
The Topography of Tycho Crater, J-L. Margot, D.B. Campbell, R.F. 
        Jurgens, and M.A. Slade, J. Geophys. Res., 104, 11,875, 1999.
The Topography of the Lunar Poles from Radar Interferometry: A Survey 
        of Cold Trap Locations, J-L. Margot, D.B. Campbell, R.F. 
        Jurgens, and M.A. Slade, Science, 284, 1658, 1999.
Digital Elevation Models of the Moon from Earth-based Radar 
        Interferometry, J-L. Margot, D.B. Campbell, R.F. Jurgens, and 
        M.A. Slade, IEEE Trans. on Geoscience & Remote Sensing, 38(2), 
        1122, 2000.
Icy Galilean Satellites: Modeling Radar Reflectivities as a Coherent 
        Backscatter Effect, G.J. Black, D.B. Campbell, and P.D. 
        Nicholson, Icarus, 151, 167-180 [June 2001]
Advances in Planetary Radar Astronomy, D.B. Campbell, R.S. Hudson, and 
        J.L. Margot, Review of Radio Science 1999-2002, W.R. Stone, 
        ed., John Wiley & Sons, publishers, Chapter 35, pp. 869-899, 
        [Aug. 2002]
Measurement in Radio Astronomy, D.B. Campbell, ASP Conference Series, 
        Proc. of the NAIC-NRAO School on Single-Dish Radio Astronomy: 
        Techniques and Applications, June 10-15, 2002, Arecibo, Puerto 
        Rico, Ed. S. Stanimirovic, D. Altschuler, P. Goldsmith and C. 
        Salter, Astron. Soc. Pacific Conf. Series Vol. 278, 2002.
Radar Evidence for Liquid Surfaces on Titan, D.B. Campbell, G.J. Black, 
        L.M. Carter and S.J. Ostro, 2003, Science, 302, 431-434, 17 
        Oct. 2003.
Long Wavelength Probing of the Lunar Poles, B.A. Campbell, D.B. 
        Campbell, J.F. Chandler, A.A. Hine, M.C. Nolan and P.J. 
        Perillat, 2003, Nature, 426, 137-138, 13 Nov. 2003.

    Chairman Rohrabacher. Very well. There it is. Thank you 
very much. Our next witness is Dr. John Lewis, Professor of 
Planetary Sciences and Co-Director of the Space Engineering 
Research Center at the University of Arizona. Mr. Lewis, you 
may proceed.

    STATEMENT OF DR. JOHN S. LEWIS, PROFESSOR OF PLANETARY 
   SCIENCES, CO-DIRECTOR, SPACE ENGINEERING RESEARCH CENTER, 
                     UNIVERSITY OF ARIZONA

    Dr. Lewis. Mr. Chairman, Members of the Committee, I will 
assume that the remarks by the gentlemen to my right have said 
have registered upon your consciousness and I need not repeat 
many of the points that they have made, with which I agree. I 
would like to cut to the chase and talk specifically about the 
space resource value of the Moon, both locally and for external 
use.
    First of all, let us take the case of local use of lunar 
resources on the Moon. The most elementary use is simply to 
take lunar dirt and use it as radiation shielding for human 
habitats on the surface of the Moon. The radiation environment 
is very challenging in space, and indeed, it will be very 
challenging on the way to Mars and back. On the surface of the 
Moon, we have that unprocessed lunar dirt, ilmenite, available 
as a radiation shielding.
    We also have the various minerals that contain oxygen on 
the surface of the Moon. I would say that it would be actually 
quite feasible to design and build a device for extracting 
oxygen-bearing minerals and extracting the oxygen from them in 
an unmanned lander starting today. The technologies are well-
understood for many of these schemes. I would not pretend to 
know which is the best scheme, but I would claim there are 
approximately a dozen competing schemes, any one of which may 
be made to serve under these circumstances. The extraction of 
oxygen from the surface of the Moon would be principally useful 
for making life-support materials and rocket propellant for 
local mobility on the Moon.
    Local mobility, you often think of rovers running around on 
the surface of the Moon. I think in terms of devices that have 
the ability to hop over obstacles. If you want to get around 
anywhere besides on the Mauri bottoms of the Moon, you would 
probably need to have that ability to take off and land. Being 
able to manufacture rocket propellants in situ on the surface, 
the Moon would be a great advantage for that kind of 
functionality. Also, that oxygen's available for the return of 
human beings and of samples to Earth, and plays a very 
important role there.
    The urgent scientific goals that Dr. Spudis talked about 
concerning the history and evolution of the Moon contain many 
issues that could be closely linked to the science we need to 
know in order to design these processing and extraction 
experiments. The science is urgent. There is much unfinished 
scientific business on the Moon, and the best question I could 
raise at this point is how can those resources assist in the 
developing, understanding, and exploration of the Moon. 
Mobility is very high on my list of reasons why local resource 
utilization is valuable.
    I should also point out that once you have the chemistry to 
extract oxygen from minerals, such as ilmenite on the surface 
of the Moon, they leave behind a residue that contains ultra-
high purity iron metal. Ultra-high purity iron metal is not 
usually thought of as a first generation product, but the, so 
to speak, slag from the oxygen extraction process, will contain 
many percent by weight of ultra-pure iron, and that ultra-pure 
iron has the unusual feature that it has the chemical 
resistance, corrosion resistance, and strength of stainless 
steel, so it is an ideal material for use in fabricating 
anything from wires to habitats on the surface of the Moon.
    Now I would like to address the issue of export of lunar 
resources to Earth. Many of these resources have been 
extensively mentioned, in very different contexts usually with 
very little cross-reference. One of these is helium-3 
extraction for uses of fusion fuel on Earth. There are a number 
of issues involving that characterization of helium-3 that 
Professor Swindle will be addressing in his remarks, and I will 
tell you in advance, unless he has changed his testimony, I 
have read and approve of the remarks that he will make on that 
subject and will not duplicate them now.
    There are many science issues involved in characterizing 
that helium-3 occurrence and in extraction of it. I, frankly, 
am quite skeptical whether it can be made to be economical, but 
I don't know. We don't have the answers to those questions yet, 
and many of those fundamental questions can be answered 
relatively inexpensively by cleverly designed scientific 
missions in the regions of the Moon that human beings are 
likely to visit anyhow, in the Mauri basins of the nearest 
sunlight.
    Water from the polar deposits on the Moon--let me say that 
I am far from convinced that this has any economic significance 
whatsoever. Even if we had high concentrations--higher 
concentrations of water ice than has been suggested by the 
experiments to date, we would find ourselves in the very 
difficult position of mining in total darkness at a temperature 
less than 100 Kelvin, 100 degrees above Absolute Zero, in 
virtually inaccessible places in crater bottoms near the poles. 
If something goes wrong there, how do you fix it?
    Will something go wrong there? One: mining permafrost under 
any circumstances, even here on Earth, is extremely demanding. 
The Army Cold Regions Research Engineering Laboratory has books 
and books on what you do with permafrost, and piece of advice 
number one is if it is there, leave it alone. Mining permafrost 
is extremely difficult. We are talking here about a mixture of 
abrasive glass particles frozen in a frozen ice matrix that is 
so cold that it has the strength of granite or of steel. Mining 
that stuff is not easy. Second, the mining equipment we will be 
bringing from Earth is made of metal, and metals at 100 Kelvin 
tend to be as brittle as glass. So I find this to be an 
extremely daunting series of technological issues, and I am far 
from willing to endorse the economic potential of lunar polar 
ice at this time. On the other hand, I have learned--I think I 
learned in kindergarten--that there are things I don't know, 
and when new information comes along, I may be willing to 
change my mind. Let us go after that critical information. Let 
us characterize those deposits. The scientific value of knowing 
what is in those lunar polar ice deposits--I say ice here as an 
assumption. I think it is probably mostly water ice, but I 
can't prove it. The other materials in there are tracers of the 
common asteroid bombardment history of the Moon, and may have 
considerable scientific interest in their own right.
    The third item for import from the Moon is solar power. 
This has been discussed by Professor David Criswell of the 
University of Houston. He proposes manufacturing solar cells on 
the surface of the Moon and beaming electric power from those 
solar cells down to Earth. The up-front investment for this is 
gigantic and daunting, but it appears that once the system is 
installed, it might be economically feasible. And indeed, the 
chemical processes needed to manufacture those solar cells on 
the Moon seem plausible from present knowledge, and I would 
strongly recommend that the Committee think in terms of looking 
further at that technology.
    The broader significance and utility of lunar resources and 
solar system exploration, I would boil down to a three-point 
argument here, sort of starting with a left jab. The Moon is 
not halfway to Mars. The Moon is not even on the road to Mars. 
If we imagine the Dutch sitting around in the 17th Century 
trying to decide whether to trade in the East Indies or the 
West Indies, they did not decide to go to New Amsterdam and set 
up a base for trading with Indonesia. They decided to go to 
both places. And I sincerely hope that in the wisdom of this 
committee, they will understand that both of these goals are 
worthy and they aren't necessarily closely linked.
    Further, I should point out that the Dutch, when they went 
to New Amsterdam, did not come here to settle and colonize all 
of North America. One fact, if you have a vehicle departing 
from Earth to travel to either the Moon or Mars, that vehicle 
can deliver more payload to Mars if it goes direct to Mars than 
it can if it just lands on the Moon, because of the energy cost 
of landing on the Moon. The notion of landing on the Moon in 
order to refuel in order to go to Mars makes absolutely no 
sense.
    And I guess the--there are certain common technologies that 
I would strongly recommend for exploration that support both 
lunar and Mars missions. One: lowering launch costs. This can 
be done by using some of the new technology launch vehicles 
that are out there on the market. Lowering those launch cost 
supports the most innovative segments of the Earth-space 
industry, and is a highly desirable thing because it makes the 
missions approximately 10 times as affordable as they are now.
    Number 2: use local resources locally, and I am referring 
here to lunar resources used on the Moon where they are high 
utility, and on the way to Mars, near-Earth asteroids, Phobos 
and Deimos, Martian satellite resources, or Martian resources 
may be extremely useful.
    And finally, a great value would be an appropriate 
transportation system architecture to provide maximum 
accessibility to the Moon and Mars that would involve a 
refueling station in a highly eccentric Earth orbit, from low-
Earth orbit ranging out to approximately the Moon and back. 
That might serve to be a location where lunar oxygen could be 
accumulated for use to service Mars missions, and although I 
can't promise that that will work out economically, that is far 
more attractive than the other scenarios for staging missions 
to Mars from the Moon.
    Mars need not wait for the Moon. And the basic science and 
the technology testing needed to develop these resource 
extraction schemes can be begun immediately without having to 
wait for human beings on the Moon. So the possibility that a 
commercial oxygen generation plant on the Moon could be there 
when the first men land should be considered.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lewis follows:]

                  Prepared Statement of John S. Lewis

Abstract

    Use of materials native to the Moon can play an important role in 
facilitating both unmanned and manned exploration of the lunar surface, 
most notably in the form of oxygen extracted from lunar minerals for 
use in life support and rocket propellants. Lunar metals may also play 
a valuable role in local construction activities.
    Lunar resources are of no obvious utility for other exploration 
activities, such as missions to Mars. In general, the prospects for 
economically sensible export of lunar-derived commodities are limited 
by the unattractive composition of the lunar surface and the 
substantial energy requirements for landing on and taking off from the 
Moon.
    The three lunar commercial options that seem most plausible are the 
collection and transmission of solar power to Earth, the extraction of 
helium-3 as a fuel for terrestrial fusion power plants, and manufacture 
of rocket propellants from lunar polar ice deposits. All three of these 
schemes require substantial fundamental scientific and engineering 
research in the lunar environment before their economic potential can 
be fully assessed. At the moment, lunar Solar Power Stations appear to 
be the most promising of the three.

    Chairman Rohrabacher, Members of Congress, ladies and gentlemen: It 
is my pleasure to offer some remarks concerning the role of the Moon 
and its mineral resources in the future pursuit of lunar science and 
exploration. I shall also address the potential role of lunar resources 
in support of wider human exploration of the Solar System, and their 
potential economic importance to Earth.
    The resources of nearby space can be exploited for two major 
purposes; either for local use in space, or for return to Earth. The 
most immediate utility of lunar materials lies in their use to support 
manned and unmanned activities on the lunar surface and to facilitate 
the return of astronauts and scientific samples to Earth. The easiest 
such scheme to implement would be that requiring the least-complex 
handling and processing. Even raw, unprocessed lunar surface material 
can be readily utilized to provide radiation shielding for lunar camps 
and base modules.
    Most lunar resource utilization schemes, however, entail both the 
beneficiation (extraction and enrichment) of specific ores and their 
chemical processing. A variety of extraction schemes and target ores 
have been suggested. It is premature to select the ``best'' targets for 
extraction, but it is already clear that as many as a dozen different 
proposed schemes for extraction of oxygen from lunar minerals may be 
practical. Oxygen makes up 90 percent of the mass of the high-
performance hydrogen/oxygen propellant combination. Even if hydrogen 
propellant for use on the Moon were imported from Earth, the energy 
requirements for delivery of propellants to the Moon would be reduced 
by a factor of ten. In any return to the Moon, it would be a serious 
oversight to ignore the great benefits of lunar oxygen production for 
providing both life-support materials for crews on the Moon and 
propellants for lunar-surface mobility and return to Earth.
    Demonstration, and even practical use, of oxygen extraction 
technologies need not wait for human presence on the Moon. Lunar-
derived propellants can play valuable roles in providing mobility for 
unmanned missions on the lunar surface (using brief rocket firings to 
hop over obstacles) and in returning scientific samples to Earth. It is 
possible to envision small processing units, dealing with kilogram 
quantities, on automated, unmanned spacecraft carrying out mineral 
extraction and processing at a low level of complexity. Such an 
experiment might, for example, react hydrogen gas brought from Earth 
with lunar minerals containing iron oxides to extract water vapor from 
them, leaving behind a residue containing high-purity iron metal. 
Electricity generated from sunlight by means of photovoltaic cells 
would then be used to separate water into hydrogen and oxygen by 
electrolysis. The hydrogen would be recycled, and the oxygen 
accumulated for use. Successful demonstration of this process would 
encourage scaling the equipment up to ton quantities to serve the need 
of a manned expedition or base, and would as a bonus permit recovery of 
ton quantities of ultra-pure iron metal from the extraction residue. 
That metal, which exhibits the strength and corrosion resistance of 
stainless steel, could be used for fabrication of beams and girders, 
nuts and bolts, wire and cables, and even the shells of habitat 
modules. Technologies for the extraction and purification of iron could 
be based on the gaseous carbonyl (Mond) process, which has over a 
century of industrial use on Earth.
    One especially interesting lunar resource is the sunlight that 
impinges on its surface. Prof. David Criswell of the University of 
Houston has proposed that solar cell ``farms'' deployed on the lunar 
surface could collect vast amounts of solar power, convert that power 
into electricity, and beam that power back to Earth as microwave beams. 
Criswell argues that the installation cost of such a system could be 
slashed dramatically by fabricating its principal components on the 
Moon from lunar materials. A variety of chemical schemes for 
manufacturing solar cells, wire, and other system components have 
already been explored, and small-scale testing of these processes could 
be started at an early date. It is my opinion that the brightest 
prospect for profitable export of any commodity from the Moon to Earth 
is power from such a Lunar Solar Power Station.
    Export of actual lunar materials for use elsewhere, especially on 
Earth, has rarely been suggested because of two major deterring 
factors. First, the overall composition of the lunar surface is 
strikingly similar to that of the slag discarded in metal smelting 
operations on Earth. Few native lunar materials may be of sufficient 
abundance, accessibility, and value to merit their extraction and 
export. Second, the gravity field of the Moon, although substantially 
less than that of Earth (an escape velocity of about a quarter of 
Earth's and a surface gravity about one sixth of Earth's) is still 
quite substantial. Given the propulsion requirements for escape from 
the Moon and return to Earth, and the complete absence of ready-to-use 
propellants on the Moon, the cost of retrieval of lunar materials is 
certain to be very high, rendering the return of almost any lunar-
derived product to Earth prohibitively expensive. Of the materials 
known or suspected to exist on the Moon, only one appears to offer any 
hope of economic benefit: that is the isotope helium-3, a potential 
fuel for fusion reactors. I have reviewed Prof. Swindle's testimony on 
this subject and concur with his assessment that many questions (such 
as the actual abundance, distribution, and recoverability of helium-3 
on the Moon and the feasibility of commercial fusion reactors) need to 
be answered before we can conclude that helium-3 extraction from the 
Moon is economically sensible. A renewed program of lunar exploration 
must address these scientific and technical unknowns. Much of the 
needed research can be done by unmanned missions.
    A second lunar resource, ice from permanently deep-frozen crater 
bottoms near the lunar poles, has also sometimes been suggested as 
appropriate for export either to the lunar equator or to space stations 
or vehicles off the Moon. I regard this suggestion with deep skepticism 
because of the immense technical difficulty of mining steel-hard and 
highly abrasive permafrost under conditions of permanent darkness, at 
the bottom of steep and rugged craters, at temperatures so low that 
most metals in the mining equipment are as brittle as glass. Further, 
the location of the hydrogen-bearing deposits (almost certainly 
dominated by water ice) at the poles is the most remote from sensible 
locations for a lunar base of any place on the Moon.
    The lunar ice deposits are of great scientific interest for the 
stories they can tell about comet and asteroid bombardment of the lunar 
surface. Scientific investigation of these deposits need not, and 
arguably should not, involve human presence. With such composition data 
in hand, and with a greatly improved knowledge of the extent, 
concentration, and purity of the lunar ice, a more realistic assessment 
of the utility of these deposits could be made.
    Specifically, the use of lunar-derived propellants, whether oxygen 
extracted from iron-bearing minerals such as ilmenite and olivine or 
hydrogen and oxygen made from polar ice, to support expeditions to Mars 
makes no logistic sense. The Moon is not ``between'' Earth and Mars; it 
is a different destination, poorly suited to function as a support base 
for travel to Mars. Water extraction from the martian moons Phobos and 
Deimos or from near-Earth asteroids may offer great advantages to Mars-
bound expeditions, more profound than lunar water could even if the 
Moon had no gravity to fight. In any location, development of 
extraction and fabrication technologies should, like low-cost space 
launch services, be conducted as a commercial endeavor.
    There are clear advantages to the use of lunar resources in support 
of both manned and unmanned activities on the Moon. Direct benefits to 
Earth from lunar resource exploitation are certainly conceivable, but 
will remain conjectural until substantial further research on in situ 
fabrication of solar cells and on the abundance and distribution of 
helium-3 and polar ice has been done on the Moon.

                      Biography for John S. Lewis

    John S. Lewis is Professor of Planetary Sciences and Co-Director of 
the Space Engineering Research Center at the University of Arizona. He 
was previously a Professor of Planetary Sciences at MIT and Visiting 
Professor at the California Institute of Technology. His research 
interests are related to the application of chemistry to astronomical 
problems, including the origin of the Solar System, the evolution of 
planetary atmospheres, the origin of organic matter in planetary 
environments, the chemical structure and history of icy satellites, the 
hazards of comet and asteroid bombardment of Earth, and the extraction, 
processing, and use of the energy and material resources of nearby 
space. He has served as member or Chairman of a wide variety of NASA 
and NAS advisory committees and review panels. He has written 15 books, 
including undergraduate and graduate level texts and popular science 
books, and has authored over 150 scientific publications.

    Chairman Rohrabacher. Well, thank you. And I know there 
will be more discussion. And our final witness is Dr. Timothy 
Swindle from--he is a Professor of Geosciences and planetary 
Sciences at the University of Arizona. Dr. Swindle, you may 
proceed.

 STATEMENT OF DR. TIMOTHY D. SWINDLE, PROFESSOR OF GEOSCIENCES 
         AND PLANETARY SCIENCES, UNIVERSITY OF ARIZONA.

    Dr. Swindle. Here we go. Thank you. Chairman Rohrabacher 
and Members of the Committee, and ladies and gentlemen, thank 
you for the invitation to talk about issues regarding lunar 
science and lunar resources. Today, I wish to address one very 
good science reason to go the Moon, and one proposed lunar 
resource that would be very difficult to utilize.
    First the science reason: we can go to the Moon to learn 
about the environment on the early Earth at the time when life 
was forming. Furthermore, much of what we can learn about the 
Earth from the Moon, we cannot learn from the Earth itself. One 
of the dominant processes occurring on the Moon is--has always 
been the impact of comets and asteroids. The large circular 
dark features that you can see from Earth without a telescope 
are lava flows that fill basins, which were formed by impacts 
larger than any that have occurred on Earth in the three 
billion years. Surprisingly, the vast majority of Moon rocks 
formed by these big impacts are virtually the same age, not 
quite four billion years old. We don't know whether that is 
because the last one or two or five of these impacts plastered 
the limited region that we sampled with Apollo, or whether 
there really was a half a billion years before that, where 
there were relatively few impacts. There are older Moon rocks, 
though not formed by impacts. To solve this puzzle, we would 
need to go back to the Moon and carefully select certain rocks 
from areas that we didn't visit before. So why is that 
interesting?
    The last well-dated impacts on the Moon are about the same 
age as the oldest rocks of any kind on Earth, which is also the 
time when the first evidence for life on Earth appears. Since 
Earth has nothing more than fragments of any rocks older than 
this, learning anything about what happened on Earth before 
then from the terrestrial record will be very difficult. 
However, we can learn how many impacts the Moon was suffering 
before this, and even something about whether these impacts 
were comets or asteroids. And if we know what was hitting the 
Moon, we instantly know something about what was hitting the 
Earth. Since if the Moon was taking a pounding, the Earth was 
getting hit by the same kinds of things, only by more of them.
    These could have provided the water or the organic 
materials for life, or their impacts could have continually 
frustrated the start of life on Earth. Learning about the Moon, 
we learn about the Earth. However, we need carefully selected 
rocks from the Moon, and by far the best way to do that is to 
send humans. During the Apollo missions, the astronauts looked 
at far more samples than they brought back, and they 
judiciously chose what were almost the best samples they could 
have. Robotic technology, unfortunately, is still far from 
being able to separate out the subtleties that a human easily 
can.
    Now, let me switch gears and talk about something very 
different, a suggested lunar resource. As Professor Lewis 
mentioned, it has been proposed that we should go to the Moon 
to mine helium-3 as a fuel for clean burning fusion reactors. 
Helium, and particularly helium-3, is extremely rare on the 
Earth. Heilum-3 makes up less than one-trillionth of our 
atmosphere. It is somewhat more abundant on the Moon. That is 
because the solar wind, the flow of particles expelled by the 
Sun, includes quite a bit of helium-3. The solar wind hits the 
Moon's surface, it gets implanted into the outer ten millionth 
of a meter of grains that are at the very surface of the lunar 
regolith or the lunar soil.
    Small impacts then stir this regolith so that the helium-
bearing grains on the surface get mixed to greater depths. We 
know quite a bit about the distribution of helium-3 on the 
Moon, but two things we don't know are how deeply those grains 
from the surface get mixed down, and whether the fact that the 
Earth's magnetic field can shield parts of the Moon's surface 
from the solar wind at certain times will make a difference at 
some spots. These two rather small uncertainties make a 
difference of a factor of ten in our total estimates of the 
amount of helium-3 on the Moon.
    We do know this, though, mining helium-3 from the Moon 
would be a massive, difficult operation. At the most promising 
locations, helium-3 makes up no more than about one part in 100 
million, and it is almost exclusively found in the upper ten 
meters of the regolith, perhaps the upper three meters. Thus, 
to mine one ton of helium-3 per year, which one group suggested 
as a goal to fuel a working fusion reactor, we would have to 
move 100 million tons of dirt, which is comparable to some of 
the largest terrestrial mines. It is difficult to imagine this 
being a robotic operation. The minimum amount of the Moon that 
would have to be mined to match that one ton a year is about 
seven square kilometers per year, and it wouldn't take very 
many years to mine enough of the Moon that you could see the 
Moon--the mine from Earth with binoculars.
    I would stress that at present, a full assessment of the 
feasibility of mining helium-3 is far cheaper and simpler than 
actually trying to mine it. The assessment would include 
learning more about the lunar regolith at various depths at 
various locations around the Moon, determining the relative 
value of helium-3-based fusion reactors, the cost of other 
potential sources of helium-3, not to mention developing and 
testing mining techniques. Also, I would point out that there 
are many other lunar resources for which extraction would 
require far less ambitious projects.
    So, my three main points: First, the Moon holds valuable 
clues as to the early history of the Earth at a time when life 
was forming. Second, helium-3 is a potentially valuable 
resource, but extracting it from the Moon is a difficult 
process. There should be more basic assessment before 
attempting to implement anything. And finally, the work I have 
talked about will be accomplished far more easily with humans 
on the Moon than without.
    Thank you.
    [The prepared statement of Dr. Swindle follows:]

                Prepared Statement of Timothy D. Swindle

    Chairman Rohrabacher, Members of the Committee, ladies and 
gentlemen: Thank you for the invitation to talk about issues regarding 
lunar science and lunar resources. Today, I wish to address one topic 
in each. First, we are beginning to understand that lunar science is 
important because the Moon contains clues to the earliest history of 
Earth, perhaps even of the start of life on Earth. Second, there are 
aspects of fundamental lunar science that we need to understand better 
to be able to assess whether it would be worthwhile to try to exploit 
the Moon for certain resources that might be used on Earth. In specific 
example of helium-3, while it is clear that it is a prodigious 
undertaking, we need more information to know the real magnitude of the 
task.
    The first evidence of life on Earth comes in rocks that are 
approximately 3.8 billion years old. The evidence is ambiguous, and it 
is unlikely that we will be able to use terrestrial rocks to learn much 
more about what was happening then, or earlier, because there are so 
few rocks this old or older. Could we use the Moon to understand what 
was going on on Earth?
    The large circular dark features on the Moon that we see from Earth 
are dark lava flows that fill basins, which were formed by impacts 
larger than any that have occurred on Earth in the last three billion 
years. Perhaps surprisingly, analysis of the rocks returned by the 
Apollo program showed that the vast majority of impact-derived rocks 
are roughly the same age, between 3.8 and 4.0 billion years old. Few 
are younger than 3.8 billion years old; none are older than 4.0 
billion. Although a number of rocks older than 4.0 billion years were 
brought back, extending back to the age of the Moon itself nearly 4.5 
billion years ago, none of the older rocks were the types formed in 
large impacts.
    Two possibilities have been suggested to explain the tight 
clustering in ages of the impact rocks from the Apollo collection. One 
is that the Moon actually had not had many, if any, large impacts in 
the previous 0.5 billion years, and then had a cataclysmic bombardment. 
The biggest problem with the idea of a late cataclysm is that we do not 
understand where the objects causing the bombardment could have been 
stored for that length of time before suddenly being released on the 
inner Solar System. The other possibility suggested is that there were 
many large impacts all along, but the rocks formed in the earlier 
impacts were all destroyed in the final few impacts, the terminal 
portion of this heavy bombardment. The biggest problem with the idea of 
a terminal heavy bombardment is the difficulty with destroying the old 
rocks produced in impacts while leaving intact many other rocks formed 
in that same period.
    The question of the early impact history of the Moon has important 
implications for the early history of Earth. If the Moon suffered 
several large impacts in any given period of time, Earth probably 
suffered many more, since Earth is nearby (in solar system terms), but 
larger. This is probably why we find no intact rocks on Earth older 
than the time of the final basin-forming events on the Moon, whether it 
was a cataclysm or a terminal heavy bombardment.
    Assuming that the lunar basins were only the last in a continuous 
string of large impacts, the end of a heavy bombardment, some 
scientists have suggested that there was an ``impact frustration'' of 
life. Life may have arisen long before the first evidence we find, and 
perhaps may have even begun more than once, but was wiped out, or 
``frustrated,'' as one impact after another hit the Earth with enough 
energy to boil the oceans. In this scenario, life began on Earth 
virtually as soon as it became possible.
    On the other hand, if there was a cataclysmic bombardment, then 
there may have been a long, relatively peaceful period on Earth in 
which life could have started. In this scenario, life might have been 
more abundant when the cataclysm began, but it could only have survived 
in some niches away from the oceans and away from the Earth's surface. 
There are some primitive organisms even today that might be suitable 
candidates for such survival. In this scenario, it is also possible 
that it took hundreds of millions of years of clement conditions for 
life to start, reducing the chances of finding life on a planet like 
Mars, whose climate was only pleasant for a brief period of time.
    These two alternatives provide fundamentally different expectations 
about the formation of life on Earth, and its likelihood elsewhere.
    There is also the question of where and when Earth got its water. 
Water is crucial for life as we know it, but in many models of the 
formation of the Earth, the planet formed from material that would have 
lacked water because that material came from too close to the Sun. 
Hence, the water may have been added at some later time by the impacts 
of comets or water-rich asteroids. There are few clues available on 
Earth to address these questions, but the Moon does contain clues. The 
rocks formed in lunar impact basins often contain rare elements that 
can serve as tracers for the bodies that impacted. As we learn more 
about the compositions of more of the bodies that impacted the Moon, we 
learn more about the bodies that impacted Earth, and hence we learn 
more about how much material of what kind was added to Earth, and when 
it was added.
    Although we continue to try to address these problem in a variety 
of ways, we are hampered by the fact that the only lunar rocks we have 
from known locations are the Apollo samples, and the Apollo samples all 
come from a rather restricted region on the near side of the Moon where 
the more recent basin-sized impacts occurred. One of the arguments for 
going back to the Moon is to try to decipher the Moon's early impact 
history by studying rocks from a variety of known locations that are 
not near the latest basins. We can do this robotically, and it would be 
a great improvement over the suite of samples currently available, but 
having humans present is far superior. During the Apollo missions, the 
astronauts looked at far more rocks than they returned, and judiciously 
chose what were almost certainly the best samples available. Robotic 
technology is still far from being able to separate out the subtleties 
that a human easily can.
    Exactly how and when life started on Earth is one of the great 
scientific questions of the 21st Century. Understanding the history of 
the bombardment of the Moon will not tell us how life started on Earth, 
but it will tell us far more about what the conditions were on Earth 
when life did start. Furthermore, the record stored within the rocks on 
the Moon is of times and events whose record no longer exists on Earth.
    Going from the distant past to the near future, understanding basic 
lunar science is also crucial to understanding whether certain ideas 
for using lunar resources are even feasible, much less how to implement 
them. As an example, Gerald Kulcinski, Harrison Schmitt, and co-workers 
have proposed the use of the rare helium-3 from the Moon as a fuel for 
clean-burning fusion reactors.
    Helium, and particularly its lighter stable isotope helium-3, is 
rare on Earth. Helium is light enough that any atom currently in the 
atmosphere is likely to escape from Earth's gravity at some time over 
the next million years or so. Earth's atmosphere is gaining some helium 
from Earth's interior or by trapping it from space, but it is in tiny 
amounts, only about 10 kg per year: helium-3 is less than one part per 
trillion of the atmosphere by mass, and extraction is clearly extremely 
difficult.
    There is, however, a body in the Solar System with huge reserves of 
helium-3--the Sun itself. The Sun contains a total of about 1.4  
10<SUP>26</SUP> kg of helium-3, a larger mass than the entire mass of 
the Earth. Going to the Sun to get that potential fuel is far beyond 
our presently imagined capabilities, but the Sun expels some of its 
outer layer in a rather steady flow of particles, the solar wind. The 
solar wind flux at the distance of the Earth from the Sun is about 
0.005 g of helium-3 per km<SUP>2</SUP> per year. The Earth's magnetic 
field deflects virtually all of this solar wind, but the Moon has no 
magnetic field or atmosphere of its own, so the solar wind is implanted 
into the surface of the Moon, except during the portion of the month 
when the Moon is shielded by the Earth's magnetic field.
    Kulcinski and Schmitt have suggested the possibility of mining the 
Moon for helium-3, and have suggested one ton per year as a target 
amount. In 1990, I was part of a group at the University of Arizona 
that evaluated the potential of this idea. We considered how much 
helium-3 the Moon actually contains, how well we know that amount, and 
how we might mine it. Although there have been some advances in lunar 
science since then that have caused us to revise our estimates 
slightly, we still have not been able to learn anything more definitive 
about the two most critical parameters, the distribution of helium-3 
with depth in the lunar regolith and the distribution of helium-3 with 
location on the Moon. Our estimates of the total helium-3 contained in 
the lunar regolith (the lunar ``soil'') ranged from 450,000 to 4.6 
million tons, based just on plausible variations in these two factors.
    The amount varies with depth within the regolith because solar wind 
is implanted only 0.1 to 0.2 microns deep (a micron is one millionth of 
a meter). Small impacts stir the regolith, so that helium-bearing 
grains on the surface can get mixed to greater depths. However, models 
of regolith formation predict that the amount of solar wind should 
generally decrease with depth, because deeper layers should have fewer 
grains that have spent time at the surface. At present, we have no 
samples from any deeper than three meters (the depth of the longest 
drill core taken by the Apollo astronauts), and the predicted trend is 
not really seen. If the abundance changes little with depth to the 
bottom of the regolith (typically 10 to 15 meters), then approaches to 
mining helium-3 would clearly need to be different than if the helium-3 
is concentrated in the upper two to three meters.
    The amount of helium-3 varies with location as a result of two 
factors, one of which we understand, and one of which we don't. One 
factor is the chemical composition: helium atoms are so small, and so 
light, that they can escape from many minerals, even if they are 
implanted. Some minerals will retain less than one percent of the 
helium-3 implanted. By far the best, in terms of retention, is the 
mineral ilmenite, which also happens to be the mineral that contains 
most of the element titanium on the Moon. Hence, by mapping the 
abundance of titanium (something that has been accomplished by orbiting 
spacecraft), we can predict where helium might be retained well.
    The other factor is the amount of helium received. Since Earth's 
magnetic field shields the Moon from the solar wind during part of the 
month, the portion of the Moon facing the Sun at that time each month 
(the Near Side of the Moon) is exposed to less solar wind than the 
portion of the Moon that faces the Sun when the Moon is not within 
Earth's magnetic field. But even though some portions are exposed to 
more solar wind, we do not know whether they actually receive more--it 
is possible (and has been suggested, based on some experiments) that 
individual grain surfaces become saturated, reaching a state where no 
more can be implanted, even if the surface is exposed to more solar 
wind. By far the best way to test this is to analyze samples from a 
variety of locations on the Moon, which we cannot do at present.
    We also need to know more about the general properties of the lunar 
regolith if we are going to attempt to mine the Moon for helium-3. For 
example, a mining engineer would clearly need to know how common intact 
rocks are, and what sizes they are likely to be, as one moves deeper 
into the regolith, and if and how the properties of the deeper regolith 
differ from those of the surface layers studied by the Apollo missions.
    It is worth noting that in any scenario, mining helium-3 from the 
Moon will be a massive, difficult operation. Even with our most 
optimistic estimates of the abundances and distribution, we found that 
at the most promising sites, helium-3 makes up only one part in 100 
million of the regolith (by mass), so extracting one ton of helium-3 
would require mining 100 million tons of regolith, even if the 
extraction were perfect, which it will not be. This is comparable to 
the annual work of some of the largest terrestrial mines. Adding in the 
fact that only the top few meters of the regolith contain any helium-3 
at all, to mine one ton per year would require digging up seven square 
kilometers of the Moon's surface each year, at the most promising site 
under the most optimistic set of assumptions, so it would not take many 
years for the mine to become large enough to be visible from Earth with 
even a small pair of binoculars. Although massive mining operations are 
increasingly mechanized, humans are still the best way to make 
decisions, diagnose equipment problems, and make repairs.
    There are several other potential resources, most notably oxygen, 
whose extraction would require far less ambitious mining projects. 
However, they typically share the common property that we would need to 
know more about the basic science of the lunar regolith to be able to 
properly implement them, or even to properly evaluate their potential.
    Once again, while it is certainly possible to imagine ways to 
attack these basic science questions robotically, it would require a 
level of sophistication far in advance of any mechanisms yet launched 
into space, though well within the reach of human-conducted 
exploration. Furthermore, in the case of helium-3, it is worth 
stressing that at present, a full assessment of the feasibility is far 
cheaper and simpler than an attempt at implementation.
    In summary, the Moon holds valuable clues to the early history of 
Earth, at the time when life was forming, and may hold valuable 
resources for the future of Earth. But to evaluate either properly, 
there is lunar science that would need to be done, and the way to do 
that lunar science best is with human beings.

                    Biography for Timothy D. Swindle

    Dr. Timothy D. Swindle is a Professor of Planetary Sciences and 
Geosciences at the University of Arizona. He received a Ph.D. in 
Physics from Washington University in St. Louis in 1986. Prof. 
Swindle's main area of research has been using the noble gases, such as 
helium, argon and xenon, to study meteorites and lunar samples. His 
lunar work has included studies of the impact bombardment history of 
the Moon and the incorporation of gases into the lunar regolith. His 
current research emphases are on the chronology of the Moon and on 
constructing instrumentation to be used on robotic spacecraft to 
determine the ages of rocks on bodies where human exploration is not 
yet possible.

                               Discussion

    Chairman Rohrabacher. Well, thank you very much. We have 
just been called to a vote, and so what I would suggest is if 
we took the vote and then come right back and begin the--I 
think it is one vote--come back and conduct the questions right 
afterwards.
    Mr. Feeney. Mr. Chairman, with your indulgence, I am going 
to have go to the White House after this. I appreciated all the 
testimony, and I would like to ask some questions now--well, 
no, I just wanted to leave one simple statement because I am 
not a scientist by background. But 100 years ago, most people 
thought that about 98 percent of the surface of Florida was 
practically unusable so we have got to learn, I think, is what 
I learned from the witnesses.
    Chairman Rohrabacher. Thank you very much.
    Mr. Feeney. But that was before air conditioning, which is 
just as vital in practical terms as water and oxygen to humans 
in Florida, anyway.
    Chairman Rohrabacher. All right. We have several major 
issues to discuss, and so when we come back, we will get right 
to them, and this committee is in recess for 15 minutes.
    [Recess.]

                                Helium-3

    Chairman Rohrabacher. All right. This hearing is called to 
order. Thank you very much for waiting. We have had some very 
fine testimony today. I would like to ask the panel a question. 
For those who would like to, several panelists have mentioned 
helium-3. Isn't it the case that helium-3 has no value now and 
we are only talking about something that has value if it is--if 
we can perfect fusion energy? Is there some other value that I 
am missing there? So, please feel free to jump in.
    Dr. Swindle. I would agree with that assessment. The fusion 
reactors are coming, perhaps, but perhaps. They are not there 
yet.
    Chairman Rohrabacher. I would say a big perhaps. I will let 
you know.
    Dr. Swindle. And there is no other reason to mine helium-3 
that I have heard suggested.
    Chairman Rohrabacher. All right. Dr. Lewis, is that--does 
anyone disagree with that assessment? Nobody disagrees with 
that assessment.
    Dr. Lewis. Mr. Chairman?
    Chairman Rohrabacher. Yes?
    Dr. Lewis. We shouldn't discount fusion reactors. It is a 
perpetual truth that they are 30 years away.
    Chairman Rohrabacher. And they always will be.
    Dr. Lewis. It has been true since 1960.
    Chairman Rohrabacher. Right.
    Dr. Lewis. But there is an interesting application, which 
is that when a new fusion reactor is first built, during the 
test runs of it, they use helium-3-deuterium mixtures to test 
the reactor because that fuel combination is very clean. It 
doesn't induce radioactivity in the reactor, but that is not a 
commercial-level activity. That is done in very tiny 
quantities.

                        Solar Energy on the Moon

    Chairman Rohrabacher. Yes. Several years ago, I made a 
study of how successful we have been in developing fusion, and 
I came to the conclusion that it is the least successful of all 
of our scientific endeavors was trying to--but it promoted--but 
it actually employed more people with less success than any 
other of our scientific endeavors. Also, we are talking about 
the concept of solar power on the Moon. I believe Mr. Lewis was 
talking about that, and beaming energy--this is something that 
I think has much more potential than fusion energy.
    Dr. Lewis. That is correct if we are talking about economic 
impact on Earth on a foreseeable time scale. Fusion energy 
could be made to work at any time, and then might become a big 
player, but the Sun does exist. We do know how to make 
electricity from it. We do know how to convert that electricity 
into microwave power. And, I would strongly recommend that at 
the very least, your staff get in contact with Professor David 
Criswell at----
    Chairman Rohrabacher. Well----
    Dr. Lewis.--the University of Houston and----
    Chairman Rohrabacher. Oh, yes.
    Dr. Lewis.--get his slant on this.
    Chairman Rohrabacher. Why would it be better to have the 
solar system on the Moon rather than orbiting?
    Dr. Lewis. The advantages and disadvantages pile up pretty 
much like this: if you install the--a system in, say, 
geosynchronous orbit around the Earth, that system has to be 
lifted in its entirety from the surface of the Earth. But, if 
you install the system on the surface of the Moon, you can make 
the structures and the solar cells themselves out of local 
lunar materials, so you don't have to transport nearly as much 
mass. You bring up a small factory.
    Chairman Rohrabacher. And----
    Dr. Lewis. However, there is a downside.
    Chairman Rohrabacher. Okay.
    Dr. Lewis. The downside is that to get that power back to 
the surface of the Earth, you need a much larger transmitter on 
the Moon than you do in geosynchronous orbit, so that would 
have to be made out of lunar resources, and that means you 
would need a fairly large-scale up-front industrial base on the 
Moon to manufacture these items. If you see your way through 
that up-front cost in installing such a system, then the 
economy of the system seems hard to avoid. It is just that the 
up-front investment is enormous.
    Chairman Rohrabacher. Enormous as in billion?
    Dr. Lewis. Oh.
    Chairman Rohrabacher. Tens of billions?
    Dr. Lewis. Tens of billions.
    Chairman Rohrabacher. Hundreds of billions?
    Dr. Lewis. Yeah.
    Chairman Rohrabacher. No, not hundreds.
    Dr. Swindle. Could I make a comment on that?
    Chairman Rohrabacher. Yes, sir.

                           In Situ Resources

    Dr. Spudis. It is certainly true that when Dave Criswell 
talks about this concept, he is envisioning giga-watt 
production for use, basically, to electrify and industrialize 
the third world, and that is certainly the goal of this. But 
you could start with doing proof-of-concept and demonstration 
experiments with a very minimal return to the Moon. For 
example, Professor Alex Ignatiev from the University of Houston 
has developed a miniature rover that rolls around and actually 
manufactures amorphous silica solar cells in situ from lunar 
soil, and this has actually been built and is in test 
demonstrations. So you could land a robot payload on the Moon, 
develop--let us set it out. Let it make solar cells, connect 
them together, and demonstrate that the concept is feasible 
without investing billions of dollars in industrial 
infrastructure. So you can start small and then ramp up as you 
get more.
    Chairman Rohrabacher. And you could do that with a robot--
totally robotically?
    Dr. Swindle. That is what he is looking at right at the 
moment, but that is just an initial test. It is not a 
production phase.
    Chairman Rohrabacher. All right. Any one else want to jump 
back or back----
    Dr. Lewis. Yes, just let me point out that there will be 
substantial power demands for a lunar base.
    Chairman Rohrabacher. Yes.
    Dr. Lewis. And there is no reason why one couldn't start 
with a facility of this sort to power the lunar base and then 
later add the ability to transfer part of that power to Earth.
    Chairman Rohrabacher. Okay. And we also had a suggestion 
that we could land some type of equipment on the Moon that 
would then be able to produce, I guess, a fuel from hydrogen so 
that once people got there, they could refuel. They would have 
a refueling operation that would be ready to go, or already 
operating. Now, who is it that suggested that? Somebody 
suggested that, or maybe I was just thinking that.
    Dr. Lewis. I mentioned it. You know, oxygen extraction from 
the Moon is the big attraction. The hydrogen----
    Chairman Rohrabacher. What about hydrogen?
    Dr. Lewis. The hydrogen concentration on most of the Moon 
is very low, so that you run into sort of a pale version of the 
helium-3 problem where you need to process huge quantities of 
dirt to get the hydrogen out. However, if you are asking--if 
you are considering a vehicle on the surface of the Moon about 
to bring a crew of astronauts back to Earth, the propellant 
that they need is 90 percent by mass oxygen and only 10 percent 
hydrogen.
    Chairman Rohrabacher. Oh, I see. Okay.
    Dr. Lewis. So one can imagine ferrying hydrogen to the Moon 
and then beefing that up with a huge quantity of lunar oxygen. 
One can imagine, in fact, running the rocket engines way over 
on the oxygen-rich side so that you are using lots of extra 
oxygen because it is relatively cheap on the Moon.
    Dr. Spudis. But it is not impossible to extract hydrogen 
from any place on the Moon. It is just--he is right. It is very 
low concentration. But, if you have time and you have energy, 
you can set up a robotic system to roll across the surface and 
extract what it can and store it and let it operate 
autonomously, and when it is full, then you can go up and use 
it as fuel. That is certainly feasible. We are fortunate in the 
sense that the hydrogen on the lunar dust is put there by the 
solar wind. The solar wind hits the Moon, it implants these 
atoms on dust grains. Those atoms come off fairly easily. You 
have to heat the soil to about 700 degrees Centigrade and that 
gas comes off and it can be collected and then condensed and 
liquefied. So it is possible to do this, as long as you are 
willing to wait. It won't be something you can do immediately, 
but it is something you can do over a long period of time.

                   Possible Return Dates to the Moon

    Chairman Rohrabacher. Well, this all is very exciting about 
then, and let me ask you this. Maybe you can just give me your 
own concept there, do you--just down the panel. How long do you 
think, and how much do you think, it will cost us to--before we 
can get back to the Moon with a human being and have some sort 
of manned operation on the Moon?
    Dr. Spudis. Well, technically, there is no reason why we 
couldn't be on the Moon within five to seven years of the 
program start. Now the principle reason why the President's 
proposed initiative takes a slower pace is that the trade there 
is the difference between money and schedule, that if you fund 
it at pretty much the current NASA level, slightly augmented 
and growing with inflation----
    Chairman Rohrabacher. Uh-huh.
    Dr. Spudis.--then we could be back on the Moon, with robots 
first in '08, and beyond and people starting as early as 2015, 
but that is based on the assumption of essentially constant 
funding, slightly augmented. If you wanted to accelerate that, 
you could. There is no technical reason why we couldn't be on 
the Moon within, let us say, 2010. It is possible.
    Chairman Rohrabacher. Is there----
    Mr. Spudis. It is a money issue.
    Chairman Rohrabacher. Is there any disagreement with the 
panel on that? Okay, good. Well, I am going to let Mr. Lampson 
take over, and I may have a few more questions as we move on.

               Timeframe for In Situ Resource Development

    Mr. Lampson. How long, Dr. Spudis, would it take, if you 
say you have time to wait, for the development of that fuel? 
What were you talking about? Were you talking amount minutes, 
days, years?
    Dr. Spudis. Months. Basically, what you would want to do is 
you would want to set up a rover that was solar powered, 
basically, so you would only operate during the daytime. So in 
that scenario, it would operate for 14 days and then basically 
hibernate during the lunar night of 14 days, and it would 
basically go back and forth across the soil, collecting solar 
energy with a passive mirror--solar-thermal--concentrating it 
like a heating element onto the soil, taking evolved gasses, 
collecting evolved gasses that come off, and then processing 
those.
    Mr. Lampson. So that is the direction in which we want to 
go, we want to do that pretty quickly----
    Dr. Spudis. Well----
    Mr. Lampson. Right?
    Dr. Spudis.--I am not advocating this. I am saying that it 
is technically possible. I think the first step to going back 
to the Moon is to get a better understanding of where the ore 
deposits are. The problem with the equatorial sites is that 
those are fairly low-grade ores. The concentration levels are 
very low, just like Dr. Lewis says. We need to find out what is 
at the poles. What is going on there? How much is there? Where 
is it? What is the physical state? And then decide whether that 
is the answer to the problem or not.

                    Prioritization of Lunar Science

    Mr. Lampson. How would all of you prioritize the research 
that we want to do, or should be done on the Moon? I mean, what 
has the highest priority? Any or all of you?
    Dr. Spudis. In terms of science?
    Mr. Lampson. Uh-huh.
    Dr. Spudis. I think that one of the most intriguing things 
is what I mentioned in my testimony and that--and also Tim 
Swindle mentioned too--and that is the impact history of the 
Earth-Moon system. Fundamentally, the biggest scientific 
accomplishment of Apollo was an appreciation for the importance 
of hypervelocity impact. That is something we didn't really 
appreciate before we went to the Moon, and yet, we found that 
it is fundamental to the evolution and history of life on 
Earth. The dinosaurs, for example, went extinct 65 million 
years ago because of a giant impact, and we now suspect that 
these impacts may occur occasionally in the geologic record, 
but we can't verify that because the Earth's record is 
incomplete. The Moon's record is complete. You can go back and 
recover and read that record, and it applies to the Earth 
because Earth and Moon are in the same part of the solar 
system. Tim, do you have any comments on that?
    Mr. Lampson. Anybody else have a----
    Dr. Swindle. No.
    Mr. Lampson.--different priority or a different set of 
priorities? That is the most important thing. Are you going to 
list anything else?
    Dr. Lewis. Yes, the fundamental science that needs to be 
done to assess these various resource schemes. I would put that 
in the same list. And, incidentally, the apparatus and the 
personnel involved in doing those experiments overlap 
substantially with those who would be doing the basic science 
that Dr. Spudis is talking about. This is not a separate or 
conflicting or competing agenda, but it is part of the 
scientific assessment of the Moon. It is something that can be 
done substantially with unmanned probes. As I mentioned in my 
testimony, one can envision even producing tanks of liquid 
oxygen that would be available, sitting there on the Moon when 
the first----

                Timeframe for a Human Return to the Moon

    Mr. Lampson. Much of this can be done robotically. At some 
point, you have to have humans involved----
    Dr. Lewis. Right.
    Mr. Lampson.--and do you have a feeling as to when that 
might be?
    Dr. Lewis. Well, let us just break it into phases. There is 
a robotic phase where you are learning the basic principles and 
demonstrating the processes. Then, there is an industrial phase 
where you are actually doing it on a commercial scale. That 
first phase could be initiated this year, and could be flying 
missions within a couple of years. That is not a problem. 
People have thought a great deal about how to do these things. 
Many of the instruments involved already exist. The commercial 
phase, if one has a large liquid oxygen plant on the Moon, let 
us say just for purposes of concreteness, would almost 
certainly benefit from being attended by human beings from time 
to time for maintenance and repair and so on. So I suppose that 
you could say that within a few short years, we could have the 
ability to produce that first big commercial batch of oxygen, 
but beyond that point, you need the people there, A, to 
maintain the plant, and B, to use the product. And there is a 
synergism there. I would hate to see the landing of people on 
the Moon delayed because of inadequate attention to building 
infrastructure on the Moon to support them.
    Mr. Lampson. Let me go on one different direction for a 
minute and we will come back on the--oh, I am sorry. Dr. 
Swindle.
    Dr. Swindle. One other thing on the same topic, Professor 
Lewis was talking about the resource aspect. Let me address the 
same question from the science aspect which is to say that some 
robotic missions in terms of addressing the impact history 
would be very nice, and, in fact, I believe that Dr. Spudis and 
I are competitors on proposals for such a mission in for launch 
in 2007? Something like that.
    Dr. Spudis. Right.
    Dr. Swindle. And we will learn a huge amount by having a 
few samples from some places we haven't been. Beyond that, to 
really make progress, we need to have the advantage of having 
people who can look and pick up the one rock that you really 
needed out of that landscape that you can't really with just--
even a good camera.
    Mr. Lampson. Okay. Do you want to go ahead and then we will 
come all the way back.
    Chairman Rohrabacher. All right. Dr. Bartlett.

                      Other Potential Lunar Fuels

    Mr. Bartlett. Thank you very much. Are there other 
potential fuels on the Moon, other than hydrogen, that could be 
exploited?
    Dr. Lewis. Yes. Yes, there are a number, but they all 
require--they are all at the bottom of deep chemical potential 
energy wells. They need to be extracted at considerable cost, 
and part of that cost is in the complexity of the equipment 
needed to do it. An example would be extracting a metal from 
the lunar surface, such as aluminum, that can be burned in the 
oxygen. There are no completely satisfactory schemes for using 
powdered aluminum in oxygen right now. I have seen some that 
scare me to death and some that I don't think would work enough 
to scare me. But, indeed, there is a possibility of extracting 
metals to be burned with the oxygen. I would say that that 
research is in a very primitive state. How you would make an 
autonomous propulsion system on the Moon compared to the state 
of knowledge of how to extract oxygen.
    Dr. Spudis. There are two other possibilities. It was 
looked at in the '80s of using lunar surface sulfur. There is 
sulfur in the lunar regolith, and that can actually be burned 
as a rocket fuel. You can actually make solid rockets on the 
Moon. That was looked at quite extensively by the Los Alamos 
group back in the early '80s, and that looked feasible. The 
other thing that we don't yet know about is we--if there is ice 
in the poles--the dark areas of the poles that was deposited by 
cometary cores, cometary cones contain methane, and there may 
be methane, there may be ammonia, in the floors of the polar 
craters, and both of those can be used as rocket propellant as 
well.
    Mr. Bartlett. Thank you. In spite of enormous insulation, 
the Moon is very cold because it is simultaneously radiating to 
space. If you put a piece of glass over it, of course, the 
incoming energy ends up, a lot of it, as infrared, which 
doesn't get back through the glass. What happens to lunar 
temperature if you put glass over it?
    Dr. Lewis. You----
    Mr. Bartlett. You would get a greenhouse effect, obviously.
    Dr. Lewis. You would get a greenhouse effect, but the 
numerical answer depends very sensitively on the exact on the 
exact transmission of the glass, wavelength dependent on 
transmission.
    Mr. Bartlett. Okay.
    Dr. Lewis. But you can easily bump the temperatures up by, 
you know, 20, 30 percent, absolute temperatures.
    Mr. Bartlett. It will get them up to habitable temperatures 
just by the greenhouse effect?
    Dr. Lewis. It will probably be easier to build a habitat 
and step inside it. Building a glass structure on the Moon 
invites a--becomes a very sensitive method of determining the 
rate at which meteoroids are striking the Moon, the rate at 
which your glass house crumbles. So, yes, you can indeed 
enhance temperatures that way. One can imagine small devices on 
the Moon that trap solar energy in that manner. One can also 
imagine producing electricity by using a device to trap 
sunlight, boil water, and drive a Ranking cycle generator and 
so on, but if you are talking about terraforming, trying to 
make Earth-like conditions on the Moon, the Moon is so utterly 
un-Earth-like that you better try to do it one square yard at a 
time, not think about it in terms of a global scale.

                          Mobile Solar Stores

    Mr. Bartlett. When you are thinking about transportation on 
the Moon, obviously the energy source that is continuously 
available is solar, and it is easy to imagine a solar ATV that 
goes wherever you can go with a solar ATV. What attention has 
been given to developing solar kangaroos? Something that just 
stores the energy and then hops over obstacles when enough has 
been stored?
    Dr. Lewis. On the Moon? I don't know, ultimately. I don't 
think a lot of attention has been given to that. It is assumed, 
in a lot of scenarios that when you go back there, you use 
solar energy. After that, it gets real fuzzy. Sometimes, you 
see big arrays that are laid out that are many football fields 
across and providing megawatts to the lunar base, but 
ultimately, you have got a problem, that on the Moon, you have 
got 14 days of night. And, in addition, 14 days of daylight, 
because it rotates once on its axis every 28 days. So you have 
to have something to get you through the night anyway. If you 
decide to go nuclear, then that provides the power that you 
would need day and night. So you don't have to worry about 
solar. If you don't go nuclear, you have to think of something 
else, either sub-battery, which could be very massive, or 
rechargeable fuel cells, which is the most likely possibility. 
The other possibility is that if you have established your 
outpost near the poles, there are areas near the poles that are 
in near constant sunlight because the Moon spins perpendicular 
on its axis and the Sun is always at grazing incidence. And in 
those areas, you could collect solar energy constantly. The 
problem you have got in all these things is that solar energy 
is not something that lends itself to powering mobile things. 
It is very massive. It has a very high kilogram per kilowatt 
cost. So, if you want to have mobile things that go around to 
different places to do jobs, you need to have a more 
concentrated energy source.

                     Gravity Gradient Stabilization

    Mr. Bartlett. Is there any gravity gradient stabilization 
on the Moon?
    Dr. Lewis. On the Moon? The gravity of the Moon----
    Mr. Bartlett. Gravity gradient stabilization.
    Dr. Lewis. Well, if you were--that would be relevant only 
if you were in orbit around the Moon. If you were on the 
surface of the Moon, then the gravity gradient is what holds 
you on the Moon, so----
    Mr. Bartlett. Relative to Earth, is there gravity gradient 
stabilization?
    Dr. Lewis. It is possible for an object in low lunar orbit 
to be gravity gradient stabilized, but the----
    Mr. Bartlett. But the Moon is not?
    Dr. Lewis. Well, as a matter of fact, the fact that the 
Moon always keeps one side toward Earth is an example of 
gravity gradient stabilization.
    Mr. Bartlett. Okay. Which means that it will be light and 
dark because its gravity gradient stabilized to the Earth. 
Okay.
    Dr. Lewis. It means that one side will always face the 
Earth.
    Mr. Bartlett. Because its gravity gradient stabilized to 
the Earth, yes.
    Dr. Lewis. That is right. Mr. Bartlett?
    Mr. Bartlett. Yes?

                         Mobile Solar Stores II

    Dr. Lewis. Your question regarding the hoppers on the Moon, 
if I may have put a frivolous noun on it, has actually been 
studied in the case of Mars, where devices that use either 
nuclear or solar power, extract carbon dioxide from the 
atmosphere of Mars, separate it into oxygen and carbon monoxide 
and liquefy them, and then use them as rocket propellants to 
hop around the surface. So you can hop from one location to 
another until your tanks are empty, and then sit there and 
absorb sunlight and refill the tanks with oxygen and carbon 
monoxide.
    Mr. Bartlett. Well, couldn't one imagine a mechanical kind 
of thing. Gravity on the Moon is so low that, you know, you 
could hop quite a distance.
    Dr. Lewis. You could indeed, but you would have no control 
over your landing. You would have to know exactly where you are 
going to come down. You do not get an opportunity to think 
twice about landing on that sharp rock over there.
    Chairman Rohrabacher. Might hop right into the briar patch. 
As just a, you know, I am waiting for some learned 
environmentalist to step forward and tell us that they would be 
afraid to have all this mining going on on the Moon because it 
might affect our tides, but I will--believe me. That will 
happen. That will happen. It might happen 20 years from now, 
but we will note--you will note----
    Mr. Lampson. What would that do to surfing?

                         Moon as a Way Station

    Chairman Rohrabacher. That is the point, right. Anyway, as 
I was just actually--was at a discussion with some people along 
the coast about desalinization, and one lady got up--a learned 
person got up to talk about, well, how do we know, you know, 
what effect desalinating the water so we can use it would have 
on the ocean, and, anyway, we won't go back to that. Mr. 
Lewis--or Dr. Lewis, you stated that it makes no sense 
whatsoever to use the Moon as a way station, and that is sort 
of the concept a lot of people have in mind. They have in mind 
that we go to the Moon and then--so they are a little hesitant 
about whether we are going to learn things there, or whether we 
use that as a jumping off point, and we have heard those 
phrases. But let me ask you this. We go the Moon, and we land 
on the Moon, what about if we find a way to refuel the system 
on the Moon?
    Dr. Lewis. Let us assume that we have done that.
    Chairman Rohrabacher. All right.
    Dr. Lewis. That we can manufacture cheap liquid oxygen on 
the surface of the Moon.
    Chairman Rohrabacher. Or whatever. Some kind of fuel----
    Dr. Lewis. Okay.
    Chairman Rohrabacher.--that we are going to get in that 
vessel that can----
    Dr. Lewis. Okay.
    Chairman Rohrabacher.--now go on to Mars.
    Dr. Lewis. Here is an expedition sitting at the space 
station in low orbit around the Earth and they take off. They 
have a choice. They can either go to, for example, establish an 
orbit around the Moon and then wait for oxygen to be brought up 
to them from the lunar surface to refuel their tanks to prepare 
them for travelling on to Mars, or they can depart directly to 
Mars. The amazing truth is that it requires almost identical 
amounts of fuel at the space station to do those two things. In 
other words, if you go to the refueling base, it costs you 
extra fuel that you could have used to go to Mars instead.
    Chairman Rohrabacher. But, what I mean--well, if you could 
manufacture the fuel on the Moon itself.
    Dr. Lewis. That is right.
    Chairman Rohrabacher. Then you don't have to haul it up in 
order to refuel.
    Dr. Lewis. You have to haul it up to where your expedition 
is in orbit around the Moon.
    Chairman Rohrabacher. Oh, in orbit around the Moon, I get 
it.
    Dr. Lewis. If you bring your expedition down to the surface 
of the Moon, you are deep into the red ink in the ledger, 
because the cost of landing and taking off completely erases 
any advantage you might have hoped to get.
    Chairman Rohrabacher. Dr. Spudis, do you have something to 
jump in on that point?
    Dr. Spudis. Well, I think it is--I think there is a little 
confusion. The Moon's enabling role in Mars exploration is not 
to build a Cape Canaveral on the Moon and to launch the mission 
from there. It is to act as a logistics depot, and there have 
been a variety of mission scenarios looked at by the 
exploration people at Johnson Space Center where they stage all 
missions from Earth Moon L1, that is the point that is halfway 
between--well, it is not halfway, it is where the gravity 
points balance, and it co-orbits with the Moon, so it always 
hangs in space, it is always between Earth and Moon. And it 
turns out that if you build a staging node at that L1 location, 
a lot of things become very easy. You could have global access 
to the Moon with no penalty for going to different latitudes. 
You can stage returns to the Earth, so you can return exactly 
when the orbital plane, for example, of the space station, if 
you wanted to go to the space station, is in alignment, and it 
is a good place to stage these missions. What they did was they 
looked at the production of lunar rocket fuel, hydrogen and 
oxygen, and worked that into a scenario for Mars missions, and 
it turned out that if you did it for one Mars mission, it 
wasn't worth it, but if you continually went to Mars--
basically, if you made a Mars launch at every opportunity to 
send a mission there, that lunar produced fuel actually ended 
up saving you a great deal of money because you were not 
lifting that fuel up from the gravity well of the Earth.
    Chairman Rohrabacher. That may well be too far out----
    Dr. Spudis. It may be.
    Chairman Rohrabacher.--for people to think about.
    Dr. Spudis. But the real significance for producing fuel on 
the Moon is not for the Mars trip, it is to have routine access 
to cislunar space, because right now, that is where all of our 
assets are. All of our communications satellites, all of our 
GPS resource satellites, all of our national security 
satellites, are in the volume of space between Earth and Moon, 
and right now, we have no way to access those. We launch them 
and they are gone. If one fails, we write it off and launch 
another.

              The Value of Telescopes on the Lunar Surface

    Chairman Rohrabacher. Okay. One other point of contention 
that we had here was--two other points, and then I have got one 
question, but I will let colleagues go before my last question. 
There was some disagreement over the value of a telescope on 
the Moon, and I noticed that Dr. Lester and Spudis disagree. 
Maybe you can--you have each heard each other's testimony. Dr. 
Lester or Dr. Spudis, what is--who is right? Somebody is wrong.
    Dr. Spudis. I am right. No, I think it is a matter--I don't 
think we disagree as much as it would appear. The question is 
not, all things considered, where are you going to build the 
biggest telescope we can, because nobody is asking the 
astronomers that question. The question is if you are on the 
Moon and you have some capability, does it make any sense to do 
any astronomy from there, and I think the answer to that 
question is yes. It may not be the ideal location, but it is a 
location where significant things can be done. In some cases, 
unique things. I think the dust issue is a completely solvable 
one. That was looked at 12 years ago when we did the SEI 
studies, and we have a lot of ways to mitigate that problem.
    Chairman Rohrabacher. So going to the Moon to do astronomy 
is not a good excuse to do astronomy. Once you are there, might 
as well do it. You think that is----
    Dr. Lester. I think it is a question of bang for the buck. 
If you want to spend a certain amount of money and you want to 
get the most science out of it astronomically, putting a 
telescope on the Moon is not necessarily the smartest thing to 
do. Now, if somebody was going to give me a billion dollars and 
say, Dan Lester, go put a telescope--would you want to go put a 
telescope on the Moon, I would say, well, as long as that 
billion dollars isn't being taken away----
    Chairman Rohrabacher. I see.
    Dr. Lester.--from doing astronomy somewhere else, I guess 
so. You could give me a billion dollars to put a telescope in 
Central Park and I would go put a telescope there and I could 
get some astronomy done from Central Park, but I don't think it 
is----

                  Amount of Water on the Lunar Surface

    Chairman Rohrabacher. All right. I got your point. Now, 
there was one other disagreement with Dr. Spudis, this time by 
Dr. Campbell, over exactly how much water there is on the Moon, 
and it seems we have a disagreement here. Again, who is right? 
Who is wrong?
    Dr. Campbell. Well, of course, as Paul would obviously say, 
you know we would jointly say, you know, I am. But I am not 
sure that--the issue is not how much water there is on the 
Moon. The real issue--because all that hydrogen could be 
combined with the oxygen and form water if you are willing to 
mine 10,000 tons of lunar regolith to give you one ton of 
hydrogen, you could then produce more. It is a very expensive 
way to produce it. What you need is to have sources of water 
that are in sufficient concentration that it is worthwhile and 
adequately located--that it is worthwhile to actually make use 
of them. So, you need reasonable concentrations of water. That 
seems to occur potentially in the shadows craters--bottoms of 
these shadows craters at the lunar poles, 1.5 percent, but if 
that turns out to be a number or potentially higher area. If we 
have better resolution and can look at smaller areas, we may 
locate regions with high concentration. Possibly radar systems 
may locate areas where we have thick deposits that are 
currently not visible from the--not visible from the Earth or 
the Clementine radar mission. And, so, what we need to find is, 
say, is not, you know, how much water, but we need to find 
water in real usable concentrations. And the other issue, of 
course, is accessibility, as Dr. Lewis has pointed out, that 
these are likely to be in the bottoms of large impact craters. 
And I am talking about large--anything 10 kilometers or 
larger--accessibility to the bottom of those craters where the 
temperature is 100 degrees Kelvin or lower, that are 
extremely--they are deep. We are talking about craters that are 
6,000 feet deep or more, and so--and with very steep slopes, 
and so this is--these are not easy locations to actually look 
for water, and so we have to be realistic about the 
accessibility issue.
    Chairman Rohrabacher. Now, what----
    Dr. Campbell. Now, hopefully, maybe, we might find it in 
somewhat more accessible areas, but----
    Chairman Rohrabacher. But over the years, I remember in the 
beginning the only reason we discovered that there is water on 
the Moon is the fact that you had a bunch of rebels who were 
willing to basically not listen to the skeptics and force the 
issue. I mean, this first--the first missions that we had there 
were just--were not really the established--the space 
establishment was actually against this, and then when there 
was some indication that water existed, then everybody wanted 
to get on board. Well, Mr. Spudis, do you want to say 
something?
    Dr. Spudis. Yeah. First, I would like to comment on the 
previous question about the disagreement. It is actually what 
he and I believe is irrelevant. The real issue is we don't know 
the answer.
    Chairman Rohrabacher. Yes.
    Dr. Spudis. And what we really need to do is to fly a 
spacecraft that will get us the answer.
    Chairman Rohrabacher. All right.
    Dr. Spudis. And in NASA's plan, that is what they are 
doing.
    Chairman Rohrabacher. But let us resist consensus. If I can 
say there is a consensus that everybody seems to agree that the 
most important factor to determine that we need to put very 
high on our priority list in going back is determining how much 
water and how accessible it is on the Moon.
    Dr. Spudis. But also, what condition it is found in. Now, 
it is in low concentration, but remember, we are looking at low 
resolution, and in that case, you have a problem. You don't 
know if a low resolution signal from a big--low signal from a 
big target, does that mean it is all uniformly distributed 
throughout that target? In which case, it is very hard to 
recover it. Or, does it mean that it is lumpy like a chocolate 
chip cookie where there is ice bits here and there that are in 
concentrated form. If we have this mission, we can determine 
that answer. As far as the terrain and accessibility issues go, 
the Moon is actually--this doesn't seem--this is 
counterintuitive, but the Moon is actually a very smooth 
object. Craters that look very steep at low sun angle actually 
have accessible slopes. The crater at the center right near the 
south pole, Shackleton, is 23 kilometers across. It looks like 
the rim is a knife edge, and it looks like it slopes down at a 
big cliff. In actual fact, the rim--the slope up to the rim is 
only about five percent and the slope from the rim crest down 
to the floor is about 15 percent. Both of those are traversable 
with rover-type equipment, so it is not as hazardous as it 
looks. And secondly, in space, it is very easy to keep warm 
when it is cool. It is very energy intensive to keep cool, so I 
anticipate that operations in the dark will be challenging, but 
I don't anticipate that they will be impossible. But again, 
that is another thing that we have to go and actually learn.
    Chairman Rohrabacher. Mr. Lampson.

          Additional Data Needed Before a Human Return Mission

    Mr. Lampson. Given the data acquired by the Apollo lunar 
landing program and its robotic precursors, as well as the data 
obtained by the subsequent Clementine and Lunar Prospector 
spacecraft, what additional information, if any, will be needed 
by NASA before NASA can send humans back?
    Dr. Spudis. Well, the missions that I think several of us 
have outlined in our testimony are the obvious first step, is a 
reconnaissance from a polar orbit to map the deposits in the 
environment of the poles. Then, you want to land at those 
deposits and sample them and make some in situ measurements to 
see what they are really made of and what their physical state 
is. And, then, finally, you want to maybe land some 
demonstration experiments where you might process that stuff to 
see if it is possible, and those things should precede human 
return. Now, they don't have to. I mean, you could send people 
right now with what we know. It would be a bit risky, but we 
could do that.

             Canceled Apollo Missions as Future Expeditions

    Mr. Lampson. Anybody else want to make a comment? If not, 
the last few Apollo missions which were cancelled by President 
Nixon in the '70s were intended to explore scientifically 
interesting locations on the Moon. Would it be appropriate to 
use the plans for those mission as the basis for the next human 
expeditions to the Moon?
    Dr. Swindle. Probably not, in my opinion, because----
    Mr. Lampson. Why not?
    Dr. Swindle.--what is important now is to learn about some 
regions that we weren't able to go to at that time, and so the 
Apollo missions were rather restricted, and I believe those 
were also in the same general geographic area, so we would want 
to go someplace different. And, so, I suspect that those would 
not be the appropriate mission plans.
    Dr. Spudis. You can still get valuable science from almost 
any site you want to go to on the Moon, even returning to an 
Apollo site, because there are questions we would ask now, 
going to an Apollo site, that we weren't smart enough to ask 30 
years ago. But, I agree with Tim that basically you want to try 
to sample terrains we haven't been to, like the far side or the 
limb region, the Orientale Basin, and areas near the poles 
because we have never been there and we don't know what is 
there.

                       International Cooperation

    Mr. Lampson. Most of the discussion of the President's 
program is focused on what NASA will do, but the President did 
clearly invite participation by other nations. We know that 
Europe, Japan, China and India have robotic lunar programs--
probes planned. To what extent is the lunar--is the robotic 
exploration of the Moon is being coordinated internationally? 
What is the mechanism for that coordination? Are we going to 
share data? What are your thoughts about what we do with that?
    Dr. Spudis. It is interesting you ask that because I 
haven't observed any coordination. There is a group called 
ILEWG, which is the International Lunar Exploration Working 
Group, and they allegedly coordinate missions between different 
countries, but if you look at the manifests for these missions 
that are going to the Moon, a lot of them are carrying the same 
instruments. So, if that is coordination, they are not doing a 
very good job. It appears that when it comes to lunar missions, 
a lot of these countries want to fly their own experiments, and 
regardless of whether the data set exists or not, they tend to 
go ahead and fly the same instruments again and again.
    Mr. Lampson. Dr. Lewis.
    Dr. Lewis. It is a rather interesting, but I might be able 
to answer your questions two years from now. In the summer next 
year, I am taking a leave of absence for one year to go to 
Tsinghua University in Beijing where I will be a visiting 
professor and teach space science there, the first planetary 
science course ever taught in China. The reason for going to 
that particular location is that Tsinghua is the home of most 
of the engineers who are responsible for the Chinese space 
program. It is the leading science and technology university in 
China, and I hope to return, not just older, but considerably 
wiser after that experience.
    Mr. Lampson. Good luck with that. That sounds like it would 
be a fascinating one. Any recommendations that you have to 
try--any of you, to try and further any kind of coordination? 
Well, what you are doing is wonderful. Hopefully that will lead 
to a greater mutual participation. Dr. Campbell, were you going 
to say something?
    Dr. Campbell. I wasn't actually, but----
    Mr. Lampson. Oh.
    Dr. Campbell.--the answer to that is that--while these 
personal efforts are great, but I think these need to be done 
on government to government bases and it would be nice if they 
were to coordinate and to put together other countries.
    Mr. Lampson. If we develop a plan--should we plan for a 
comprehensive sized program on the Moon, or maybe break it into 
specialties somehow or other, specializing in certain 
activities, and maybe let certain of our--certain cooperatives 
do one thing and us do another?
    Dr. Spudis. Do you mean sort of divide the responsibility--
--
    Mr. Lampson. Yeah.
    Dr. Spudis.--for things to do on the Moon among different 
countries?
    Mr. Lampson. Yes.
    Dr. Spudis. That is one model. I don't know if you would 
have any particular advantage to that. I think, in part, it 
depends on what the national agenda is of the various countries 
that go to the Moon. Some are going for differing reasons, and 
I suspect that, if the past is any guide with our country, we 
will try to cram as much as we can onto what we can do, and we 
will try to cover as many disciplines as we can.
    Mr. Lampson. For me, with the European Smart One probe----
    Dr. Spudis. Yes?
    Mr. Lampson. It is supposed to reach the Moon in 2005. It 
is designed to look for water ice to--and prepare detailed 
mineral maps. What role does the United States in that? Will we 
have access to the data that is gleaned from it--from their 
studies?
    Dr. Spudis. My understanding is they plan to share the 
data, but I am not aware of any Americans that are directly 
involved in the mission. It is strictly a European mission, 
and--but I--they certainly--I have been talking to scientists 
involved with that, and they are very anxious to share the data 
with us.
    Mr. Lampson. If we learn something that would be helpful, 
is it possible that we could eliminate some of our own probes 
or particular missions, perhaps?
    Dr. Spudis. I don't think so because the instruments they 
are carrying--and Smart One is a technology mission. It is 
being--it is electric propulsion. It is going to go in a very 
elliptical orbit. It is not an ideal mapping orbit. Parts of 
the Moon will be photographed at high resolution, other parts 
will be not covered at all, and one of the goals of the 
missions we have described in our testimony is that we want to 
systematically map the Moon to assess things like the resource 
capability and the science issues. And Smart will contribute to 
that, but it is not a replacement for what we want to do.
    Mr. Lampson. Okay. Mr. Chairman, by the clock, I am out of 
time.
    Chairman Rohrabacher. All right. We have Mr. Bartlett.
    Mr. Bartlett. Thank you. I understand that both India and 
China are planning to go the Moon before we go back. Are we 
collaborating with them?
    Dr. Spudis. Well, the Indians have made available a 10-
kilogram payload space on their lunar mission Chandrayaan-1.
    Mr. Bartlett. For us?
    Dr. Spudis. For anyone in the world.
    Mr. Bartlett. Anybody, okay.
    Dr. Spudis. And they have received a bunch of proposals. In 
fact, I submitted one myself.
    Mr. Bartlett. Okay. Do they share--plan to share the 
information they gather with the world, or is it going to be 
proprietary to their country? Have they told us?
    Dr. Spudis. The Indians plan to share.
    Mr. Bartlett. They plan to share?
    Dr. Spudis. Yes.
    Mr. Bartlett. We don't know about the Chinese?
    Dr. Spudis. We don't know.
    Mr. Bartlett. Okay. I am old enough to have been involved 
in the space program since its inception. I remember at 
Pensacola, Florida, I was involved in what I think was the 
first sub-orbital primate flight, Monkey Able and Monkey Baker. 
Monkey Able, an Army monkey that they gave a general anesthetic 
to to take the electrodes out and he died. We didn't do that 
with Monkey Baker, and she was a little squirrel monkey which 
lived on for a long time at Pensacola, Florida. And then I 
went----
    Chairman Rohrabacher. Later elected to Congress, I might 
add.
    Mr. Bartlett. Yeah. Then I went to the Applied Physics Lab, 
and that was before we landed on the Moon. And there was a big 
question about what the lunar surface would be like, and one of 
the suspicions was that it might be a dust ball and that you 
stepped off the spacecraft, the spacecraft itself might just 
sink down over its ears in the lunar dust. So we developed a 
lunar spacesuit which is really a big sphere about eight feet 
across that had, on one side of it, a little dome for your head 
and spacesuit arms and legs so that you could use it like a 
spacesuit, and the Moon is a very low gravity, so you could 
easily carry that on your back. And if it was a dust ball, you 
could simply walk inside of it, like a big ball--as a matter of 
fact, we demonstrated that it really would do that by walking 
on water for the first time in 2000 years. The little pond 
there at APL, if you are familiar with that.
    Dr. Lewis. Very well.

     Our Knowledge of the Lunar Surface Regarding Vehicles on Mars

    Mr. Bartlett. We walked down the slope and out on the water 
in this lunar, I guess, it would have worked no matter what the 
surface of the Moon was like. Fortunately, the powder was 
packed and we didn't need that. My question is do we know 
enough about the surface of the Moon and Mars to know if they 
are sufficiently similar so that experience gained on the Moon 
will help us in designing vehicles to get around on Mars?
    Dr. Lewis. We know a considerable amount about both 
surfaces, and they are in many ways quite different from each 
other. There would be no difficulty at all in designing a rover 
that can run around on Mars. You just--you know, we run them.
    Mr. Bartlett. And we have--yeah--in one area limited, that 
is correct.
    Dr. Lewis. Yeah. There is some difficulty involved in 
having a truly autonomous rover that has good enough sensors 
and smart enough little brain to know how to avoid obstacles 
and not kill itself. If you are aware of the recent attempt to 
race fully automated and autonomous vehicles across the Mojave 
Desert, you probably will understand that there is--the art is 
yet imperfect. It would be very valuable to have a man in the 
loop. If you are running rover around on the Moon, it would be 
extremely useful to have a--what, a 12-year old with a joystick 
sitting there in a nearby dome actually monitoring its 
television transmissions and running it. Human intelligence has 
many functions in exploration, and that is one of them. But it 
is not an uncertainty in the nature of the bearing surface, but 
simply an uncertainty about where the individual sharp rocks 
are.
    Mr. Bartlett. Both of them have a bearing surface that we 
can get around on.
    Dr. Lewis. Both of them definitely have a bearing surface.

              Percent of the Moon That Has Constant Light

    Mr. Bartlett. What percent of the Moon has constant 
sunlight?
    Dr. Spudis. An extremely small amount. It is just very tiny 
little patches that are near the pole. And, in fact, we don't 
actually know if they are constant sunlight because we have not 
observed them through a seasonal cycle. But, Clementine 
observed the North pole in the southern winter and we found 
three spots that are in sunlight 100 percent of the time. It 
observed the southern hemisphere through southern summer-or 
southern winter, and we only found--we found three places that 
are illuminated for greater than 75 percent of the lunar day. 
There is no permanent sunlight at the South pole. We don't know 
if that is true at the North pole.
    Mr. Bartlett. Wouldn't there be big advantages in making 
your first station there where there was perpetual sunlight?
    Dr. Spudis. I believe so. In fact, I have advocated that.
    Mr. Bartlett. Even though it is a very small area. Dr. 
Lewis.
    Dr. Lewis. If you were in such a location, you would be on 
top of a crater rim on a point of high providence, and the 
terrain around you would mostly be in darkness, some of it in 
perpetual darkness. These are areas that are very difficult. 
Not only are they essentially unmapped from Earth, but they are 
very difficult to map from orbit because of the darkness 
problem, so you would be limited in the--there would have to be 
some other attraction to be there. The energy storage problem 
on the Moon, as Dr. Spudis mentioned earlier, is a very serious 
one. It is true that such a location at the poles solves the 
energy storage problem, but it also introduces the problem that 
you may not be where you want to be on the Moon for other 
reasons, and that has to be looked at carefully and 
synoptically.
    Mr. Bartlett. But mapping the lunar surface would tell us 
more about this?
    Dr. Lewis. That depends on how you map it because you can't 
map permanently shadowed crater bottoms optically.
    Dr. Spudis. Well, you can with imaging radar.
    Mr. Bartlett. Can we not with radar?
    Dr. Spudis. Yes.
    Mr. Bartlett. Yeah, we have to be able to. Yeah. Not with 
optical, certainly, but with radar we have to be able to map 
and know right precisely what is there. Yes. Thank you very 
much.
    Chairman Rohrabacher. One last question.
    Dr. Campbell. I want to make--oh.
    Chairman Rohrabacher. Go right ahead.
    Dr. Campbell. Thank you. Can I make a comment that----
    Chairman Rohrabacher. Oh, yes.
    Dr. Campbell.--to your walking around inside your plastic 
balloon, that Professor Thomas Gold at Cornell is a very great 
and inventive scientist, but this was--he was responsible for 
the suggestion that the Moon--you may just sink into the Moon 
if you step on the surface, and over time has caused 
considerable discussion of that issue at the time of the Apollo 
landings. And, I guess he is probably happy he is--he is 
probably sorry that he has put you to that trouble.
    Mr. Bartlett. But this was OART that sponsored this, and 
Dr. Walt Jones. They would come over--Captain Walter Jones come 
over from the Navy after his retirement to chair the--or head 
the OART. Does it still exist, OART?
    Dr. Spudis. I don't know. It might have been subsumed into 
another organization.
    Mr. Bartlett. Okay. Thank you very much.

                         Role of Private Sector

    Chairman Rohrabacher. One last question, and perhaps what I 
will do is ask any of you who have a vision of the private 
sector playing a role on the Moon after, or even during, the 
initial phases of our return to the Moon, if you could write me 
a one-pager on it and just give me your thoughts of what the 
private sector could do, how you could see that, what you could 
see them doing, and I will make sure that your thoughts and 
your vision on this are put in as part of this record of this 
hearing. And with that said, I would like to thank the 
witnesses.
    [The information referred to follows:]
                       Response by Paul D. Spudis

The role of the private sector in lunar development

    Ultimately, I believe that lunar resources will be almost 
exclusively developed by the private sector. At the present time, 
however, there are significant barriers to involvement by the private 
sector. These barriers fall into three principal categories: fiscal, 
technological, and legal.
    The private sector possesses neither the amounts of capital needed 
nor the inclination to significantly invest in lunar resource 
processing or development. This is largely because payoff on investment 
is quite distant, at least on the order of a decade, and possibly 
longer. The emplacement of significant capability on the lunar surface 
requires not only investment in machines and equipment to conduct the 
processing, but also a significant transportation cost. It takes 
roughly 15 lbs. in low-Earth orbit to put one pound on the lunar 
surface; at commercial launch costs exceeding several thousands of 
dollars per pound, initial investment involves not millions, but 
hundreds of millions of dollars.
    The technical barriers are equally formidable. Although we know a 
great deal about the polar deposits of the Moon in principle, the 
specific details of deposit purity, thickness, physical properties, and 
composition are all completely unknown. Acquiring this knowledge is an 
important goal of NASA's robotic mission set, but prior to these 
flights, much about the lunar ice remains conjectural. Even if the 
properties of these deposits were known, we have no experience 
extracting and processing such material. The acquisition of such 
knowledge and experience should be a major programmatic goal of NASA's 
lunar program.
    Finally, legal problems will severely impact any significant 
private sector involvement for the near future. Specifically, the 
current legal regime of lunar resources is very unclear. I believe that 
private property rights on the Moon do exist and are not precluded by 
the U.N. Outer Space Treaty of 1967 (to which we are signatories), but 
legal opinions differ. Congress should consider addressing this issue 
at a very early stage in the initiative; a law guaranteeing private 
property rights on the Moon (at least as recognized by the United 
States government) would go a long way towards removing the current 
ambiguity in the law.
    I believe that the best way to encourage private sector investment 
in lunar development is to phase it in gradually, as the NASA 
exploration initiative gathers the necessary strategic scientific and 
engineering information and develops the requisite technology. Early 
involvement by the private sector could involve government incentive 
schemes (e.g., tax breaks, prizes) or data purchase (e.g., NASA would 
pay a set amount for a given piece or set of data and information). As 
the initiative proceeds, activities that push back the envelope of 
technology or engineering state-of-the-art can be privatized. 
Government would likely be an early customer of lunar products, but 
commercial activities would soon follow, particularly in the production 
of propellant from lunar resources.

                Space Exploration and National Security

    Mr. Lampson. Well, before you go, could I just ask----
    Chairman Rohrabacher. Mr. Lampson, go right ahead.
    Mr. Lampson.--one thing that is sort of in passing of Dr. 
Spudis. You had made some comments in your testimony about 
protection of national strategic assets. Is this some of the 
discussion that is going on with the Aldridge Commission? Is 
there--can you enlighten us?
    Dr. Spudis. I am not going to discuss any Commission 
activity. All of my opinions that I presented today are my own.
    Mr. Lampson. Is--has there been any discussion at any place 
about that? I am a little interested in knowing if there is 
going to be a greater involvement in our space exploration 
effort more from the aspect of defense than from civil science. 
I am curious about that.
    Dr. Spudis. There is a lot of discussion going on. I don't 
know if there are any official discussions going on. There was 
a talk given here in D.C. a few months ago by James Oberg who 
has written a book about space power theories, sort of the 
Mahan of the 21st Century, and he is basically arguing--talking 
about American space control, the idea of us being able to 
protect and control our assets in space. I am for pushing it 
from a slightly different point of view. I am not really 
looking at the defense angle. I am saying that if you have the 
capability to routinely travel throughout this volume of space, 
that has to have implications on everything you do in that 
volume of space, and that includes national security 
activities, and it includes all of our commercial space 
activities as well.
    Mr. Lampson. Thank you.
    Chairman Rohrabacher. Do you have something to say about 
that, Dr. Lewis?
    Dr. Lewis. Yes. There is some relevant ancient history 
here, which is that back in the 1980s, there was a summer study 
on Defense uses of space resources. It was instigated by, 
actually, me knocking on Hans Marx's door when he was Secretary 
of the Air Force, I think, and selling him the idea of the--the 
study was done, I believe, in the summer of 1983 at the 
California Space Institute, and the proceedings of that study 
are still available, certainly not up-to-date, but it shows 
that Defense Department has thought about these matters.
    Chairman Rohrabacher. Now, let me leave you with one 
admonishment, Dr. Lewis. You are on the way to China.
    Dr. Lewis. In a year.
    Chairman Rohrabacher. In a year.
    Dr. Lewis. Yes.
    Chairman Rohrabacher. I don't expect a major shift in 
political structure in China in that year, and one of--I mean, 
I would think that it would be a catastrophe for us to go to 
the Moon, and then when we get there, find, you know, 
chopsticks laying all over the place or something, evidence 
that our Chinese friends have beat us to it. But I think what 
is more important here is that I believe in cooperation--space 
cooperation, but I believe in space cooperation between free 
people, and I think that the worst thing that happened to us 
was during the 1990s when our companies went over to China and 
transferred know-how and technology that has permitted, now, 
the Chinese to come to this point where they may well be doing 
some things in space that we are not capable of doing right 
now, and no matter how far along they are, I would just 
admonish the scientific community that when we are dealing with 
countries that are not free countries, it, sometimes, is not 
beneficial for us to provide them the knowledge and the 
technology they need to move ahead as fast as the Chinese, for 
example, have moved ahead.
    Dr. Lewis. I agree completely, and there will be no 
technology transfer whatsoever. There will simply be an attempt 
to inspire them in the vision of a cooperative exploration of 
the solar system.
    Chairman Rohrabacher. And let us hope that some day I don't 
have to do that, because perhaps someday the Chinese people 
will have a free country, and I am a great admirer of the 
people themselves. And their government, of course, is a big 
problem. But, for example, the Chinese--did you ever hear of 
the South Pointing Chariot? They call it the South Pointing 
Chariot. The Chinese developed----
    Dr. Lewis. Are you talking about a magnetic compass or----
    Chairman Rohrabacher. Well, everyone thought it was a 
magnetic compass. But, I worked in the White House as a 
speechwriter for President Reagan. President Reagan was going 
to China, a very famous trip to China, I might add, and one of 
the issues that I looked at was the South Pointing Chariot, 
because I was writing some of his speeches, and I wanted him to 
talk about some of the things the Chinese had accomplished over 
the centuries. And, just for the record, what I found out is 
what most historians believe was the development of a compass 
by the Chinese, because they had a device which they put on top 
of a wagon which would always point to the South. It was a 
statue with its arm out like this, so they would not be lost in 
the Gobi Desert and the far reaches of the desert. And what I 
found is it was not a compass. And I did research on it, and 
found out that it instead dealt with the development of a 
differential gear in the wagon itself, which kept, no matter 
which way the wagon turned, the statue stayed the same place. 
There was not a differential gear developed in western 
societies until about 150 years ago. And, so, while the compass 
itself would have been quite a discovery, the idea that Chinese 
engineers, back all those centuries ago, were able to conceive 
of, and actually implement, a differential gear in a piece of 
technology is quite astounding.
    Dr. Lewis. There is no shortage of intelligence there.
    Chairman Rohrabacher. That is for sure. Well, thank you all 
very much. There is no shortage of intelligence in this panel, 
and we really appreciate all of you witnesses testifying today, 
and I will look forward to any input that you might have 
suggestions of what the private sector could possibly do, 
commercial as well as the foundations, education, business, 
whatever types of things you would think they could do. Please 
be advised that Subcommittee Members may request additional 
information. For the record, I would ask other Members, of 
course, who are going to submit written questions, to do so 
within one week of the date of this hearing. And that concludes 
this hearing, and I now say that we are----
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              

                   Answers to Post-Hearing Questions

Responses by Paul D. Spudis, Senior Staff Scientist, Johns Hopkins 
        University Applied Physics Laboratory; Visiting Scientist, 
        Lunar and Planetary Institute, Houston, Texas

Questions submitted by Chairman Dana Rohrabacher

Q1.  NASA's Office of Space Science is responsible for the lunar 
robotic portion of the Space Exploration Initiative. How would you 
recommend the office reach out to the science community to carry out 
this program? Is NASA using science advisory panels to select 
instrument proposals for upcoming missions?

A1. There are two considerations here. First, is a mechanism in place 
to assure that the correct measurements are being planned and made in 
the correct priority? Second, how should instruments be selected for 
the upcoming lunar robotic missions?
    In answer to the first question, the measurement requirements are 
being created through an ad hoc process, whereby a definition team, 
selected by Code S, sets up a list of measurement requirements that the 
LRO mission must obtain. This process created a requirements list that 
more-or-less meets the critical priorities, with the exception that a 
fairly heavy (20 kg) radiation experiment received a much higher 
priority than is actually warranted (the radiation environment of the 
Moon is already well characterized and such measurements do not 
significantly impact the design of possible architectures for human 
lunar missions). There should be a formal process to correct such 
errors, but I believe in this case, the issue will be resolved 
correctly.
    The process that NASA currently uses to select mission instruments, 
i.e., the competitive AO process, is as good as any, provided that 
critical measurement needs are addressed in a timely manner. In this 
process, NASA will assemble ad hoc panels of interested, but not 
involved, scientists to judge the merits of proposed investigations. In 
general, this process works well, except for certain unique or very 
high-technology instruments or measurement capabilities that may only 
be available through non-competitive channels. One important 
consideration is the systems engineering/requirements process used in 
these robotic missions, since the current Office of Space Science-
National Academy of Sciences driven strategy tends to produce ``one 
off' solutions, not spiral development. This problem could be mitigated 
by having Code T manage the robotic lunar program from the start. 
Giving requirements to another legacy organization to implement can 
produce less than optimum results.

Q2.  The Space Exploration Initiative proposes establishing an extended 
human lunar mission. Based on your knowledge of the Moon's environment 
and resources, how difficult a task will it be to develop and sustain 
humans for a two-month period? For a stay of that duration, would it be 
practical to develop in situ resources to help sustain lunar 
astronauts? How about a six-month stay?

A2. Lunar stays for periods of two months can be easily accommodated 
without recourse to the use of local resources. However, since I 
believe that one of our primary goals in a human return to the Moon is 
to learn how to live off-planet, I would want to conduct some 
experiments with resource extraction before and during such a human 
mission. For example, one can imagine the landing of a small robotic 
plant designed to process the local regolith and extract both hydrogen 
and oxygen from the soil. This robot plant could operate continuously 
for several months, producing and storing this material. The products 
would then be available for use by the human crew upon their arrival on 
the Moon.
    For lunar stays of six months and more by people, I would want to 
incorporate local resources into my habitation architecture. At a 
minimum, I would want to use the local regolith as a radiation shield 
(because of both continuous cosmic ray exposure and the likelihood of a 
solar flare in that time period). Also, the production and use of lunar 
oxygen would both provide the air supply in the habitat and also permit 
fueling of the return vehicle and hydrogen and oxygen for fuel cell 
energy storage. I think one of the primary goals of a human return to 
the Moon is to learn the technical and operational difficulties of 
living off-planet and use of local resources should be made a primary 
mission goal. Energy storage will be a key issue. While nuclear energy 
is feasible for some applications it will be very expensive. If there 
are well lit areas at the poles, the use of locally produced water as 
an energy storage medium could greatly expand the capabilities and 
safety of the lunar operation. Also, nuclear energy is not well suited 
for mobile applications.

Questions submitted by Representative Nick Lampson

Q1.  Given the data acquired by the Apollo lunar landing program and 
its robotic precursors, as well as data obtained by the subsequent 
Clementine and Lunar Prospector spacecraft, what additional 
information, if any, will be needed before NASA can send humans back to 
the Moon by 2020?

A1. Primarily, we want to follow up on the Clementine and Lunar 
Prospector discoveries that suggest the poles of the Moon are important 
environments, with key deposits that will enable us to live and work on 
the Moon for extended periods. Thus, we first need reconnaissance from 
orbit to map the polar ice deposits, determine their thicknesses, 
extent, and purity, measure the temperatures, lighting conditions, and 
topography of the polar areas to determine the setting of the deposits, 
and improve the geodetic control of the Moon so that we can land 
precisely on it and navigate across its surface when we return. These 
knowledge requirements should be met by the proposed Lunar 
Reconnaissance Orbiter (LRO), currently planned for launch in 2008. 
Cooperation with an international mission could enable some enhancing 
measurements not possible with a single spacecraft.
    After successful completion of an LRO mission, a lander should be 
flown that will conduct detailed, surface measurements of the polar ice 
deposits; a surface rover would likely be required for this mission. We 
are specifically interested in knowing the composition and physical 
state of the polar deposits and the nature of the environments of the 
dark regions. Such a landed mission should be followed by a series of 
robotic landers that would conduct demonstration experiments, testing 
the processes and techniques of resource extraction. These small, 
robotic missions should be completed before return of people to the 
Moon so as to maximize the capability of the human outposts prior to 
their establishment.

Q2.  What will it take to definitively answer the question of how much 
water ice might be on the Moon? How much time is it likely to take to 
characterize the global availability of water on the lunar surface?

        <bullet>  How many remote-sensing missions will be necessary to 
        obtain this complete characterization?

        <bullet>  What will it take to map other lunar resources?

A2. The robotic mission series that I outline above should definitively 
resolve whether there is ice on the Moon, where it occurs and its 
physical state, the total quantities of ice, and its detailed chemical 
and isotopic make-up. This information is critical to make informed 
decisions about the kinds of processing to be undertaken to make the 
commodities that we need from the lunar surface (mostly water, air, and 
rocket fuel). Note that all this information is gathered by the first 
two robotic missions: one orbiter and one lander. We could use 
additional landers to go to different locations (for example, twin 
larder/rovers to explore both the north and south polar regions), but 
our fundamental questions should be answered after the successful 
flights of these two missions.
    Other lunar resources are either already well characterized (e.g., 
the mineralogical and chemical maps made by Clementine and Lunar 
Prospector) or will be mapped at higher resolution and greater 
precision by future lunar orbiters to be flown by other countries 
(e.g., Japan's SELENE mission). Depending on the results of our polar 
mission series, we may decide that it is important to explore 
robotically new areas in equatorial regions that may contain 
significant hydrogen and other volatile resources (e.g., regional 
deposits of volcanic ash, such as near Rima Bode); none of these types 
of deposits were studied during the Apollo program.

Q3.  Would any of the scientific research you have discussed require 
astronauts on the Moon as opposed to robotic orbiters, landers, rovers, 
or research stations? If so, which research and why? Does any of the 
scientific research or resource extraction you have discussed require a 
permanent human presence on the Moon? If so, how soon should that 
permanent human presence be established?

A3. Much scientific research on the Moon is possible with robotic 
missions, but to truly solve the sophisticated questions we are now 
asking, we need to have trained human explorers on the Moon and other 
planetary surfaces. These human explorers should work in tandem with 
robotic spacecraft to produce the best results. The specific example I 
cited in my testimony--the impact flux in the Earth-Moon system--can be 
addressed initially by robotic spacecraft taking grab samples from 
carefully selected surfaces. But to fully understand the richness and 
complexity of the lunar impact record, we need human experts in lunar 
geology, mapping units, making careful observations in the field, and 
selecting critical samples for laboratory analysis. In short, although 
we can address scientific questions using only robotic spacecraft, the 
full details of planetary history and evolution will yield themselves 
only to a combined campaign using the best capabilities of both 
machines and people.
    Resource extraction from the Moon will likely be done mostly by 
machines, but these machines will doubtless need constant human 
supervision, maintenance, and repair. The Apollo program is replete 
with examples where a swift kick from an astronaut was needed to get 
some complicated machine to work properly. We will likely require such 
kicks again and again in this new, difficult endeavor. I envision human 
presence growing simultaneously with the robotic presence; send 
machines first to do the initial processing, then send people within a 
few months to monitor, maintain, and augment the robotic installations. 
Humans could arrive for increasingly extended periods starting a few 
months after the initial surface infrastructure is established.

Q4.  Science by itself is not going to sustain the public's support for 
the long-term program contemplated in the President's plan. After all, 
the 1960s Apollo lunar landing program had developed some impressive 
science capabilities, and Apollo 17 carried the first scientist-by-
training (geologist Harrison Schmidt) to work on the Moon. 
Unfortunately, he was also the last. What is different enough about the 
ideas you are advocating here that will avoid the fate suffered by the 
Apollo program?

A4. The Apollo program was not about science, but about beating the 
Soviets to the Moon. After that goal had been accomplished, the 
political rationale for the program evaporated. Although excellent 
science was done on Apollo, it was ``retro-fitted'' onto an operational 
program and this fit was never completely comfortable. Apollo was a 
non-optimum tool for lunar exploration, even though superb exploration 
was done during the course of the missions (a tribute to the Apollo 
astronauts and scientists for accomplishing as much as they did!).
    Our return to the Moon is likewise not about science; it is about 
creating a new and sustainable capability to journey beyond low-Earth 
orbit. The key features of the new initiative to return to the Moon--
resource extraction, habitation, sustained presence--are all new; none 
of these activities were part of the Apollo program. If we can create 
new space-faring capability using lunar resources, we can access 
routinely all of cislunar space (the volume of space between Earth and 
Moon), where all of our current space-based assets reside. Such a 
capability would have enormous implications for our national security 
and economic health. In contrast to the Apollo program, which required 
large amounts of funding in short time periods to meet its decadal 
deadline imposed by the President, the new vision calls for a return to 
the Moon under existing space funding. We merely need to direct our 
research and spending toward a focused goal. Thus, the new space vision 
is both affordable and sustainable, in contrast to the ``we're at war--
costs be damned!'' mentality of Apollo.

                   Answers to Post-Hearing Questions

Responses by Daniel F. Lester, Research Scientist, McDonald 
        Observatory, University of Texas, Austin

Questions submitted by Chairman Dana Rohrabacher

Q1.  Please provide your views on what roles the private sector, 
including businesses and educational institutions, can contribute to 
the successful development and exploitation of lunar resources, and to 
the provision of services in support of NASA's lunar exploration 
program.

        <bullet>  Based on current capabilities, do you believe the 
        private sector has unique expertise needed by NASA to return to 
        the Moon?

        <bullet>  What are the biggest obstacles to private sector 
        participation in lunar exploration and resource exploitation 
        activities?

        <bullet>  Once NASA has established a long-term presence on the 
        Moon, are there markets you believe could be exploited by 
        private industry, and if so, what might they be?

A1. The effort to develop and exploit lunar resources, should they be 
found to be present in quantities that would make such exploitation 
cost effective, will take a long time. Even in the new Vision for Space 
Exploration, it may be several decades before such exploitation can be 
achieved. With this understanding, concern about sustainability of the 
Vision plan across many Congresses and many Presidential 
administrations is an important one, and such concern should be applied 
to the private sector as well. To the extent that our country is 
dedicated to making lunar development happen, reliance on the private 
sector to take a leadership role in doing it must be couched in a 
certain level of long-range business planning that we are not used to 
seeing. This mismatch of planning time scales is perhaps the biggest 
obstacle to private sector participation, if not leadership, in space 
exploration. If resources--in particular water for life support and 
propulsion--are to be found on the Moon where the low gravity makes 
supply of exploration missions energetically less costly, the private 
sector could be called upon by the space agency to bid on such supply 
efforts. Market forces could then decide whether such supply is better 
done from the surface of the Earth, where resources are cheap but 
transportation more costly, or from the Moon, where the reverse may be 
true. Such a market-based approach is feasible, however, only if the 
exploration plan is structured with regular short-term opportunities 
for success and return on investment. Without such short-term 
opportunities, we should not assume that the private sector will 
significantly invest in opportunities that are several decades out.
    The importance of educational institutions in the success of lunar 
development can be understood from this same perspective of 
sustainability. The students we train now are the science and 
technology leaders of the future. They carry with them into their 
careers the motivation and rationale for the exploration agenda. The 
exploration initiative as a whole will be driven by those who can think 
outside the box, accept risks, and be able to map the excitement about 
space travel onto national priorities and long-range business success. 
While students do not have the experience to carry out the detailed 
efforts required, they are better able to look beyond yearly balance 
sheets for corporate profits, and make these strategic leaps. Providing 
schools with mechanisms for a general sense of ownership in space 
travel is thus a wise national investment. Such mechanisms for 
ownership could be training partnerships with the space agency and 
space entrepreneurs, challenges and contests, and drawing clear lines 
between technology needs of all kinds and space efforts. It is clear to 
me, from a university environment, that space efforts are exciting to 
everyone, but those who would enter the workforce developing 
microprocessors, building bridges, and understanding the molecular 
processes in cells do not feel as linked to space exploration as those 
few who design rocket engines and space telescopes. That has to change. 
For younger students, it is less important to cultivate understanding 
of space technology and astrophysics than it is to cultivate an 
appreciation for exploration. We teach social studies and history. Why 
don't we teach exploration? Curriculum that highlights the achievements 
of explorers (whether they be scientists, ship captains, or inventors) 
and teaches exploration as a national priority builds in children the 
kind of national self-image that the Vision initiative will need 
several decades hence.
    Whether or not the private sector is called upon in this way, it is 
clear that development of the Moon must be clearly and conspicuously 
coupled to a real national need, such that we are willing to spend 
money to underwrite and bring enthusiasm to it. This national need 
could be driven by resource development (supply of exploration missions 
with, e.g., water, as above), return to Earth of lunar-unique resources 
(e.g., <SUP>3</SUP>He), or simply national pride and accomplishment. 
Our lunar program of thirty years ago was clearly based on the latter, 
and our success was astonishing. We now measure our ability as a nation 
to do hard things against our national effort to go to the Moon--one of 
the hardest things ever done by mankind. The can-do spirit that drives 
our nation has some grounding in this success, I believe.
    The importance of a long-term presence on the Moon within the new 
Vision for Space Exploration has yet to be established. As the plan 
states, the scope and types of human lunar missions and systems will be 
determined by their support to furthering science, developing and 
testing new approaches, and their applicability to supporting sustained 
human space exploration to Mars and other destinations. Should long-
term presence on the Moon become part of the new Vision plan, it can be 
assumed that it is because such presence brings value to the enterprise 
and as such offers obvious opportunities for private industry in the 
market-driven model proposed above. Private industry is much better 
suited to supply-and-demand roles than the Federal Government. In the 
same way that private industry is now used routinely by the Federal 
Government in a cost-conscious manner through competitive procurement 
to maintain and operate federal investments, whether for science 
management, resource development, or facility operations, so it can be 
on the Moon. To the extent that such efforts have to be consistent with 
a broader operations plan, as it is at military bases and agency 
centers on Earth, these efforts will likely have overall management by 
the space agency. Should lunar resource development or manufacturing 
eventually find markets that are external to federal investments (for 
example, if <SUP>3</SUP>He is mined on the Moon specifically for 
marketable power production on Earth) this model will need 
reevaluation.

Q2.  NASA's Office of Space Science is responsible for the lunar 
robotic portion of the Space Exploration Initiative. How would you 
recommend the office reach out to the science community to carry out 
this program? Is NASA using science advisory panels to select 
instrument proposals for upcoming missions?

A2. It is my understanding that the Office of Space Science is using 
advisory panels that include a strong scientific background to select 
instrument proposals for upcoming missions, such as the upcoming Lunar 
Reconnaissance Orbiter. The needs for the exploration initiative are 
fairly specific with regard to lunar exploration. They are in part 
scientific, and in part an assessment of resources available. Thus 
these panels necessarily include scientific, technological and 
engineering representation. The resources we find on the Moon may 
dictate very strongly the way we use the Moon in the future, and the 
role that it plays in the exploration agenda. As a result, it is of 
great strategic importance to understand what these resources are, and 
how easily they may be harvested and utilized. The Office of Space 
Science has historically done an excellent job in reaching out to the 
science community to develop missions, and I expect it to do the same 
for lunar exploration that is part of the Vision initiative.

Q3.  The Space Exploration Initiative proposes establishing an extended 
human lunar mission. Based on your knowledge of the Moon's environment 
and resources, how difficult a task will it be to develop and sustain 
humans for a two-month period? For a stay of that duration, would it be 
practical to develop in situ resources to help sustain lunar 
astronauts? How about a six-month stay?

A3. An extended lunar mission, as distinct from the long-term presence 
discussed above, will be a challenging effort that could bear strongly 
on our ability to carry out a mission on Mars. It should be clearly 
understood, however, what such an extended mission offers us beyond the 
considerable knowledge provided by our long-term human space experience 
on the International Space Station. Although I do not have background 
on human life support in space, I will venture to say that efforts to 
simply extrapolate our Apollo several-day experience to several months 
will likely involve a lot more than increased masses of consumables. 
Knowing what we know now about the lunar surface, while relying on in 
situ resources offers a real challenge, it does not offer a clear path 
to near-term success. Landing humans on the Moon requires technology 
that could also land supplies nearby with a separate vehicle, and I 
would predict that launch costs of a dedicated supply vehicle would be 
lower than development of reliable low-risk systems to, say, extract 
oxygen from lunar rocks or ice. Since the extended lunar mission is 
specifically envisioned as paving the way for Martian efforts, near-
term success is a priority. Also, it is by no means clear how 
exploitation of lunar resources can be used productively to teach us 
how to survive on Mars, as those two surfaces are considerable 
different. Efforts to develop lunar resources in this manner could thus 
be considered a fiscal and managerial distraction from the Martian goal 
if not approached wisely.

Question submitted by Representative Nick Lampson

Q1.  Science by itself is not going to sustain the public's support for 
the long-term program contemplated in the President's plan. After all, 
the 1960s Apollo lunar landing program had developed some impressive 
science capabilities, and Apollo 17 carried the first scientist-by-
training (geologist Harrison Schmitt) to work on the Moon. 
Unfortunately, he was also the last. What is different enough about the 
ideas you are advocating here that will avoid the fate suffered by the 
Apollo program?

A1. While I believe that the Moon is an important science target, and 
quite possibly a useful station for the exploration of the solar 
system, we should not lose sight of the fact that many opportunities, 
both science and otherwise, are to be found in free-space, whether in 
low-Earth orbit or beyond. Our investment in the International Space 
Station has given us expertise in this regard. Low-Earth orbit has been 
an enabling destination, giving confidence in microgravity performance, 
rendezvous skills, and deployment and construction strategies. From a 
science standpoint, and quite likely from a capabilities standpoint, 
exploration of the solar system will be more about free-space than 
about dirt. If resources on the Moon present a low-cost opportunity to 
develop free-space, then the Moon has great value. If we as a nation 
decide that survivability as a species requires long-term presence on 
the Moon, then it also has value. If those resources are not to be 
found there, or if that survivability decision is not cogent, the Moon 
is less important to the grand picture. Going to the Moon simply to be 
on the Moon does not seem a defensible goal, and can only divert 
attention and resources from a human voyage to Mars, which is the next 
great challenge that space offers.
    The fate of the Apollo program was that we succeeded. We set out a 
goal that was an enormous challenge to the Nation, and we lived up to 
it. We proved our stuff to ourselves and to others. After we achieved 
that goal we were, quite simply, done. The termination of that program 
was strategic acknowledgment of that fact. The fate of the space 
program after Apollo was that we were reluctant to commit to new long-
range goals, and it is these long-range goals that the new Vision for 
Exploration addresses. The Vision can succeed if it articulately 
addresses key national needs, and represents value to the taxpayer.

                   Answers to Post-Hearing Questions

Responses by Donald B. Campbell, Professor of Astronomy, Associate 
        Director, National Astronomy and Ionosphere Center (NAIC), 
        Cornell University

Questions submitted by Chairman Dana Rohrabacher

Q1.  Please provide your views on what roles the private sector, 
including businesses and educational institutions, can contribute to 
the successful development and exploitation of lunar resources, and to 
the provision of services in support of NASA's lunar exploration 
program.

        <bullet>  Based on current capabilities, do you believe the 
        private sector has unique expertise needed by NASA to return to 
        the Moon?

        <bullet>  What are the biggest obstacles to private sector 
        participation in lunar exploration and resource exploitation 
        activities?

        <bullet>  Once NASA has established a long-term presence on the 
        Moon, are there markets you believe could be exploited by 
        private industry, and if so, what might they be?

A1. Based on the experience of the Apollo program and the International 
Space Station, private industry expertise would clearly play a very 
important role in a return to the Moon with industry participation 
being contracted by NASA or some other government agency. I am 
personally pessimistic that there are resources on the Moon that would 
be commercially exploitable for use on the Earth or in near-Earth orbit 
in the foreseeable future without substantial direct or indirect 
government subsidies. Solar power generation has been mentioned. While 
it may be possible to utilize local resources to fabricate the 
collectors, beaming the power back to Earth requires relatively 
sophisticated technology much of which would need to be transported to 
the Moon. The cost of this, combined with difficulties related to the 
lunar day/night cycle and the orbital motion of the Moon, would very 
likely make a lunar based solar power system uncompetitive with one 
placed in a synchronous orbit above a fixed location on Earth.

Q2.  NASA's Office of Space Science is responsible for the lunar 
robotic portion of the Space Exploration Initiative. How would you 
recommend the office reach out to the science community to carry out 
this program? Is NASA using science advisory panels to select 
instrument proposals for upcoming missions?

A2. There seems little reason for NASA to change existing practices for 
organizing and arranging for participation in space missions. An 
``Objectives and Requirements Definition Team'' was established for the 
Lunar Reconnaissance Orbiter (LRO) mission that laid out the primary 
objectives of the mission and a possible instrument payload which would 
enable the objectives to be met to the greatest extent possible. An 
announcement of opportunity was then issued by NASA soliciting 
proposals for instruments to be carried on LRO.

Q3.  The Space Exploration Initiative proposes establishing an extended 
human lunar mission. Based on your knowledge of the Moon's environment 
and resources, how difficult a task will it be to develop and sustain 
humans for a two-month period? For a stay of that duration, would it be 
practical to develop in situ resources to help sustain lunar 
astronauts? How about a six-month stay?

A3. The MIR and International Space Station have shown that it is 
possible to support humans in space over extended periods. The 
difficulties in maintaining a human presence on the Moon, however, for 
even a few months should not be underestimated. Only a determined and 
sustained preparatory effort would make such an enterprise feasible. 
Issues such as the radiation environment and power requirements during 
the long lunar night have been extensively discussed and various 
solutions proposed including siting a base at the lunar poles where 
there may be areas that are in near permanent sunlight and where 
resources such as water ice may be present.
    Developing the infrastructure to allow local resources to be 
utilized will require an extended and sustained effort. An initial two-
month stay by astronauts must be preceded by pre-positioning of vital 
supplies and shelters and, if it seems feasible during the planning 
stages, the establishment of automated facilities for extraction of 
lunar resources such as oxygen. There is no point to such a long stay 
unless it is part of a sustained effort to establish a base that would 
allow even longer stays (e.g., six months) and the use of local 
resources to the maximum extent possible.

Questions submitted by Representative Nick Lampson

Q1.  Given the data acquired by the Apollo lunar landing program and 
its robotic precursors, as well as data obtained by the subsequent 
Clementine and Lunar Prospector spacecraft, what additional 
information, if any, will be needed before NASA can send humans back to 
the Moon by 2020?

A1. The Clementine and Lunar Prospector orbiters provided maps of the 
mineralogy and elemental composition of the lunar crust, and Lunar 
Prospector data suggest the possible presence of water ice in 
permanently shadowed regions near the lunar poles. What is needed, and 
could be accomplished by the instrument suite recommended for the Lunar 
Reconnaissance Orbiter (LRO), is a comprehensive survey of the Moon's 
polar regions, focused on identifying possible deposits of ice that 
could be viable resources for even temporary human habitation. The LRO 
mission and possible follow on missions, will also need to carry out 
detailed surveys for possible base sites. This involves issues such as 
landing safety, lighting conditions over the course of a year, suitable 
terrains for vehicles and proximity to resources.

Q2.  What will it take to answer definitively the question of how much 
water ice might be on the Moon? How much time is it likely to take to 
characterize the global availability of water on the lunar surface?

        <bullet>  How many remote-sensing missions will be necessary to 
        obtain this complete characterization?

        <bullet>  What will it take to map other lunar resources?

A2. While there may be very small quantities of water ice in the 
general lunar soil due to protons implanted by the solar wind, they are 
not recoverable. The only likely locations with significant recoverable 
concentrations of water ice are permanently shadowed terrains at the 
lunar poles. Only two methods are currently known to remotely sense the 
presence of water ice; radar and neutron spectrometers. A single 
mission with these two instruments will provide the best information 
that we can obtain from orbit. Radar can detect ice in the form of 
relatively thick sheets, a meter or more in thickness depending on the 
wavelength of the radar. These sheets can be buried under two meters or 
more of lunar soil and would still be detectable by radar. Neutron 
spectrometers detect the presence of hydrogen which may or may not be 
associated with oxygen in the form of water molecules. Very high 
concentrations of hydrogen can reasonably be interpreted as indicating 
the presence of water ice. This ice could be in any form, small 
crystals or larger sheets, in the upper meter or so of the surface. A 
survey of the lunar polar regions with these instruments on an orbiter 
such as the planned Lunar Reconnaissance Orbiter, would take a few 
months. Verification could be accomplished by in situ measurements 
carried out by landers or penetrators.
    Other lunar resources include iron- and titanium-rich lava flows, 
and possibly isolated deposits of volcanic glasses that may contain 
useful materials. Most of these deposits have been well-mapped from 
orbit, and would require little additional information to target 
initial surface experiments in resource extraction.

Q3.  Would any of the scientific research you have discussed require 
astronauts on the Moon as opposed to robotic orbiters, landers, rovers, 
or research stations? If so, which research, and why? Does any of the 
scientific research or resource extraction you have discussed require a 
permanent human presence on the Moon? If so, how soon should that 
permanent human presence be established?

A3. It has long been suggested that the Moon would be a preferred site 
for astronomical telescopes operating at wavelengths that are affected 
by the Earth's atmosphere or, in the case of radio astronomy, to 
isolate the telescope from the effects of radio frequency interference 
on the Earth. While there is a debate as to whether, in the long-term, 
it is preferable for such telescopes to be free-flying space 
instruments or located on the lunar surface, if they are placed on the 
Moon then a human presence will probably be needed for the initial 
installation and, possibly, periodic maintenance. They should be able 
to run robotically in normal operation.
    Unless some commercially viable resource is discovered on the Moon 
I would think that there is little justification for establishing a 
permanent human presence on the Moon. However, this comment could have 
also been made about the Earth's south pole but for geopolitical and, 
more recently, scientific research considerations, the United States 
maintains a permanent presence there.

Q4.  Science by itself is not going to sustain the public's support for 
the long-term program contemplated in the President's plan. After all, 
the 1960s Apollo lunar landing program had developed some impressive 
science capabilities, and Apollo 17 carried the first scientist-by-
training (geologist Harrison Schmitt) to work on the Moon. 
Unfortunately, he was also the last. What is different enough about the 
ideas you are advocating here that will avoid the fate suffered by the 
Apollo program?

A4. The United States has been supporting a human presence in space for 
over forty years. Withdrawing from space seems unthinkable. Explaining 
to students that we once had the capability to regularly visit the Moon 
but have not been back in over 30 years is difficult enough. For the 
next generation of teachers to explain to students that sending humans 
into space was once relatively routine but that we decided to withdraw 
from space would be even more difficult. However, the practical issue 
of ``why do we want to be in space'' is a difficult one. It is clear 
that the International Space Station is not the science platform that 
its backers long touted and that its major use is the study of the 
long-term effects on humans of micro-gravity. That leaves the only 
possible reason for a human presence in space, exploration, the 
traditional reason that great risks in both lives and money have been 
taken. Setting up a base on the Moon is little different from the Space 
Station, just more expensive and accompanied by greater risk. Therefore 
its only justification has to be in terms of preparations for an 
expedition to Mars. Sustaining public interest in, and the willingness 
to continue to expend large sums on this decades long endeavor will be 
a significant challenge. The Apollo program enthralled the American 
(and the world's) people despite much of that decade being one of great 
social turmoil. We need to engender the same enthusiasm for a Mars 
program.

                   Answers to Post-Hearing Questions

Responses by John S. Lewis, Professor of Planetary Sciences, Co-
        director, Space Engineering Research Center, University of 
        Arizona

Questions submitted by Chairman Dana Rohrabacher

Q1.  NASA's Office of Space Science is responsible for the lunar 
robotic portion of the Space Exploration Initiative. How would you 
recommend the office reach out to the science community to carry out 
this program? Is NASA using science advisory panels to select 
instrument proposals for upcoming missions?

A1. NASA's traditional method of issuing an announcement of 
opportunity, receiving proposals, peer review, and selection is 
appropriate for use in future science missions. However, experiments 
directed toward resource extraction and processing enter new terrain, 
and there are no acceptable precedents. The one flight experiment on 
resource extraction selected to date was hand-picked by JSC without 
peer review and without competition, a poor precedent for the future. 
Further, the NASA organizational structures responsible for space 
resource processing have been repeatedly decimated, dissolved, and 
transplanted. A stable program office with competence in space resource 
processing is essential for further progress. How NASA will choose to 
handle this problem is completely unknown.
    Changes in the administrative structures for resource-related 
research over the past 20 years, even when well-intended, have been 
poorly implemented. The unintentional cancellation of the NASA 
Universities Space Engineering Research Centers (as described to me 
privately by Dan Goldin) is a case in point. Another example was the 
decision to place space resource research under the aegis of the 
Microgravity Processing research program, which previously, over a 
period of several years, had insisted that it had no interest in 
processing extraterrestrial materials. The announcement of this new 
proposal opportunity by the Microgravity office was sent to their list 
of prior clients, none of whom had worked on space resource extraction, 
and the opportunity remained essentially unknown in the space resource 
community until after the money was awarded. These two fiascoes 
resulted in the permanent loss of some 90 percent of the research 
groups that had competence in this area.
    The system for resource-related research is broken and must be 
fixed.

Q2.  The Space Exploration Initiative proposes establishing an extended 
human lunar mission. Based on your knowledge of the Moon's environment 
and resources, how difficult a task will it be to develop and sustain 
humans for a two-month period? For a stay of that duration, would it be 
practical to develop in situ resources to help sustain lunar 
astronauts? How about a six-month stay?

A2. For sufficiently short mission durations, the advantages of 
resource utilization vanish. Basically, for short missions the mass of 
processing equipment may be greater than the mass of products needed, 
so that it would make more sense to carry the required products from 
Earth. Whether the break-even point lies at mission durations of one 
month, or two, or some other number depends in a complex way on the 
size and nature of the demand, the available power level, and the 
specific resources available at the site.
    Note, however, that the time duration of a manned mission may be 
completely unrelated to the length of time the processing equipment can 
function: it would be highly desirable to land an automated processing 
unit well in advance of the arrival of a manned mission, so that an 
abundant supply of consumables (air, water, propellant) can be at hand 
from the moment of the crew's arrival on the Moon. With proper advance 
planning, any manned mission of any duration could profit from the 
prior emplacement of unmanned processing equipment.

Questions submitted by Representative Nick Lampson

Q1.  Given the data acquired by the Apollo lunar landing program and 
its robotic precursors, as well as data obtained by the subsequent 
Clementine and Lunar Prospector spacecraft, what additional 
information, if any, will be needed before NASA can send humans back to 
the Moon by 2020?

A1. Strictly speaking, no new data are required before the resumption 
of manned expeditions to the Moon. If, however, cost containment and 
operational flexibility are priorities, then resource characterization 
and small-scale demonstrations of processing schemes should both be 
accomplished before resumption of manned missions.

Q2.  What will it take to answer definitively the questions of how much 
water ice might be on the Moon? How much time is it likely to take to 
characterize the global availability of water on the lunar surface?

        <bullet>  How many remote-sensing missions will be necessary to 
        obtain this complete characterization?

        <bullet>  What will it take to map other lunar resources?

A2. It is actually more useful to know the concentration of ices, the 
chemical nature of the ices, and the vertical distribution of ice in 
the uppermost one or two meters of the regolith than it is to know the 
total magnitude of the ice deposits. From a practical point of view, it 
is not necessary to have a global understanding of the abundance and 
distribution of ice from the outset, only to have assurance that there 
is at least one locale where the resource constitutes a true ore body, 
meaning that the location, abundance, purity, extractability, 
suitability for processing, and proximity to a plausible site of demand 
combine to make the use of that resource profitable.
    A single mission could, with luck, provide such data. With poor 
luck, dozens of lander missions in the polar regions may not find a 
single suitable location; indeed, there may not be any suitable 
locations.
    Mapping of other attractive resources, such as ilmenite (a source 
of oxygen, high-purity iron, and refractory oxides) has already been 
accomplished to a remarkable degree from Earth and from spacecraft. 
Rich, wide-spread deposits are well documented. It is not obvious that 
better mapping would be of any practical significance.
    Hydrogen mapping, aside from ice, can be done only very indirectly 
by remote sensing. Our experience with the Apollo samples shows that 
hydrogen and helium, both implanted by the solar wind in surface 
mineral grains in the near-side Mare basins, are strongly enriched in 
the mineral ilmenite. Therefore existing ilmenite maps are likely to be 
very good guides to the distribution of hydrogen. However, the 
concentration of hydrogen in even the most ilmenite-rich regions is 
generally no higher than 50 to 100 parts per million (50 to 100 grams 
per tonne).
    Should helium-3 emerge as a desirable fusion fuel, the same 
ilmenite maps would serve as excellent guides to helium-3 ``deposits'' 
(recalling that the ceiling on the helium-3 concentration is about 0.01 
parts per million).
    In general, I remain skeptical of the practical value of polar ice 
and confident that other oxygen sources can be practically utilized.

Q3.  Would any of the scientific research you have discussed require 
astronauts on the Moon as opposed to robotic orbiters, landers, rovers, 
or research stations? If so, which research, and why? Does any of the 
scientific research or resource extraction you have discussed require a 
permanent human presence on the Moon? If so, how soon should that 
permanent human presence be established?

A3. I shall consider only research oriented toward resource 
characterization and extraction, since these are the matters touched on 
in my testimony. The answer is that all such research missions can, and 
arguably should, be unmanned. The emphasis should be on lowering the 
cost and enhancing the capabilities of humans, when they eventually 
arrive, rather than using humans to search out and demonstrate 
resources.
    The only resource whose extraction would clearly require a massive 
human presence is helium-3, but commercial-scale helium-3 extraction, 
if it ever becomes possible, is far in the future. A similar 
consideration applies to construction of lunar solar power stations.
    My vision of the future of space travel is that permanent human 
presence anywhere will follow only if that presence generates benefits 
that justify the costs. Science exploration is a wonderful benefit, but 
will not carry us very far by itself. I simply do not see purely 
scientific endeavors as providing a justification for permanently 
manned lunar facilities. I regard it as premature and indefensible to 
arbitrarily set up a goal of having a permanent human presence on the 
Moon, Mars, or elsewhere in space. However, I regard it as completely 
plausible that some profitable activity may emerge as the result of 
acquiring a better understanding of the lunar environment. Such a self-
supporting activity may, as others argue, involve utilization of lunar 
polar ice or helium-3, but I personally think that lunar solar power 
collection is a more probable economic foundation for permanent human 
presence.

Q4.  What would it take to be able to extract usable quantities of 
oxygen and hydrogen from the Moon for use as a rocket fuel? How long 
would it take to develop such a capability, and how much do you think 
it would cost? What is the most significant challenge in developing 
such a capability?

A4. Extraction of oxygen from the lunar surface could in principle be 
carried out by any of over a dozen different processing schemes. A 
thorough engineering and cost assessment of all competing schemes has 
not yet been conducted. Nonetheless, for the sake of concreteness, I 
will outline one very simple scheme that would be appropriate for use 
in an early automated lander.
    In this scheme, the lander carries a mechanical arm and scoop that 
can be used to reach and load regolith material. It also carries a tank 
of compressed hydrogen gas for use in the process. The scoop loads 
regolith material into a reaction vessel, which is then sealed. 
Hydrogen gas is admitted into the sealer reaction chamber and the 
regolith/gas mixture is heated by a parabolic solar collector to a dull 
red heat. At this temperature, the hydrogen gas reacts with iron oxides 
in the regolith minerals, principally ilmenite, olivine, and pyroxene, 
to extract oxygen from the iron oxides and make metallic iron and water 
vapor. The gas is slowly circulated through a condenser, and water is 
condensed and removed from the circulating stream of hydrogen gas. The 
remaining hydrogen is returned to the reaction chamber. The liquid 
water is tapped off and electrolyzed by a DC electric current, which 
can be provided by solar cells or a nuclear power supply. The products 
of electrolysis are hydrogen gas, which is returned to the reaction 
vessel, and oxygen, which is compressed and cooled to make liquid 
oxygen. This is our principal product.
    Since the ilmenite in the regolith sample contains some hydrogen 
from the solar wind, the heating process will cause that gas to be 
released along with water vapor. Any hydrogen lost during the cycle 
will automatically be replaced or enhanced by the hydrogen released in 
this manner. The processing of 1000 pounds of regolith with a 20 
percent ilmenite content uses up about two pounds of hydrogen and 
releases 24 pounds of water. Upon electrolysis, this amount of water 
makes about 22 pounds of oxygen and gives back the two pounds of 
hydrogen for reuse. The amount of solar wind hydrogen released by 
heating this amount of regolith is about another 0.1 pounds. With some 
care, the total supply of hydrogen may be slowly increased over time; 
however, it is clear that hydrogen extraction can never keep pace with 
oxygen extraction. The supply of hydrogen in the regolith is simply too 
small. In other terms, extracting 100 tons of hydrogen from the 
regolith requires heating one million tons of the most hydrogen-rich 
regolith and recovering its hydrogen content with perfect efficiency. 
Extracting 100 tons of oxygen, by contrast, requires processing only 
four thousand tons of regolith, equivalent to a cube of lunar dirt 
about 12 meters on a side.
    Separating the lunar regolith powder to extract most of the 
ilmenite in rather pure form would make the chemical processing step 
far easier, since we would need to heat only 200 pounds of pure 
ilmenite to make the same 24 pounds of water. However, the separation 
process, called ``beneficiation'' in the minerals industry, requires 
crushing, sieving, and magnetic or electrostatic sorting of the mineral 
grains, all of which adds considerable complexity to the process. Rock 
crushing should not be undertaken lightly in the absence of a human 
crew to diagnose and repair the inevitable equipment breakdowns. 
Further, the loss of ``sticky'' ilmenite dust from the process and the 
difficulty of liberating ilmenite grains from the other minerals in the 
regolith rock fragments are both essentially unsolved problems. For 
this reason, I consider such ``improvements'' as inappropriate for 
early use on an automated lander.
    Adopting the simpler process and processing bulk uncrushed, 
unsorted regolith appears simple enough so that a 100-pound 
demonstration experiment suitable for testing on the Moon could be 
built and made ready for flight in about two years. Building the 
equipment would be relatively quick and cheap compared to the cost of 
transporting it to the lunar surface with current rocket hardware. 
Costs could be reduced more dramatically by changing to competitive 
launch services than by any plausible changes in the payload itself. To 
my mind, the most severe technical challenge is making reliably air-
tight seals on the processing chamber in the dusty operational 
environment.

Q5.  Science by itself is not going to sustain the public's support for 
the long-term program contemplated in the President's plan. After all, 
the 1960s Apollo lunar landing program had developed some impressive 
science capabilities, and Apollo 17 carried the first scientist-by-
training (geologist Harrison Schmitt) to work on the Moon. 
Unfortunately, he was also the last. What is different enough about the 
ideas you are advocating here that will avoid the fate suffered by the 
Apollo program?

A5. There is one overwhelming difference between the approach of the 
Apollo program and that which I advocate. The Apollo program was a very 
dramatic race, little constrained by considerations of cost, to make a 
political statement of American technical superiority vis a vis the 
Soviet Union. Quite the opposite, I propose and endorse the use of 
every plausible means to reduce costs, including use of private 
competitive launch services, the use of non-terrestrial resources to 
give space missions a high degree of self-sufficiency and autonomy, and 
the complementary use of manned and unmanned missions. I propose a 
diligent search, based on the intelligent use of unmanned small probes, 
for economically self-sufficient future activities on the Moon. I have 
discussed these issues with Jack Schmitt, and I am pleased to find that 
he agrees with these principles. We differ on our assessments of the 
likely profitability of different forms of lunar enterprise, but we 
differ because the evidence is at present inadequate to assess these 
competing forms of enterprise. We agree that small and early unmanned 
missions are required to reduce these uncertainties, and that plans for 
the longer term must await the results of these studies.
    My vision of the future is not a governmental ``space program'' 
supported by massive federal infusions of funds. My vision assigns to 
the Federal Government the responsibility for fundamental scientific 
research and technology development, and leaves to industry and 
commerce the task of making a profit in space and paying taxes on their 
profits. My vision is a space enterprise dominated by organizations 
that pay tax dollars, not those that spend them. It is a democratic and 
capitalistic, not a socialist and government-monopolist, vision.

                   Answers to Post-Hearing Questions

Responses by Timothy D. Swindle, Professor of Geosciences and Planetary 
        Sciences, University of Arizona

Questions submitted by Chairman Dana Rohrabacher

Q1.  Please provide your views on what roles the private sector, 
including businesses and educational institutions, can contribute to 
the successful development and exploitation of lunar resources, and to 
the provision of services in support of NASA's lunar exploration 
program.

        <bullet>  Based on current capabilities, do you believe the 
        private sector has unique expertise needed by NASA to return to 
        the Moon?

        <bullet>  What are the biggest obstacles to private sector 
        participation in lunar exploration and resource exploitation 
        activities?

        <bullet>  Once NASA has established a long-term presence on the 
        Moon, are there markets you believe could be exploited by 
        private industry, and if so, what might they be?

A1. I won't comment about the obstacles to private sector 
participation, since that is not something that I have considered in 
any detail. Whether there are markets that can be exploited by private 
industry will depend on the scale of the presence on the Moon. As Dr. 
Lewis said in his testimony, while there are lunar resources that can 
be very valuable, most of them are valuable only on or near the Moon. 
The two exceptions that have been suggested most prominently are the 
use of 3He as a fusion reactor fuel, and the use of lunar solar power 
``farms'' to generate energy to be beamed back to Earth. As I said, I 
believe that the first, which I have studied, will be a very large and 
difficult project, though it should not be ruled out. Sending solar 
power generated on the Moon back to Earth is a concept that certainly 
deserves more study.

Q2.  NASA's Office of Space Science is responsible for the lunar 
robotic portion of the Space Exploration Initiative. How would you 
recommend the office reach out to the science community to carry out 
this program? Is NASA using science advisory panels to select 
instrument proposals for upcoming missions?

A2. The Office of Space Science has been pursuing a program for 
exploration that includes a mixture of missions that are arrived at by 
some consensus method and missions that are proposed by individual 
investigators and then chosen by peer review. For example, NASA 
requested a ``decadal survey'' of the scientific community. This 
document, produced under the auspices of the National Research Council 
and released in 2002, received input from a large fraction of the 
scientific community, and so far has been used by the Office of Space 
Sciences. One of the first things the Aldridge Commission did was to 
seek the input of scientists at the annual Lunar and Planetary Science 
Conference, which is attended by the vast majority of lunar scientists. 
Assuming the commission's recommendations reflect that input, and that 
NASA follows those recommendations, that is an appropriate approach.

Q3.  The Space Exploration Initiative proposes establishing an extended 
human lunar mission. Based on your knowledge of the Moon's environment 
and resources, how difficult a task will it be to develop and sustain 
humans for a two-month period? For a stay of that duration, would it be 
practical to develop in situ resources to help sustain lunar 
astronauts? How about a six-month stay?

A3. I have not studied the problem of development of lunar bases, so I 
will not reply.

Questions submitted by Representative Nick Lampson

Q1.  Given the data acquired by the Apollo lunar landing program and 
its robotic precursors, as well as data obtained by the subsequent 
Clementine and Lunar Prospector spacecraft, what additional 
information, if any, will be needed before NASA can send humans back to 
the Moon by 2020?

A1. Given the success of the Apollo program, it is clear that for very 
short stays at some places on the Moon, we do not need any additional 
information. For stays at other locations that are not as well-mapped 
from orbit as the Apollo sites, we would need imagery comparable to 
that used in the Apollo program. For longer, or permanent, stays, we 
need to have information on what resource utilization schemes can work. 
Some of this is laboratory work, simply designing and testing potential 
equipment, but I would think that we would need missions to at least 
test those schemes that seem most promising in the lunar environment.

Q2.  What will it take to answer definitively the question of how much 
water ice might be on the Moon? How much time is it likely to take to 
characterize the global availability of water on the lunar surface?

        <bullet>  How many remote-sensing missions will be necessary to 
        obtain this complete characterization?

A2. I will defer to Drs. Campbell and Spudis, who have far more 
expertise on this than I do.

Q3.  What will it take to map other lunar resources?

A3. It depends on the resource. For <SUP>3</SUP>He, it would require 
one or two sample returns from specific places (far-side sites with 
relatively high titanium) as well as one or two missions to the surface 
to investigate the properties of the lunar ``regolith'' (soil) in more 
detail. For most other resources, where the proposals have been simply 
for extraction of relatively common materials from the lunar regolith, 
the requirement is again to learn enough about the properties of the 
regolith to be able to implement extraction schemes. In particular, for 
many techniques, it is crucial to learn more about how the properties 
of the regolith change with depth, but a lot of that could be learned 
with one or two fairly simple missions.

Q4.  Would any of the scientific research you have discussed require 
astronauts on the Moon as opposed to robotic orbiters, landers, rovers, 
or research stations? If so, which research, and why? Does any of the 
scientific research or resource extraction you have discussed require a 
permanent human presence on the Moon? If so, how soon should that 
permanent human presence be established?

A4. Any research that requires the selection of samples will be far 
more effective with astronauts than without, for the simple fact that a 
human brain coupled with the human visual system can make selections 
much more efficiently than any robotic system yet designed. In 
Antarctic tests, a sophisticated robot designed to search for 
meteorites was far inferior to non-geologists with a few days of 
training. Much of the science on the Moon could be done without humans 
by a brute force technique, simply acquiring many more samples than are 
really needed, in hopes of finding the right ones. However, humans are 
remarkably good at finding the ``right'' sample, as was amply 
demonstrated by the well-trained Apollo astronauts. Using humans to 
operate things by telepresence would be an intermediate option, but 
even that would work far better with the remote presence on the Moon, 
with virtual no delay between command and response, than on Earth, with 
the delay caused by the finite speed of light. On the other hand, 
science that involves measuring global or average properties is far 
less likely to need human presence. As an extreme case, information 
that can be determined best from lunar orbit is unlikely to gain much, 
if any, benefit from the presence of humans.
    A large portion of most resource utilization schemes could probably 
be done robotically. However, the more complex the task and the 
equipment, the more likely it is that there will be equipment failures 
of one sort or another. In these cases, a human with a tool kit is far 
more valuable than any robotic service mission.
    Whether any of this requires permanent human presence probably 
depends on the scale of activities. If only low-level activity is 
planned, occasional human presence, to go collect a particular set of 
samples or to service a particular piece of equipment, would be 
sufficient. The more ambitious the plans, the more valuable continuous 
human presence would be.

Q5.  Science by itself is not going to sustain the public's support for 
the long-term program contemplated in the President's plan. After all, 
the 1960s Apollo lunar landing program had developed some impressive 
science capabilities, and Apollo 17 carried the first scientist-by-
training (geologist Harrison Schmitt) to work on the Moon. 
Unfortunately, he was also the last. What is different enough about the 
ideas you are advocating here that will avoid the fate suffered by the 
Apollo program?

A5. Science was never the primary purpose of the Apollo program, simply 
getting to the Moon was. Although the astronauts did a wonderful job as 
scientists, that was only their secondary purpose. Furthermore, the 
science that they did was not that compelling to the non-scientist, 
since it was really exploratory, just trying to figure out as much 
about the Moon as possible.
    We now know enough about the Moon to understand that the Moon 
provides a record of early events, particularly impacts, whose record 
is lost on Earth. Furthermore, this is intimately tied not only to the 
impact history of the Earth, but to the origin of life on Earth. Hence, 
by studying this portion of the Moon's history, we now recognize that 
we are studying the question of the origin of life itself, one of the 
most compelling questions in science at the start of this century.
    While this science will never be enough to justify the entire Moon-
Mars initiative, it is enough to be easily understood as a crucial and 
worthwhile component.

</pre></body></html>
